<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 7, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ACTING ARCHITECT OF THE 
            CAPITOL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. We will come to order.
    We will begin. I will get through the opening statement, 
and then we will take care of Senator Murkowski's opening 
statement when she gets here.
    Good afternoon, and we are happy to have so many people 
here. We are meeting this afternoon to take testimony on the 
fiscal year 2010 budget requests for the Architect of the 
Capitol (AOC) and the Office of Compliance (OOC).
    It is my pleasure to welcome shortly the ranking member and 
my good friend Senator Murkowski, and Senator Pryor is here and 
will return. And I believe Senator Tester is also planning to 
be here.
    I want to welcome our witnesses today--Stephen Ayers, 
Acting Architect of the Capitol and Tamara Chrisler, the 
Executive Director of the Office of Compliance. We welcome both 
of you. It is good to have you here, and we look forward to 
hearing from you.
    If it is possible to keep your opening statements brief, 
around 5 minutes, and submit the rest of your testimony for the 
record, it probably would work best for us. And I now welcome 
my ranking member, Senator Murkowski, and Senator Pryor to the 
hearing.
    One thing that I think, hopefully, we established at our 
first hearing a couple weeks ago is that we are not eager to 
increase the overall legislative branch budget. We certainly 
intend to address your agencies' needs, but this is not the 
year for the ``nice to haves.''
    This subcommittee received an 11 percent increase in fiscal 
year 2009, but I seriously doubt that we are going to see 
anything near a double-digit increase this year.

                   <greek-l>AOC deg.AOC APPRECIATION

    Mr. Ayers, I would like to first extend my personal 
gratitude to your entire staff for their hard work in 
maintaining the Capitol complex on a daily basis. You have got 
a very dedicated workforce. We are aware of that. We see it 
every day. And in particular, I would acknowledge the great 
service provided to us here in the Senate, led by the Senate 
Superintendent Robin Morey.
    It was interesting to note that while we recently 
celebrated the 100th birthday of the Russell Senate Office 
Building, the House is estimating a cost of about $753 million 
to remodel the Cannon House Office Building, which was built 
just 1 year earlier. So I think it says an awful lot for AOC's 
Senate folks who truly do a great job, and we appreciate all of 
your efforts.
    Mr. Ayers. Thank you, Mr. Chairman.
    Senator Nelson. You are welcome.
    The Architect of the Capitol's fiscal year 2010 budget 
request totals $644.6 million, a 20 percent increase over 
current year. And as we discussed in my office a few weeks ago, 
an increase like this is going to be quite a challenge, 
especially following the 28 percent increase your agency 
received in fiscal year 2009.
    Now I realize what you are going to face in maintaining 
working historical buildings with all the aging infrastructure 
while being held to mandated energy reductions. But we are 
going to have to work closely in identifying your most critical 
needs in crafting the 2010 appropriations bill.
    I also want to welcome Tamara Chrisler from the Office of 
Compliance. Your budget totals $4.4 million, a 10 percent 
increase over current year, including one additional employee, 
who brings your agency to a total of 22 full-time employees 
(FTEs). I look forward to hearing more about your agency 
mission and your fiscal year 2010 request.
    Now I would like to turn to my ranking member, Senator 
Murkowski, for her opening remarks.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    I add my welcome to both of you here this afternoon. Ms. 
Chrisler and Mr. Ayers, we appreciate the work that both of you 
have done over the years.
    Mr. Ayers, I think your agency's accomplishments as you 
have dealt with the opening of the Capitol Visitor Center 
(CVC), preparing the Capitol for the President's inauguration, 
keeping the facilities in good condition, we appreciate your 
efforts, that of your staff. And again, thank you for that.
    I understand that the AOC is moving forward with a variety 
of energy-related projects. I look forward to hearing a little 
bit more about those initiatives this afternoon.
    As the chairman has mentioned, we have seen with this 
legislative branch request for fiscal year 2010 a total of over 
$5 billion, an increase of nearly 15 percent over fiscal year 
2009. And Mr. Chairman, as I said in my last hearing and you 
have repeated, I am in favor of the legislative branch serving 
as a model for the rest of the Government. My questions today 
will seek to determine how we can accomplish that goal.

               <greek-l>AOC deg.AOC BUDGET REPRESENTATION

    As you have indicated, the AOC budget represents a 20 
percent increase, while the budget resolution, which we just 
passed, calls for a 7 percent increase in discretionary 
spending.
    Now I think we do appreciate here in the Capitol--we see it 
as we walk through--there is a backlog of projects within the 
AOC, primarily, because of the age of our buildings and the 
fact that we are still playing some catchup with implementing 
fire and life safety standards.
    But it is my understanding that some of the projects in the 
budget request probably wouldn't make it into the General 
Services Administration's (GSA) budget, for instance, because 
the legislative branch is held to a higher standard than the 
executive branch. And I understand the Congressional 
Accountability Act (CAA) enables the Office of Compliance to 
apply standards that would not ordinarily be applied to 
historic buildings.
    Now I want to be clear that I am very supportive, 
absolutely supportive of having strong fire and strong life 
safety standards. But I do have to question whether applying a 
gold standard to the legislative branch is appropriate. I think 
we need to be pragmatic, and I think we need to operate within 
a risk-based framework.
    I do believe that we need to do some paring back, and we 
will need your help, Mr. Ayers and Ms. Chrisler, to ensure that 
we meet the highest priorities and we fund those projects that 
really do give us the most bang for the buck, if you will. But 
I appreciate your good work, and I look forward to your 
testimony this afternoon.
    Senator Nelson. Senator Pryor, you waive your opening 
statement?
    Senator Pryor. I have no opening statement, Mr. Chairman.
    Senator Nelson. But not questions?
    Senator Pryor. Exactly.
    Senator Nelson. All right. Thank you.
    Well, first of all, Mr. Ayers, please, if you would, your 
opening remarks?

                   SUMMARY STATEMENT OF STEPHEN AYERS

    Mr. Ayers. Thank you, Mr. Chairman and Senator Murkowski 
and members of the subcommittee, for the opportunity to testify 
today regarding the AOC's fiscal year 2010 budget.
    First, I would like to thank the subcommittee for your 
support of our fiscal year 2009 budget to make the Capitol a 
safer, greener, and more efficient place. This year, we are 
requesting $644 million to support the maintenance, care, and 
operations of the buildings and grounds of the Capitol complex. 
We have developed our budget request to reflect the massive 
challenge of addressing the need to preserve the historic 
infrastructure on Capitol Hill while also recognizing the need 
to be fiscally responsible.

          <greek-l>AOC deg.AOC CHALLENGES--NEEDS VS. RESOURCES

    One of our biggest challenges is to maintain the aging 
infrastructure in this city within a city here on Capitol Hill. 
In March, we celebrated the 100th anniversary of the Russell 
building, and last year, we marked the 100th anniversary of the 
Cannon House Office Building.
    These buildings are historic and iconic, and require 
extensive maintenance in order to preserve them while, at the 
same time, keeping pace with new technologies, increased 
security requirements, and the necessary visitor amenities.
    Mr. Chairman, our needs far exceed the available resources, 
and we have developed an excellent project prioritization 
process to enable the Congress to make the best possible and 
informed decisions. Every project is evaluated on its 
importance, its urgency, and its category. These are really 
important, so I would like to take a moment to explain them.

                <greek-l>AOC deg.PROJECT PRIORITIZATION

    First, each project is categorized as deferred maintenance, 
capital renewal, capital improvement, or capital construction. 
Our budget requests are driven by the large number of deferred 
maintenance projects, as we believe it is most important to 
care for what you have before constructing new. So, in fact, 63 
percent of our budget is focused on these deferred maintenance 
projects, and only 12 percent is focused on capital renewal 
projects.
    Next, each project's urgency is determined by independent 
consultant assessments of our facilities. Projects are ranked 
as immediate, high, medium, or low urgency.
    Finally, each project's importance is carefully evaluated 
based upon a set of predetermined criteria, including historic 
preservation, fire and life safety, mission, economics, 
physical security, and energy and sustainability. We take all 
of these factors and bring them all together in a composite 
rating guide and, ultimately, deliver to the Congress a list of 
prioritized projects, top to bottom.

        <greek-l>AOC deg.AOC'S FISCAL YEAR 2010 PROJECT REQUESTS

    For fiscal year 2010, this list totaled $350 million worth 
of projects, and we have decided to request $168 million worth 
of those projects, which are only the highest, most urgent, and 
most important of all of those on the list. The choice to fund 
more projects or fewer projects is easy and is as simple as 
moving up or down on this priority list, depending upon the 
bottom line we need to achieve.
    We have continued to refine the data on which our planning 
is based. For example, over the past 5 years, we have conducted 
these independent facility condition assessments throughout the 
Capitol complex. These assessments identified the most critical 
issues in the facilities, and the objective data collected 
during this process helps us to identify which urgent needs 
must be done expeditiously.
    Specifically, the data continues to show that immediate and 
high-urgency deferred maintenance and capital renewal projects 
will increase significantly over the coming years. If these 
conditions are not addressed within a reasonable period of 
time, they will continue to deteriorate to the point where they 
can, and will, impact congressional operations.
    Last year, thanks to the subcommittee's commitment for 
funding to reinvest in the Capitol complex facilities, we were 
able to make a significant step toward buying down much of this 
deferred maintenance work. This includes improving life safety 
conditions throughout the Capitol complex.

       <greek-l>AOC deg.CAPITOL COMPLEX'S ENVIRONMENTAL FOOTPRINT

    We have been aggressively working to reduce the Capitol 
complex's overall energy consumption and its environmental 
footprint. In fiscal year 2008, our energy conservation efforts 
resulted in reducing the Congress' energy consumption by 10.7 
percent, exceeding the 2008 requirement of 9 percent.
    While these steps are significant, in moving forward, our 
goal is to make the Capitol complex more sustainable and energy 
efficient. There is still much work to do in furthering our 
sustainability practices.
    Mr. Chairman, the U.S. Capitol is the people's house, and 
for that reason, it is imperative that we do everything we can 
to continue to protect and preserve the Nation's icon for 
generations to come.

                           PREPARED STATEMENT

    Thank you, and I would be happy to answer any questions you 
may have.
    Senator Nelson. Thank you.
    [The statement follows:]

                 Prepared Statement of Stephen T. Ayers

    Mr. Chairman, Senator Murkowski, and members of the Subcommittee, 
thank you for the opportunity to testify today regarding the Office of 
the Architect of the Capitol's (AOC's) fiscal year 2010 budget request.
    I want to thank the Subcommittee for your support of our fiscal 
year 2009 budget request and the programs and priorities we set out in 
that submission, as well as for your guidance as we continually work to 
achieve our goals to serve Congress with a commitment to excellence.
    The past 6 months have been an extraordinary time for the AOC as 
the U.S. Capitol once again served as the Nation's stage. On December 
2, the doors to the Capitol Visitor Center (CVC) were opened to the 
public for the first time. Since that day, we have seen record numbers 
of daily visitors--just 2 weeks ago we saw our first day of more than 
19,400 guests. Over the past 5 months, we have seen visitation at the 
Capitol double over the number of guests received last year.
    Just 6 weeks after the CVC opened, the eyes of the world again 
turned to the Capitol Building for the historic 56th Presidential 
Inauguration. The AOC's involvement dates back to the 1860s when the 
Presidential Inauguration became a decidedly public event, and 
arrangements were made to allow the President to be closer to the 
people when taking the oath of office. We are honored to shoulder the 
responsibility for making all the infrastructure arrangements that are 
necessary to accommodate this event every 4 years.
    Given the magnitude of this event, we knew there was no room for 
error--the President-elect must be sworn-in at noon on January 20. Our 
capable team rose to the challenge; working countless hours to ensure 
that the Presidential platform was constructed, the seats on the West 
lawn were in place, and all of the final details were completed to 
ensure that the ceremony was successfully supported.
    As we worked to accommodate modern technologies into the Inaugural 
ceremonies, we also stayed true to our daily mission, which is to 
protect and preserve the national treasures entrusted to our care. 
Standing on the Inaugural platform, I couldn't help but think of the 
responsibility we have to ensure that the President-elect will be able 
to take his or her oath of office on January 20, on the West Front of 
the U.S. Capitol--the iconic symbol of our representational democracy--
for generations to come.
    With this in mind, the AOC has developed its budget request for the 
past several years to reflect the massive challenge of addressing the 
need to preserve the historic infrastructure on Capitol Hill, while 
recognizing the need for fiscal responsibility.
    In fact, our fiscal year 2010 budget has been structured around 
four focus areas. They are:
  --Solving the Deferred Maintenance and Capital Renewal backlog;
  --Following the Capitol Complex Master Plan process;
  --Meeting Federally-mandated and Leadership energy goals;
  --Managing and caring for the AOC work force.
    As I have discussed with this Subcommittee at prior hearings, we 
must continually manage the backlog of Deferred Maintenance and Capital 
Renewal projects, and have put into place a process by which to 
prioritize these projects.
    Not only do we face the challenge of the upkeep of aging buildings, 
we need to keep pace with new facility maintenance and building 
technologies, as well as increased security requirements. Last year, 
the Cannon House Office Building reached its 100th anniversary, and in 
March, we celebrated the 100th anniversary of the Russell Senate Office 
Building. These buildings are historic and iconic, and require 
extensive maintenance in order to preserve them, as well as ensure that 
they continue to serve as functioning, professional working 
environments for years to come.
    The following chart--the ``bow wave'' chart--clearly shows that 
ongoing facilities requirements and new mandates have created a 
significant increase in resource requirements. Our fiscal year 2009 
budget request, and subsequent appropriation, was a significant step in 
buying down a portion of the bow wave. This includes addressing 
stringent, modern-day fire and life-safety standards, and abating 
Office of Compliance citations to improve safety conditions throughout 
the complex. Life-safety projects are very high priorities for our 
Agency.
    However, we must continue to work on and to invest resources in 
projects that will prevent our critical facilities from further 
deterioration and failure. If we continue to defer these projects, the 
bow wave will move out and costs will increase over the long run. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Capital Budget Request and Project Planning Process
    Therefore, we are requesting $644.6 million for fiscal year 2010. 
We again utilized our program development process, which relies on the 
recommendations in the Capitol Complex Master Planning process, in 
structuring this budget request. This process assesses all the 
requirements of a project; determines the best way to implement these 
projects, including the option of ``phasing'' large projects over 
several years to manage costs and schedules; and prioritizes projects 
so that those of the greatest urgency are addressed immediately. We 
also took into consideration the need for fiscal restraint, and the 
challenge of executing the required programs efficiently throughout 
this process. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the above chart demonstrates, we continue to invest our 
resources in the areas that have an ``immediate'' urgency rating: 
Deferred Maintenance and Capital Renewal projects.
    We continue to refine the data on which our planning is based. For 
example, for the past 5 years we have conducted independent Facility 
Condition Assessments throughout the Capitol complex. These assessments 
identify the most critical issues in the facilities, and the objective 
data collected during this process helps us to identify the urgent 
needs that must be addressed expeditiously. Specifically, the data 
continues to show that ``immediate'' and ``high'' urgency Deferred 
Maintenance and Capital Renewal requirements will increase dramatically 
over the next several years. If these conditions are not addressed 
within a reasonable amount of time, they will continue to deteriorate 
to the point where they can, and will, impact Congressional operations.
    The Facility Condition Assessments also are used to determine a 
Facility Condition Index based on the backlog of Deferred Maintenance 
work. The Facility Condition Assessments and Facility Condition Indexes 
are used to predict the positive effect of investment and the negative 
effect of deferring work. Our assessments are showing that, at current 
funding levels, Capitol complex facilities are trending toward a 
``poor'' rating.
    Tied into the overall planning process is the Line Item 
Construction Program. During this process, projects are evaluated based 
upon an objective set of criteria.
    These criteria include:
  --Preservation of historic or legacy elements or features of 
        buildings or entire historic structures;
  --Fire and life-safety, code compliance, regulatory compliance, and 
        statutory requirements;
  --Impact on mission including client urgency, and accommodation of 
        new or changed missions;
  --Economics, including value, payback, life cycle costs, and cost 
        savings;
  --Physical security, including protection of facilities and people;
  --Energy efficiency and environmental aspects.
    The projects are further evaluated based on the conditions of the 
facilities and their components, and the urgency to correct the 
deficiencies.
    As we developed our fiscal year 2010 budget, we considered more 
than $350 million worth of projects, and are requesting $168.8 million 
for Line Item Construction Program projects. This prioritized list 
includes 36 projects; 32 of which are categorized as being of 
``immediate'' urgency. The remaining four are categorized as ``high.'' 
An additional 85 projects remain on the deferred list.
    Of particular note is a ``high'' urgency renewal design project: 
the Taft Memorial Renewal ($240,000). The Taft Memorial was constructed 
in 1958 and requires significant renewal. Its Tennessee marble facade 
has shifted, and the stonework is in need of major repair. Included in 
the design are plans to make the surrounding plaza ADA compliant. If 
the major deficiencies in this landmark memorial are not addressed 
expeditiously, structural and system failures could lead to the loss of 
a historically significant structure.
    The Senate Underground Garage has been identified by the Facility 
Condition Assessments as having serious deficiencies. It is rated 
``poor'' in terms of its Facility Condition Index, and it is nearing 
the end of its useful life. The planned study would examine options for 
providing parking to meet anticipated future needs; address 
infrastructure issues and mechanical, electrical, and fire prevention 
systems that have reached their life expectancies, as well as improve 
energy efficiency.
    Other key capital projects included in the AOC's fiscal year 2010 
budget request are:
  --Interim Painting of the Capitol Dome (part of ongoing 
        rehabilitation project);
  --Sprinkler System Design, Thomas Jefferson Building;
  --Various egress, fire door, and ADA restroom improvements for 
        Library of Congress buildings;
  --Independence Avenue repaving;
  --Cannon House Office Building Whole Building Renewal;
  --Upgrading physical security at the Capitol Power Plant;
  --Purchase Hazardous Device Unit and Vehicle Maintenance Facility for 
        U.S. Capitol Police;
  --Invest in Capitol Power Plant infrastructure;
  --Construct Book Storage Module 5 for Library of Congress;
  --Energy Conservation projects, such as Senate Office Building 
        computer server closet cooling, HVAC controls replacement, and 
        other projects identified by energy audits.
    Mr. Chairman, I would like to call to the Subcommittee's attention 
one project that has benefited from our comprehensive planning 
process--the Utility Tunnel Improvement Program. Last year, we 
requested $126.6 million for the program based on preliminary studies 
so that we could meet the 5-year completion schedule per the agreement 
with the Office of Compliance. After submitting the fiscal year 2009 
request, we re-evaluated the program, examined phasing and contract 
options, and employed innovative new construction technologies to 
increase the pace of the work.
    Based on the excellent progress made during the ongoing engineering 
work, we also evaluated and re-validated our approach to the project 
work, and refined our budget projection accordingly. We downsized our 
fiscal year 2009 request to $56.4 million. In fiscal year 2010, we are 
requesting $45.8 million to maintain our aggressive schedule to meet 
the settlement terms by 2012. All told, we were able to reduce the 
total projected cost of the Utility Tunnel Improvement Program from 
$235 million to $186.4 million--more than a 20 percent decrease. And, 
we remain on schedule to meet the settlement agreement terms by June 
2012.
    This past year, we have repaired and expanded the existing 
communications system to ensure continuous communications capability in 
the tunnels. As a result, the Office of Compliance approved the closure 
of this citation in January 2009.
    We also are engaged in an aggressive program to abate friable 
asbestos pipe insulation from steam, condensate, and chilled water 
lines in the tunnels. Completion of this work is anticipated in 2010. 
In addition, the removal of spalling concrete is on schedule. With 
regard to tunnel temperatures, we have re-insulated all steam and 
condensate lines, the major cause of high heat conditions in the 
tunnels; improved the existing ventilation system to further reduce 
temperatures, and designed a new ventilation system to further improve 
temperatures. In addition, we've upgraded existing egresses, and we are 
installing new egresses where needed.

            ENERGY CONSERVATION AND SUSTAINABILITY PROGRAMS

    The AOC has been aggressively working to reduce the Capitol 
complex's environmental footprint, and its overall energy consumption. 
In 2008, the AOC increased its use of natural gas; purchased renewable 
energy; and installed more than 14,000 compact fluorescent light bulbs. 
According to our analysis for fiscal year 2008, these efforts resulted 
in the Congress reducing its energy consumption by 10.7 percent; 
exceeding the fiscal year 2008 requirement of a 9 percent reduction as 
compared to the fiscal year 2003 baseline. For fiscal year 2009, the 
AOC is required by law to meet a cumulative 12 percent reduction under 
the Energy Independence and Security Act of 2007; the Green the Capitol 
Initiative requires a 16.5 percent reduction.
    To meet these requirements to further reduce energy consumption, we 
have requested $17 million in fiscal year 2010 for Energy Program 
management, metering, and design and development of energy conservation 
projects. In addition, we have requested more than $11 million for 
capital projects that were submitted and considered because they 
implement sustainability practices and/or contain projected energy 
savings.
    However, the fiscal year 2010 request is only a down payment on the 
investment needed to meet the requirements of the Energy Policy Act of 
2005 (2 percent per year for a total of 20 percent by 2015); Energy 
Independence and Security Act (3 percent reduction per year for a 30 
percent reduction by 2015); and the goals of the Green the Capitol 
Initiative (50 percent energy reduction for the House Office Buildings, 
Capitol Building, and Capitol Visitor Center, and 31 percent reduction 
at the Capitol Power Plant by 2017). Based on what is known today, to 
meet the Energy Independence and Security Act goals, we estimate 
current and future funding requirements of more than $320 million.
    To better identify and evaluate energy savings opportunities in 
Capitol complex facilities, we have been using energy audits since 
fiscal year 2007. To date, the AOC has invested nearly $2.5 million 
toward these audits, and the data collected will help us realize better 
cost-benefit results.
    We also are implementing alternative funding strategies such as 
Energy Saving Performance Contracts. Under these contracts, companies 
invest their own capital to complete energy saving construction 
projects, and are then reimbursed from the savings generated by the 
installed projects. The AOC plans to use seven Energy Saving 
Performance Contracts across the Capitol complex to include individual 
contracts for the Capitol Building, House Office Buildings, Senate 
Office Buildings, Library Buildings and Grounds, Capitol Power Plant, 
Botanic Garden/Office of Security and Police Buildings, and Capitol 
Grounds.
    However, the Energy Saving Performance Contracts alone will not be 
able to achieve the energy reductions goals mandated. We continue to 
purchase Renewable Energy Credits (RECs) and have requested an increase 
in fiscal year 2010 funding to purchase the equivalent of 100 percent 
of our electricity in RECs. In addition, we are continuing our efforts 
to complete the program to install steam, electricity, natural gas, 
chilled water, potable water, and condensate meters across the Capitol 
complex. This is a key effort in terms of being able to measure current 
consumption, look for improvement opportunities, and measure energy 
savings results.
    Because the Capitol Power Plant plays a critical role in our long-
term energy conservation strategy, we are continually working to 
improve and upgrade operations there. For example, we are developing a 
Strategic Energy Plan, with the assistance of the National Academies of 
Science, which will influence our future Energy Program planning. 
Another step we took was to move toward maximizing the use of natural 
gas at the Capitol Power Plant.
    In February, following the direction of Senate and House 
Leadership, we took immediate steps at the Capitol Power Plant (CPP) to 
further reduce the production of carbon dioxide, and we are now 
refining the engineering strategy for equipping the CPP to meet peak 
steam demands using only natural gas.
    Specifically, I directed the CPP staff to begin its seasonal 
conversion to natural gas operations immediately. In previous years 
this conversion did not occur until late May. Assuming the weather 
remains mild and we do not experience any major equipment issues, we do 
not expect to burn coal for the remainder of this fiscal year.
    As a result of this action, we anticipate achieving a fuel ratio of 
75 percent natural gas and 25 percent coal for fiscal year 2009. This 
significant decrease in the amount of coal used compared to fiscal year 
2008 will reduce carbon dioxide levels by approximately 6,700 tons. We 
plan to fund the purchase cost for the additional natural gas in fiscal 
year 2009 from available appropriations.
    We are also looking at various options for continued energy 
efficiencies that have emerged throughout the development of the draft 
Capitol Power Plant Strategic Energy Plan, which we plan to share with 
this Subcommittee and Congressional Leadership in the coming weeks.
    Over the past several years we have been working to create a 
healthy and productive workplace where environmental awareness and 
sustainability are the normal ways of doing business in the Capitol 
complex. There are a number of initiatives that the AOC has been 
engaged in, and we continue to see results in our efforts to improve 
energy efficiency.
    The following is a list of just a few of our ongoing energy-saving/
sustainability initiatives.
  --We opened an ethanol (E-85) fueling station to Legislative Branch 
        Agencies in October 2008, for use by official flex-fuel vehicle 
        fleets.
  --We replaced more than 14,000 conventional incandescent light bulbs 
        with compact fluorescent lamps (CFLs) across the Capitol 
        complex.
  --We implemented a policy requiring the purchase or leasing of 
        alternate fuel vehicles when replacing aging vehicles in the 
        AOC fleet.
  --We installed dimmable ballasts in 21 Senate/Committee office 
        suites. The program typically saves 11,400 kilowatt hours per 
        week or 40 percent of lighting energy used in an office suite.
  --We installed a renewable, solar energy source for lighting in Lot 
        18 in fall 2008. These new solar-powered lights save 
        approximately 1,825 kilowatt hours per year.
  --We launched our energy awareness program: Power to Save in October 
        2008. We are providing tools and tips on our Power to Save Web 
        site to encourage Capitol Hill offices to conserve energy. 
        www.aoc.gov/powertosave.
  --We more than doubled total tonnage of recycled waste from 1,400 
        tons to 3,100 tons from fiscal year 2002 to fiscal year 2008. 
        Contamination rates remain at zero.
  --We recycled 100 percent of all AOC computer and electronic waste 
        which includes monitors, keyboards, computers, printers, 
        laptops, and other types of computer hardware over past 3 
        years.
  --We are using food waste, garden clippings, and other green waste, 
        and repurposing it as compost for flower beds and to sustain 
        other plantings throughout the Capitol complex.

                    ANNUAL OPERATING BUDGET REQUEST

    Our fiscal year 2010 annual operating budget request for $423.6 
million provides funding for continuing the routine activities of 
operating and maintaining the infrastructure which supports the 
Congress, other Legislative Branch agencies, and the public, as well as 
other AOC essential mission support services. Some of these services 
include financial management, safety, human resources, project and 
construction management, planning and development, communications, 
information technology, procurement, and central administration.
    As I mentioned earlier, one of our four focus areas is the managing 
and caring for the AOC work force--our greatest asset. A budget 
priority for fiscal year 2010 is providing the proper training for our 
people. Unfortunately, the AOC lags behind the industry standards in 
terms of automated facility management tools. Receiving the requested 
funds in this area would bring us closer to that standard, and increase 
our ability to manage facilities utilized by Congress and the American 
public.
    Other operating cost increases lie outside the control of the AOC. 
Utility rates have risen, the cost of leases has increased, recycling 
and bulk waste removal contracts are now more expensive, and mandatory 
pay raises combined with the increase in transit subsidy benefits have 
added to the cost of our day-to-day operations.
    Additional funding is being requested for development and technical 
skills training for staff; to provide uniforms for employees of our 
Construction Division to ease recognition of staff and reduce potential 
security issues within the Capitol complex; to provide training, 
equipment, materials, and services in preparation for and response to 
emergency events; and to purchase necessary safety apparel such as hard 
hats, safety glasses, gloves, steel-toe shoes, and hearing protection 
for project management staff.

            CAPITOL VISITOR CENTER OPERATING BUDGET REQUEST

    Our past budget requests for the Capitol Visitor Center (CVC) 
included funding for its construction. In fiscal year 2010, 
construction costs are no longer part of our CVC budget. We are 
requesting $24.6 million for CVC operations and administration, to 
include payroll for the Capitol Guides, who have been integrated into 
our organization, and are an integral part of our team. We also are 
requesting an additional 25 FTEs to support CVC full-year operations to 
include additional staff to coordinate greater than anticipated 
requests for use of the CVC rooms and restaurant services, and 
specialized maintenance personnel to perform furniture repairs and 
sheet metal repairs in the coat check rooms and the Congressional 
auditorium.
    The mission of the Capitol Visitor Center is to provide enhanced 
security for all persons working in or visiting the U.S. Capitol, and a 
more convenient place in which to learn of the work of Congress and 
about the Capitol. Since December 2, 2008, when the CVC was officially 
opened to the public, we have been very successful in achieving our 
goal to make the visitor experience at the U.S. Capitol one that is 
safe and enjoyable for all who come here.
    Instead of standing in line for hours, visitors now pass through 
security quickly and are able to enjoy the amenities and the exhibits 
housed in the CVC. To date, we have welcomed more than 800,000 
visitors. In late April, we hosted more than 19,470 guests in a single 
day, and thanks to the efforts of the U.S. Capitol Police and our 
Visitor Assistants, the average wait time to enter the facility was 6 
minutes. In addition, every staff-led tour request during this time was 
accommodated.
    As we continue this next year in ``test and adjust'' mode, Ms. 
Terrie Rouse, Chief Executive Office for Visitor Services, and her team 
continue to adapt to changing situations and make accommodations for 
Members of Congress as necessary. For example, they have made 
improvements to the tour schedule and various policies to help Members 
accommodate constituents who visit their offices who may not have tour 
reservations. She also has initiated ``Congressional staff listening 
sessions'' where staff may share ideas and thoughts about Capitol tour 
operations.
    The Congressional Historical Interpretive Training (CHIP) Program 
has also been updated since last fall based on feedback from Members' 
offices. Our team's ongoing review of the pilot program's curriculum 
since its implementation in fall 2008 has allowed it to grow and 
improve to meet participants' needs. Thus far, more than 2,000 
Congressional staff have participated in the program. We're happy to 
report that the CHIP Program has greatly enhanced the tour experience 
for Members' constituents, and that staff-led and Capitol tours have 
worked in parallel, thereby reducing security risks and optimizing 
safety concerns of visitor flow within the Capitol Building. Most 
importantly, the training has successfully met its goal to aid in the 
accuracy and consistency of the information provided to all visitors.
    As a point of interest, I would like to add that on April 13, we 
introduced 50 new documents into the CVC's Exhibition Hall. The new 
items, which include the December 11, 1941, resolution declaring war 
against Germany, one of only two printed drafts of the U.S. 
Constitution discussed during the 1787 Constitutional Convention, and a 
list of supplies requisitioned by Meriwether Lewis prior to his 
historic Lewis and Clark Expedition, will be on display through October 
1, 2009.

                          AOC ACCOMPLISHMENTS

    Mr. Chairman, as I discussed earlier, the past year has been one 
full of significant achievements for the AOC, in addition to the public 
opening of the Capitol Visitor Center and supporting the Presidential 
Inauguration. I would like to sum up my testimony by listing a few of 
our many accomplishments.
  --We conducted our annual Building Services Customer Satisfaction 
        Surveys, and in fiscal year 2008, we maintained more than 90 
        percent customer satisfaction rating. Customer satisfaction 
        continues to increase annually.
  --We completed 24 Senate Office moves in April. We also moved 184 
        House Offices and 2 House Committees in less than 1 month's 
        time, and achieved a customer satisfaction level of 96 percent.
  --The Government Accountability Office provided the AOC with 67 
        recommendations to help improve its strategic management since 
        2003. Nearly 75 percent of those recommendations have been 
        fully implemented, closed, or incorporated into new 
        recommendations (as of February 2009). 

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  --We continued to improve our cost accounting procedures and internal 
        controls, and received our sixth consecutive clean audit 
        opinion on our financial statements. The Capitol Visitor Center 
        also received a clean audit opinion.
  --We conducted employee focus group sessions in April 2008 to gather 
        observations on topics ranging from customer service and 
        internal procedures to our mission and our work environment.
    --Participants noted that the AOC has made tremendous progress over 
            the past few years. Specifically, 54 percent of 
            participants responded that they were satisfied or very 
            satisfied with their jobs versus 35 percent in 2004. Those 
            who said they were very dissatisfied with their jobs 
            dropped from 21 percent in 2004 to just 4 percent in 2008.

            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
  --We decreased our Injury and Illness Rate for 9th year in a row. We 
        dropped to 4.06 cases per 100 employees in fiscal year 2008; 
        the lowest rate the AOC has ever sustained.
  --We closed 71 of 99 items from Office of Compliance citations (80 
        percent), as of February 2009, and we have submitted a request 
        to close seven additional items.
  --United States Botanic Garden (USBG) has achieved accreditation from 
        the American Association of Museums (AAM), the highest national 
        recognition for a museum. Of several hundred public gardens in 
        North America, the U.S. Botanic Garden is 1 of only 19 that 
        have been awarded accreditation.
  --The West Refrigeration Plant Expansion project at the Capitol Power 
        Plant was selected as 2009 Craftsmanship Award Winner in the 
        mechanical category for HVAC-Piping by the Washington Building 
        Congress.
  --The Washington Building Congress also recognized the AOC's Painting 
        and Plastering team in the ``Specialty Painting'' category for 
        relocating the Statue of Freedom model from the Russell Senate 
        Office Building to Emancipation Hall in the CVC.
  --Our stone mason team that worked to restore the marble floors in 
        the Jefferson Building, while installing electrical conduits to 
        support the new Visitors Experience project was also recognized 
        by the Washington Building Congress with a 2009 Craftsmanship 
        Award.

                               CONCLUSION

    Every brick, every floor tile, every element of the U.S. Capitol is 
saturated with our Nation's art, history, and politics, and coming here 
is one of the best ways Americans can see and understand themselves, 
their country, and their government.
    We are all part of the brick and mortar of our Nation, and this 
Capitol belongs to each and every one of us. For that reason, it is 
imperative that we do everything we can to succeed in our mission to 
protect and preserve our Nation's icon and a symbol of representative 
democracy for generations to come.
    The AOC is committed to being good stewards of the Capitol complex, 
and in that regard, we have accomplished much and experienced numerous 
successes. These achievements can be directly attributed to the 
dedicated, professional individuals that make up the AOC team. In my 
role as Acting Architect for the past 26 months, I have been honored 
and privileged to work along side them. Because of their efforts and 
commitment to excellence, we continue to provide exceptional service to 
Congress and the visiting public.
    Once again, thank you for this opportunity to testify today. Mr. 
Chairman, we look forward to working with this Subcommittee, the House 
Subcommittee on Legislative Branch, and our Oversight Committees to 
address the backlog of maintenance and repair projects, and continue to 
protect and preserve the U.S. Capitol for generations to come. I would 
be happy to answer any questions you might have.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR
    Senator Nelson. Ms. Chrisler.
    Ms. Chrisler. Thank you, Mr. Chairman, Ms. Murkowski, and 
Mr. Pryor.
    I am honored to appear before you today on behalf of the 
Office of Compliance in support of our 2010 budget request.
    There are really three major items from our budget request 
that I would like to highlight in my opening statement, and 
they involve the funding and authorization of an occupational 
safety and health (OSH) program supervisor, funding for the 
already authorized and unfunded compliance officer position, as 
well as funding for a contract fire safety specialist.

                  <greek-l>OOC deg.A HEARTFELT THANKS

    Before I get to those three items, though, I would like to 
thank this subcommittee for the support of the efforts of the 
Office of Compliance. Specifically, in fiscal year 2009, the 
subcommittee's support allowed the office to improve our 
operational infrastructure, provide salary levels reflecting 
the outstanding performance of our staff, as well as provide 
technical assistance to the covered community.
    Because of the support of this subcommittee, the Office of 
Compliance has been able to work collaboratively with the 
Office of the Architect of the Capitol, the Senate Sergeant at 
Arms, Senate Chief Employment Counsel, and the Senate 
Superintendent to improve the safety and health conditions on 
Capitol Hill and in Senate offices.
    During the last two Congresses, safety and health hazards 
in Senate office buildings has dropped by over 50 percent, and 
that is due to the support of this subcommittee. So we thank 
you.

          <greek-l>OOC deg.OOC FISCAL YEAR 2010 BUDGET REQUEST

    Our 2010 budget request recognizes the economic 
difficulties of this country and the fiscal constraints of this 
subcommittee. And we have refrained from renewing old requests 
from fiscal year 2009 that went unfunded, and we really did 
some reevaluating of how we can perform the work that we need 
to perform with the minimal resources. So I present to you the 
most critical of those needs that we have.
    The most critical item that I present to you today is the 
funding and authorization of an OSH program supervisor. 
Currently, that duty is being performed by a detailee from the 
Department of Labor. This detailee retires in calendar year 
2010. The individual has over 30 years' experience in safety 
and health.
    He is a certified industrial hygienist, and what he does is 
supervises the safety and health inspectors, works with outside 
OSH experts, and provides technical advice, expert technical 
advice to our general counsel. This position is critical to the 
success of our safety and health program.
    After having spoken with some of the staff over at the 
Department of Labor, we have been informed that not because the 
Department of Labor doesn't want to, but they are going to find 
it very difficult to replace that individual with another 
nonreimbursable detailee of the same experience with the same 
credentials.
    Through attrition, through retirement, they have lost a lot 
of their senior staff, and they are having a hard time 
servicing their needs. And they are very doubtful that they 
will be able to replace this position with a nonreimbursable 
individual.
    So we are looking to have the authorization and funding to 
bring this position on staff. Having the position within our 
staff will bring accountability within our office and within 
the legislative branch, where it really should be, and ensure 
consistency with our operations.

               <greek-l>OOC deg.FTE FUNDING AUTHORIZATION

    The second item that I would like to discuss with you today 
is funding for a compliance officer. In fiscal year 2008, this 
subcommittee supported the authorization of a compliance 
officer position for our office. And what this position would 
do is verify the abatement schedule of existing hazards, making 
sure that nothing falls through the cracks. And this is a 
critical position that the office is seeking funding for during 
this fiscal year.

                   <greek-l>OOC deg.CONTRACT SERVICES

    Third, as we have discussed a little bit already today, is 
fire safety. And we are seeking funding for a fire safety 
specialist.
    In fiscal year 2009, the Office of Compliance requested the 
authorization and funding for an FTE for these services. Having 
reevaluated our needs and really taking into consideration the 
economic difficulties that are facing us today, we are seeking 
only a portion of that funding and not the FTE. We are looking 
to see how we can meet the needs with contract services.
    What this position would do is ensure that longstanding 
fire hazards are abated and that they are done so timely.
    Outside of not renewing the request for an FTE for the fire 
safety specialist position, the Office of Compliance has also 
not renewed requests for the trainer and the ombudsman that we 
did request in fiscal year 2009. We are mindful of the 
situation, the financial crisis that the country faces. We are 
mindful that this year is not the year for the ``nice to 
haves,'' and we are presenting to you what we critically need.
    We have also taken efforts to share services with sister 
agencies to reduce our costs in our mediation and our hearing 
program. And that effort is very successful.
    So we continually strive to provide the needed services 
with minimal, though adequate, resources. And it is our hope 
that this budget request that we submit to you reflects such 
effort.

                           PREPARED STATEMENT

    I thank you for the opportunity to appear before you, and I 
welcome any questions that you have.
    Senator Nelson. Thank you.
    [The statement follows:]

                Prepared Statement of Tamara E. Chrisler

    Mr. Chairman, Ms. Murkowski, and distinguished Members of the 
Subcommittee, I am honored to appear before you today on behalf of the 
Office of Compliance (``OOC''). Joining me today are General Counsel 
Peter Ames Eveleth, Deputy Executive Director Barbara J. Sapin, Deputy 
General Counsel Susan M. Green, and Budget and Finance Officer Allan 
Holland. Collectively, we present to you the agency's request for 
appropriations for fiscal year 2010, and we seek your support of our 
request.
    Before I get to next year, though, I want to express our 
appreciation for your support of our Office during fiscal year 2009. 
The Subcommittee's support for the mission and efforts of the OOC was 
reflected in the funding level authorized for the OOC in fiscal year 
2009. Thanks to the Subcommittee's support, the agency is able to 
increase its efforts to provide technical assistance to employing 
offices and employees, both on Capitol Hill and in remote offices; 
offer training programs tailored to the specific needs of the covered 
community; improve its operational infrastructure; and provide its 
talented workforce with salary levels that reflect their level of 
performance. We appreciate the continued support of the Subcommittee 
and thank you for your assistance in ensuring a fair and safe workplace 
for our covered community.
    Your support continues to demonstrate results. Over the past two 
Congresses, safety and health hazards in Senate Office Buildings have 
dropped by over 50 percent. We expect this progress to continue when we 
inspect Senate Buildings in the current Congress. Those inspections 
will begin during the August recess. We attribute these results to your 
support for our collaborative efforts with the Senate Chief Counsel for 
Employment, Senate Sergeant at Arms, and the AOC/Senate Superintendent.
    For our fiscal year 2010 operations, the Office of Compliance is 
requesting $4,474,475--an increase of $402,475 or 9.88 percent over our 
fiscal year 2009 funding level. Like all of us in this room, we are 
mindful of the economic difficulties confronting the country and the 
Federal Government. We know that this Subcommittee faces real fiscal 
constraints. Accordingly, we are not renewing our request for a number 
of items from our 2009 appropriations request: namely, three FTEs--the 
fire safety specialist, the trainer, and the ombudsman. We recognize 
our responsibility to make more efficient our operations to meet the 
government's current fiscal challenges while at the same time 
fulfilling our mission.
    Despite our funding challenges, however, we continue to perform our 
statutory duty. For example, we are working closely with the Office of 
the Architect of the Capitol (``AOC'') staff to implement the Capitol 
Power Plant Utility Tunnel Settlement Agreement. Our full-time tunnel 
liaison has an excellent working relationship with AOC officials. As a 
consequence, our offices cooperate extremely well in ensuring that the 
life-threatening hazards that characterized the tunnels in the past are 
being abated in a timely fashion. In particular, asbestos has been 
removed from four of the tunnels and is being removed from a fifth. 
Assuming continued funding, we anticipate that all asbestos will be 
removed from all tunnels by the summer of 2010. Structural repairs are 
continuing. Emergency egress is being improved. Heat stress is being 
reduced. We are very pleased with the progress so far, and look forward 
to continued cooperation with the AOC, until the Settlement Agreement 
is completely fulfilled.
    We are also proud of our accomplishments in resolving employment 
disputes in the legislative branch. In fiscal year 2008, we processed 
more than 100 claims raised by covered employees through our use of 
alternative dispute resolution, resulting in 18 formal settlements. 
Some of these claims were resolved with monetary awards, but many were 
not. The OOC played a significant role in fostering creative 
settlements that included non-monetary terms tailored to meet the needs 
of the disputants. This type of resolution is significant as it often 
results in a win-win situation for both parties, and it is also a cost-
savings measure for the government.
    Looking forward, we want to continue to report accomplishments and 
meet our statutory mandates, but we cannot accomplish our mission 
without adequate resources. In light of the current economic situation, 
we are not requesting three FTEs that we asked for in the last fiscal 
year. But changed circumstances have highlighted the need for us to add 
one new position to our ranks.
    Since 1997, the agency has benefited from the services of an 
employee on a non-reimbursable detail from the Department of Labor. 
This long-time OSH program supervisor and special assistant to the 
General Counsel is a certified industrial hygienist with over 30 years' 
experience in occupational safety and health matters. His duties 
include supervising our safety and health inspectors, working with 
outside OSH experts, and providing expert technical advice to the 
General Counsel and guidance to OGC staff regarding the application of 
OSHA standards. In short, he is critical to our operation. But this 
detailee plans to retire in January 2010, and it is unlikely that we 
will be able to replace him with another non-reimbursable detailee. 
Moreover, these types of duties are best performed by an employee on 
staff with the agency, who is accountable to the very agency where the 
duties are performed. For these reasons, we are requesting the 
authorization for and funding of an OSH program supervisor FTE. Because 
the current supervisor will not retire until calendar year 2010, we 
have presented our request with a prorated amount of funding.
    In fiscal year 2008, the Subcommittee authorized a compliance 
officer FTE. The Subcommittee recognized the agency's need to monitor 
the abatement schedules of employing offices and ensure that employing 
offices have taken appropriate steps towards resolution of identified 
hazards and violations. Indeed, in fiscal year 2006, this very 
Subcommittee reminded the agency that mechanisms and personnel are 
necessary to better assure efficiency and timeliness in our monitoring 
program. Because of financial constraints, however, the position was 
authorized without funding in fiscal year 2008 and remained unfunded in 
fiscal year 2009. The agency requests in our fiscal year 2010 
submission funding for this very critical position. Receiving funding 
for this position will allow the Office to perform its statutory duty 
by providing technical assistance to employing offices in abating 
complex hazards, assuring timely abatement of hazards identified in the 
OSH biennial inspections and requestor-initiated inspections, and 
ensuring compliance with OSH-related citations.
    In our fiscal year 2009 request, the OOC sought funding to support 
our ``prevent and reduce'' initiative. This initiative was created to 
reduce the number of incidents giving rise to allegations of violations 
of the Congressional Accountability Act (``CAA''). It was contemplated 
that three additional FTEs--a fire safety specialist, a trainer, and an 
ombudsman--would provide technical fire safety expertise, as well as 
assist employees and employing offices to resolve complaints at the 
earliest opportunity, resulting in taxpayer savings. The agency remains 
convinced that these FTEs would provide the covered community with 
essential technical assistance and allow for early and amicable 
resolution of workplace disputes. However, given our current financial 
situation, we have explored other ways of providing these services to 
the covered community. Consequently, we have removed these FTEs from 
our fiscal year 2010 request and only seek minimal funding for 
contracted fire safety services.
    We are all aware that fire safety continues to be a critical 
concern for the legislative branch. Significant, long-standing fire 
hazards remain in Senate and House Office Buildings, the Capitol, and 
Library of Congress facilities. These buildings present special 
challenges due to their historic nature, innate beauty, and ongoing 
heavy usage. Through collaboration with the AOC, the OOC has made 
significant progress in developing abatement plans to resolve fire 
safety Citations that have been pending since 2000 and 2001. However, 
because of the challenges presented by the beauty and history of these 
buildings, the efforts to abate the hazards may continue for years 
before complete abatement is achieved. As our efforts at accelerating 
abatement activity have increased, the demands on our fire protection 
engineer and legal staff have significantly expanded.
    As the agency is staffed with only one inspector with specialized 
expertise in fire safety issues and one attorney who spends a large 
portion of his duties addressing matters other than fire safety 
concerns, the agency is limited in its resources to address these 
critical hazards. We recognized the need for additional resources in 
this area and requested an FTE in fiscal year 2009. Although the need 
for additional resources continues, the agency has reexamined exactly 
how to meet that need. As a result, the agency requests fiscal year 
2010 appropriations for the contractual services of a fire safety 
specialist. We expect that this Specialist will serve a function 
similar to that of our tunnel liaison, and devote full-time efforts to 
resolving the very serious fire hazards present in the legislative 
branch. Removing, the request for an FTE results in a savings of almost 
$25,000.
    In an effort to reduce costs for our mandated dispute resolution 
program, the OOC has entered into an interagency Memorandum of 
Understanding with the Merit Systems Protection Board (``MSPB''). This 
Memorandum allows the agency to utilize MSPB mediators and hearing 
officers to conduct proceedings that are required by the CAA. Further 
plans are being made to enter into additional interagency agreements 
with other agencies. Such agreements allow the OOC to reduce costs 
because they typically provide for more favorable rates for contracted 
services. The OOC realizes that our mediation and hearing services 
contain certain elements beyond our control: the agency cannot dictate 
either the number of claims presented for mediation or the number of 
complaints filed for hearing. We do have control over the costs for 
services, however, and it is those costs that we are continually 
working to reduce.

                               CONCLUSION

    The agency approaches fiscal year 2010 with heightened fiscal 
responsibility and an understanding that only minimal funding essential 
to meeting our mission may be available. We have reexamined our 
programs in conjunction with our statutory mandates, and we have made 
significant efforts to streamline our appropriations request to reflect 
the country's and the government's current economic difficulties. With 
that understanding, we present to the Subcommittee only those items 
necessary to meet our statutory mandates. There are a number of items 
requested in our written budget justification that we submit for your 
consideration. The ones mentioned today, though, are those that we 
would like to highlight for the Subcommittee: an OSHA program 
supervisor, funding for the previously authorized compliance officer 
FTE, and contractual funding for a fire safety specialist. Funding for 
these items will allow the agency to continue to provide needed 
services and technical assistance to the covered community.
    On behalf of the Board of Directors and the entire staff of the 
Office of Compliance, I thank you for your support of this agency. I 
would be pleased to answer any questions.

    Senator Nelson. Six or seven minute questions? Seven?
    Senator Murkowski. Yes.
    Senator Nelson. Seven, okay.
    Well, first of all, as I have not had an opportunity to 
visit with you, Ms. Chrisler, I have got a couple of questions. 
I have already spent some time grilling poor Mr. Ayers, but I 
will hold that for second.

                 <greek-l>OOC deg.BIENNIAL INSPECTIONS

    But I understand that your organization conducts what are 
called biennial inspections of the legislative branch 
facilities. Now are there biennial inspections conducted on the 
rest of the Federal Government, or is it just on the 
legislative branch, if you know?
    Ms. Chrisler. Well, the way that the Congressional 
Accountability Act was written was inclusive of a mandate that 
our office conduct inspections of the covered community once 
every Congress. So, yes, we are required to conduct these once 
every Congress.
    Whether the OSH office and the executive branch or in the 
private sector have a similar mandate is something that I am 
not aware. But I do know that this is the way that the CAA was 
written for us.
    Senator Nelson. Well, I don't know that that is what was 
intended, but we are going to take a look into that because it 
does seem, from what we are hearing from other branches of 
Government, that we are being held to a higher standard. I 
don't know that we ought to be held to a low standard. I am not 
suggesting that.
    But there ought to be a comparable standard. Safety is just 
as important in the other branches of Government as it is in 
ours. And so, I think that is something that we are going to 
have to look into because if we are being held to a higher 
standard, it can affect the budgets, obviously.
    But I don't want to imply in any way that we don't want a 
high standard. We just want to make sure that there is equity 
and fairness as well as comparability in the standards that 
other branches are held to.
    Ms. Chrisler. If I may, Mr. Nelson?
    Senator Nelson. Sure.
    Ms. Chrisler. It is my understanding that the standard, the 
OSH standard that is applied to the legislative branch, is the 
same standard that is applied to the private sector. Not the 
executive branch. The way that the CAA was written was that the 
standards, same standards are applicable in different manners, 
and the manner that it is to be applied to the legislative 
branch is that of the application to the private sector.

            <greek-l>OOC deg.GOVERNMENT BRANCH COMPARABILITY

    Senator Nelson. Okay. What do you know about the 
difference, let us say, that would apply to the executive 
branch? I know it is a different branch of Government, but once 
again, comparability, I think, would be important here. Do you 
know what the standard is there?
    Ms. Chrisler. I do know that the way that the CAA is 
written, the comparability was to that of the private sector. 
As I understand it, the application of the standard to the 
executive branch is less restrictive than it is to the private 
sector. But as the CAA was written, Congress chose to apply the 
standard to itself as it does to the private sector.
    Senator Nelson. I understand that.
    Ms. Chrisler. Okay.
    Senator Nelson. We have old buildings, and we have new 
buildings. Are the same requirements applied to, let us say, 
the Jefferson building and the Russell building as for fire and 
safety as they might be in the case of a new construction?
    Ms. Chrisler. As I understand it, the standards are what 
they are. What our office does consider is the historicity of 
the buildings, the significant challenges that we have with 
respect to very old buildings, historical buildings, beautiful 
buildings that are significant in our Nation's history.
    So we recognize that. We understand the challenges that are 
faced with respect to addressing some hazards that may exist 
for virtue of the building's age. And we work collaboratively 
with the covered community. We work very well with the Office 
of the Architect of the Capitol.
    And in understanding the challenges and the hurdles that we 
face in addressing the hazards, we apply the standards. Yes, so 
we do take into consideration some of the challenges that we 
have because of the age of the buildings.
    Senator Nelson. And you may not have the specifics on this, 
but, for example, addressing the egress stairwells in the 
Jefferson building, which would cost more than $12 million to 
require, causing major disruption to both staff and visitors 
when it is questionable whether it is necessary, when 98 
percent of the building is equipped with sprinklers, 100 
percent of the building is equipped with smoke detectors, and 
it is fully staffed with security, Government security during 
the occupancy periods.

                <greek-l>OOC deg.HISTORICAL AUTHENTICITY

    How does that square with ordinary requirements for, as you 
say, historicity?
    Ms. Chrisler. What I understand with respect to the 
Jefferson building is that it contains the page school, the 
House page school. And one of the hazards that our office has 
discovered is that there are egress challenges with respect to 
the students exiting the building from the page school if there 
were to be a fire inside the school.
    With respect to abating the hazard, our office is working 
collaboratively, again to ensure that before the permanent 
abatement can take place that interim measures are put into 
place. So we understand that the abatement may not be able to 
be achieved immediately. Though the hazard still exists, we 
have recommended and suggested and are working toward 
implementing interim measures to protect the safety of the 
students and the visitors to the building while other 
considerations are being made.
    Senator Nelson. Okay. Well, thank you very much. My time is 
about out.
    Senator Murkowski.

             <greek-l>OOC deg.HIGH PRIORITY PROJECT FUNDING

    Senator Murkowski. Well, we will keep you on the hot seat 
here for a few more minutes, Ms. Chrisler.
    I am trying to understand exactly how much flexibility 
there is built into all of this. As I understand, the AOC puts 
the highest priority--and I appreciate, Mr. Ayers, you kind of 
walking through how you prioritize what you are dealing with as 
you look at these projects. But we understand that AOC puts the 
highest priority on funding for the projects that have received 
a citation.
    I also understand that there have been over 9,000 findings 
in the draft report for the 110th Congress for the last 
biennial inspection. Nine thousand is a lot to prioritize. And 
the question that I would have, and it follows on what Senator 
Nelson has addressed with regard to the Jefferson building, do 
you have flexibility to either work with the Office of the 
Architect here to not issue that citation so that you can work 
through some interim measures?

         <greek-l>OOC deg.HAZARD FUNDING--NOTIFICATION PROGRESS

    Are you required to issue a citation first and then ask 
questions later? How do you proceed with that?
    Ms. Chrisler. It is our intent and our effort to work very 
hand-in-hand.
    Senator Murkowski. But what are you required to do?
    Ms. Chrisler. We are required to make Congress aware of 
existing hazards.
    Senator Murkowski. By way of a citation?
    Ms. Chrisler. No, not necessarily.
    Senator Murkowski. Okay.
    Ms. Chrisler. So the finding that is made, the hazard that 
is uncovered is--we tell the employing offices about their 
hazards through a finding. Once the finding is shared, we work 
with the employing office to abate the hazard. So that the 
citation is not something that is required unless there is no 
cooperation from the employing office, unless there is not 
significant improvement toward abating the hazard.

             <greek-l>OOC deg.ISSUED CITATION NOTIFICATIONS

    Senator Murkowski. So, in 9,000 cases, there was either not 
cooperation or there wasn't significant improvement?
    Ms. Chrisler. There were 9,000 hazards that were uncovered. 
There were not 9,000 citations. In the past----
    Senator Murkowski. I stand corrected. Yes. Of those 9,000 
findings, how many citations do you figure were issued?
    Ms. Chrisler. Well, what I can tell you, that in the last 6 
years, I believe our office has only issued 16 citations. So, 
within the 9,000, it is probably less than 10.
    Senator Murkowski. So there is the ability to work through 
these?
    Ms. Chrisler. Right.
    Senator Murkowski. There is an effort to provide for some 
level of abatement. So what we are working to do then is to 
prioritize those areas where there is highest risk, as opposed 
to chronologically we need to take care of all these things 
because they have been sitting out on a list for too long.
    But if you have got a high-risk issue, a life safety issue, 
that is prioritized as more immediate. Is that a correct 
statement?
    Ms. Chrisler. I beg your pardon?
    Senator Murkowski. Is that a correct statement, that the 
issue would be given higher priority, based on a risk 
assessment?
    Ms. Chrisler. What we--what our role is, is to discover the 
findings and provide the information and work with the 
employing office to abate the hazards. What we are hoping to 
do, what our general counsel's office is striving for, is to be 
of assistance and a resource in staging the abatement of these 
hazards.
    So the employing office would make the determination as to 
which hazards they can abate first, based on a number of 
considerations. And what we are looking to do as a resource and 
as a tool and servicing the agency is to help them in staging 
their abatement.

                   <greek-l>OOC deg.HAZARD ABATEMENT

    Senator Murkowski. Well, then let me give you a specific 
example. It is my understanding that the AOC is working to 
remedy a citation. This is a citation in the Cannon building, 
and it is going to be relatively expensive. I don't recall 
exactly how much it was, but it was a considerable amount. And 
yet, the Cannon building is scheduled for whole building 
renovation in a couple of years.
    Why in the world would we spend the money to fix this now 
when 2 years from now, we may have a whole building renovation?
    Ms. Chrisler. Sure, and this is actually the example that 
you use of something that we were just discussing. As much as--
--
    Senator Murkowski. $7 million.
    Ms. Chrisler. Pardon?
    Senator Murkowski. Apparently, it is the Cannon stairwell 
enclosure for $7 million?
    Ms. Chrisler. Yes. And this is something that our office 
has discovered as a hazard and is working with the appropriate 
personnel to abate the hazard. Hopefully, in the----

                <greek-l>OOC deg.ABATEMENT CLARIFICATION

    Senator Murkowski. What do you mean when you say ``abate 
the hazard?'' What will you do for this enclosure?
    Ms. Chrisler. It depends on the discussions that the 
technical experts have. I don't know if it is because of the 
renovation that will be occurring in 2 years if it is prudent 
to do a complete abatement or if it is prudent to incorporate 
interim measures to provide for the safety of the employees and 
visitors while the renovation is upcoming and pending.
    So there are different steps, and we are working to make 
sure that the smart thing and the right thing is done and not 
that we are making any improvements or abating the hazard to 
say, okay, this is done. Now let us all tear it down because we 
are going to build the building again.
    Senator Murkowski. Well, I would hope that we would agree 
that spending $7 million is not the prudent thing to do if we 
are going to do a whole building renovation in 2 years.
    Ms. Chrisler. Well, certainly, our office has been engaged 
in discussions with the folks that will be----
    Senator Murkowski. Again, this gets me back to my question 
about how much flexibility you have. You have got a citation. 
You are trying to work on it. But you know that in a very short 
time period here, you are going to be doing a wholesale 
remodel.
    And so, it really doesn't make much sense to do a full-on 
roof here. Let us just patch the roof until we can really 
address the bigger problem. Are we in agreement that that is 
not the approach that we need to take?
    Ms. Chrisler. Absolutely. And we are all--we, the Office of 
Compliance, are all in favor of finding an appropriate and a 
safe interim measure depending on the circumstances. And in the 
example that you provide, the circumstances include a complete 
building renovation. So we would work toward providing a safe 
mechanism in the interim.
    Senator Murkowski. Ms. Chrisler, can you tell me when this 
particular citation was actually issued? Has this been 
outstanding for a while?
    Ms. Chrisler. This has been outstanding since 2000.
    Senator Murkowski. Okay. Mr. Chairman, my time is up.
    Senator Nelson. Thank you, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    And actually, believe it or not, I have a lot of questions 
for Mr. Ayers here.
    But since these other two have asked about you, I do have a 
few follow-ups on what they said. I hope it doesn't take all my 
time. But let me try to move very quickly.

           <greek-l>OOC deg.CANNON BUILDING STAIRWELL HAZARD

    Just for my--I am new to the subcommittee, and I am trying 
to get a handle on this, and I apologize for this. But the 
example that we have been talking about, the stairwell in the 
Cannon building, what is the hazard there?
    Ms. Chrisler. They are open stairwells that don't block 
off, if you will, the fumes and smoke and fire if there were to 
be a fire in the building. So enclosed stairwells provides 
extra protection and ensures that there is--ensures a cutoff so 
that the fire is contained, smoke is contained, and the fumes 
are contained so that it doesn't spread as quickly.
    Senator Pryor. And do you have a design on a fix for that?
    Ms. Chrisler. I do believe that there is a design for a 
fix. Correct.
    Senator Pryor. Okay. And you talked about these 9,000 
findings.
    Ms. Chrisler. Right.

              <greek-l>OOC deg.CATEGORIZED ITEM BREAKDOWN

    Senator Pryor. Are there large categories of items you are 
looking for, like fire issues and like plumbing and whatever 
type issues? ADA-type compliance. I mean, are there broad 
categories?
    Ms. Chrisler. Yes. Yes, we go in and we look for 
everything. We look to----
    Senator Pryor. And do you have a breakdown of all that and 
what the findings are? As I understand it, you go through each 
office even and look and see if maybe too many things are 
plugged into one electrical outlet.
    Ms. Chrisler. Right.
    Senator Pryor. Is it your experience that when you bring 
those to the attention of the individual offices, they get 
fixed?
    Ms. Chrisler. Absolutely. There are in the previous 
Congress--if you will just indulge me for a moment. There were 
a number of hazards that were discovered that are abated right 
on the spot.
    In the 110th Congress, there were 63 percent of the hazards 
that were open were closed, and 80 percent actually of the 
findings that were--the hazards that were found in the Senate, 
80 percent were abated. And some of them, a large majority of 
them are abated right on the spot.
    Senator Pryor. Okay. And, but it does sound like there are 
some hazards like the Cannon stairwell that doesn't go away, 
that you have to just at some point work through that?
    Ms. Chrisler. Yes.
    Senator Pryor. And I think, let us see, that may be all I 
had on you.

                  <greek-l>AOC deg.CAPITOL POWER PLANT

    So if I have a few more minutes, Mr. Ayers, let me ask you. 
Let me start with one of the big-ticket items that I know you 
are working on in terms of a long-range plan, and that is the 
Capitol Power Plant. Tell me, if you can, one of your requests 
is to convert maybe one boiler from, what, coal to gas. Is that 
right?
    Mr. Ayers. That is correct.
    Senator Pryor. And what will the mix of the fuel be then at 
that point that will be available to the Capitol, you know, the 
source of the energy?
    Mr. Ayers. We will be able to burn 100 percent natural gas 
with sufficient backup capacity.
    Senator Pryor. Okay. And is there a long-term plan on the 
Power Plant? I mean, do you know what you want to do with that? 
Or do you just want to keep it and convert it to gas, or are 
you looking for other options? Give us the update on that.
    Mr. Ayers. Well, we have a team of consultants in place 
today that are looking at a 20-year and longer outlook for the 
plant. We have developed that scenario looking at 16 different 
possible options of what to do with the plant in the future. 
That study is about 75 percent complete.
    We are currently having it peer reviewed by the National 
Academy of Sciences, and that peer review is scheduled to be 
finished this month. So we will take those peer review 
comments, we will fold them back into the report and then 
finalize it. This will be completed in another 2 or 3 months 
after that.

              <greek-l>AOC deg.POSSIBLE AVAILABLE OPTIONS

    Senator Pryor. Okay. And these, what did you say, 16 or 17 
options?
    Mr. Ayers. There are 16 different options that they are 
currently looking at.
    Senator Pryor. Does that mean like one of them might be, 
say, for example, geothermal? One of them might be just going 
all natural gas? One of them might be to totally get away from 
the Power Plant completely? I mean, what are you talking about 
there?
    Mr. Ayers. Things like co-generation of electricity, things 
like biofuels.
    Senator Pryor. And long term, are you looking at replacing 
the heating and air systems throughout the Capitol complex?
    Mr. Ayers. Well, certainly, we heat and cool the Capitol 
campus through a centralized distribution system. The Power 
Plant itself provides all of the heat through steam and chilled 
water for cooling all of the buildings on the Capitol campus.
    We will send that steam and chilled water out through every 
building, and then each of those buildings will take that steam 
and chilled water and run it through mechanical systems to heat 
and cool each space. So, ultimately, over the course of time, 
all of these mechanical units have a certain lifespan, maybe 20 
or 30 years, and we will be replacing those.
    For example, right now, we have recently awarded a contract 
to replace the mechanical equipment in this building, the 
Dirksen building. You will see that starting here in the next 
couple of weeks.
    Senator Pryor. You just heard Ms. is it ``Chry-sler'' or 
``Chris-ler?''
    Ms. Chrisler. It is Chrisler. Thank you.

               <greek-l>AOC deg.CITATION-RELATED PROJECTS

    Senator Pryor. Chrisler. Sorry about that. Ms. Chrisler, 
just heard her testimony a few moments ago. How much money in 
your proposed appropriation, how much money are you requesting 
for citation-related projects?
    Mr. Ayers. Just give me a moment to add that. I would 
suspect it is over $50 million.
    Senator Pryor. Okay. And I may have that breakdown. I don't 
see it. But what are some of the big-ticket items there?
    Mr. Ayers. The seven highest projects on our consolidated 
priority list are for citations. The first one is the utility 
tunnels that I spoke of earlier.
    Senator Pryor. Right. Right.
    Mr. Ayers. That is $45 million for that program. The next 
biggest one is for ADA compliance issues in the restrooms of 
the John Adams Building at $3 million. And some door issues as 
well in the John Adams Building at $1.5 million, some egress 
improvements in the Thomas Jefferson Building, design work for 
about $2 million.

                  <greek-l>AOC deg.ENERGY CONSERVATION

    Senator Pryor. Let me ask one question about energy 
conservation, and this will be my last question because I am 
out of time here. But I think you are requesting $11 million 
worth of projects in fiscal year 2010 for energy reduction. How 
long does it take that to pay for itself?
    Mr. Ayers. Each of those has an individual payback. There 
really is no good rule of thumb. So a photovoltaic system is 
going to have a far different payback than equipment 
replacement. I have to go specifically with each individual 
project to get you an accurate figure.
    Senator Pryor. But you can't say, well, we are going to 
spend $11 million, and then we will make that money back over a 
3-year period? You don't have it broken down that way?
    Mr. Ayers. We do have it broken down that way. I don't have 
that at my fingertips, but I would be happy to submit that for 
the record. For our projects we do a comprehensive lifecycle 
projection to determine if it is an appropriate payback. If it 
is not, we don't do it.
    Senator Pryor. Right. Mr. Chairman, thank you.
    [The information follows:]

    Payback periods for each project are summarized in the 
following table. It is important to note that some fiscal year 
2010 requests are for construction and others are for design. 
The projected simple payback period for construction projects 
(numbers one, two, three, and five in the table below) totals 
$9.5 million, and is for a period of less than 3 years.

                                                 FISCAL YEAR 2010 CIP--PROPOSED ENERGY PROJECTS SUMMARY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Energy Savings                  Economic Summary
                                                                                        ----------------------------------------------------------------
                                                                              Energy/                   Percent
                  Project Title                     Project       AOC/AE     Water Cost                Reduction
                                                      Cost      Design Fee    Savings       mmBtu       (Fiscal       Simple      LCCA \1\     SIR \2\
                                                                                           Savings     Year 2003     Payback
                                                                                                        Complex)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Computer Server Closet Cooling, Phase 1.........  \3\ $2,010,     $196,789   $1,593,838       57,986         2.09          1.3  $24,082,037         12.7
                                                          000
Computer Server Closet Cooling, Phase 3.........  \3\ 4,430,0      429,533    1,246,189       45,332         1.63          3.6   15,911,191          4.5
                                                           00
HVAC Controls Replacement.......................  \3\ 2,260,0      336,130      618,675       17,872          .64          3.7    6,876,642          4.0
                                                           00
Economizer Additions to Air Handling Units......    8,601,521  \3\ 830,000      809,050       55,000         1.98         10.6    2,571,247         10.6
Capitol Police Jurisdiction Energy Saving         \3\ 800,000      116,872       56,000        2,713          .10         14.3  ...........  ...........
 Projects.......................................
Botanic Gardens Sustainable Design..............  ...........  \3\ 380,000  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................   18,101,521    2,289,324    4,323,752      178,903         6.44  ...........  ...........  ...........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ LCCA is the sum of the present values of initial investment, O&M, replacement, and energy and/or water costs.
\2\ SIR (Savings to Investment Ratio) is the ratio of the total savings to the total investment cost over the life cycle of the project.
\3\ Indicates request amount.

Notes:
  Projects are ranked by priority according to LCCA (Life Cycle Cost Analysis) in descending order.
  LCCA and SIR calculated with NIST's Building Life Cycle Cost Program (BLCC 5.3-08), in accordance with 10 CFR 436. Subpart A.
  Combined simple payback of Projects 1, 2, 3 and 5 is 2.70 years.
  Project #4, Economizer Additions to Air Handling Units, is currently proposed for design in fiscal year 2010. Projected simple payback is 10.6 years.

    Senator Nelson. Thank you, Senator.

              <greek-l>AOC deg.CANNON STAIRWELL RENOVATION

    Mr. Ayers, in that money that you have set aside for 
citation matters, do you have any money in there for the Cannon 
stairwell?
    Mr. Ayers. No, sir. I think the Cannon stairwell money has 
already been appropriated.
    Senator Nelson. But not spent apparently?
    Mr. Ayers. I believe----
    Senator Nelson. The project hasn't----
    Mr. Ayers [continuing]. That work is underway now.
    Senator Nelson. Oh, the work is underway?
    Mr. Ayers. I am sorry. The design is underway. The physical 
construction is not underway yet.
    Senator Nelson. Well, then if the design is underway, 
construction hasn't begun, what is the possibility that that 
design will mesh with what overall renovation is going to be 
required for the Cannon? Will it be totally consistent with it? 
Will it be something that will fit in, or will it be outside 
the range of what the remodeling is, if you know, Ms. Chrisler?
    Ms. Chrisler. The question, Senator, is whether the design 
meets----
    Senator Nelson. Yes, if we are spending money for design 
and we are going to redo the building in 2 years, are they 
copasetic? Will the design fit in with what is going to be done 
overall, or do we even have the overall plan, design plan for 
the remodeling, the total remodeling in place to compare it to?

                <greek-l>OOC deg.CANNON HAZARD ABATEMENT

    Ms. Chrisler. Sure. Our office's involvement in the design 
of or the abatement plan is focused on ensuring that the hazard 
is abated or that interim measures address the hazard that is 
found. Now what makes sense to me is that fixing the stairwells 
will mesh with the overall renovation, and doing it early makes 
sense.
    But whether the particular details of the design plan that 
is in place is very difficult for me to answer. That is not 
something that is within the area of our expertise. Our 
expertise is in providing technical assistance in abating the 
hazard.
    Senator Nelson. Well, will you have looked at the design 
that is being developed right now and being paid for for that 
abatement? Will you look at that before the design is 
completed?
    Ms. Chrisler. We certainly hope to be included in the 
design process, and we hope that our input is requested and 
received.

              <greek-l>OOC deg.DESIGN ABATEMENT RESOLUTION

    Senator Nelson. So you are not really throwing a flag, like 
a referee throws a flag? You are going to make certain that 
whatever the design is works and cures the problem that you 
have identified?
    Ms. Chrisler. As I say, we work very collaboratively. So we 
welcome the opportunity to sit down and talk about the 
abatement, what is necessary, what is being planned, what is in 
place, and how those two things can come together to ensure 
safety.
    Senator Nelson. Mr. Ayers, will we be able to deduct from 
the total remodeling cost of the Cannon building the cost of 
the repair of this stairwell? Will it be consistent? Will it be 
compatible? Do you know at this point?
    Mr. Ayers. I think we certainly can deduct that, and 
certainly, another option is to postpone that actual 
construction work and roll it into that comprehensive building 
renovation if ultimately----
    Senator Nelson. Will she pick up the flag if you do that?
    Mr. Ayers. She might. We work pretty well together.
    Senator Nelson. Oh, okay. I think everybody understands 
where we are going with this, and I think you understand and I 
am sure you share the view that it doesn't make any sense to 
make a pie a piece at a time here when we have an opportunity 
to do the whole thing.
    Ms. Chrisler. That is right.

              <greek-l>OOC deg.STAIRWELL CITATION RANKING

    Senator Nelson. Yes. Okay. Well, maybe enough on that, but 
I think it is enlightening us. And I hope that in working 
together, the 30,000-foot view down is looked at as well as the 
on-the-ground view because it is important. It would be 
important in any particular budget, but particularly this one.
    So the 16 citations over 6 years, if you were to rate them 
in priority, how much would you rate the stairwell issue in 
Cannon? How high would that be within those 16 citations?
    Ms. Chrisler. If you will allow me to confer?
    Senator Nelson. Oh, sure. Sure.
    Ms. Chrisler. Thank you.
    Of the 16 citations, the most important are the fire 
hazards, as we can all imagine. There are about seven or so of 
the citations that are fire hazards. Ranking those hazards 
within themselves is difficult to do because a fire hazard is 
significant in itself. But of the 16, we would say about 7 are 
those that are fire hazards.
    Senator Nelson. How many fires--apart from some that were 
lit by someone in the Capitol Police over here a few years ago, 
how many fires have we really had in the Senate office 
buildings and in the House office buildings, if you know?
    Ms. Chrisler. I do have some understanding of some of those 
numbers. I would be happy to provide them for you for the 
record. Within the last few years, without including the one 
that you mentioned, there appear to be two within the last 
couple of years.
    In 2005, there was a Capitol, the fire in the Capitol. In 
2005, there was the substation explosion and fire at the Power 
Plant.
    Senator Nelson. Okay. How extensive was the fire in the 
Capitol? How much damage was done, and how at risk were 
employees there?
    Ms. Chrisler. I am happy to research that for you and 
provide that for the record.
    Senator Nelson. Was it significant, or was it de minimis? 
You can research it. I am not trying to put you on the spot.
    Ms. Chrisler. I appreciate the opportunity to do that. 
Thank you.
    [The information follows:]

    See Appendix A on pages 52-56 for a complete listing.

      <greek-l>OOC deg.CANNON VERSUS RUSSELL STAIRWELL COMPARISON

    Senator Nelson. And in terms of the stairwells, without 
running the risk of more citations here, how would the 
stairwell in the Cannon building compare with the stairwells, 
let us say, in the Russell building?
    Ms. Chrisler. They are similar. The similarity is that they 
are both unenclosed. So the same risks that are involved in 
having an unenclosed stairwell in Cannon are the same risks 
that are involved in the Russell building.
    Senator Nelson. Well, if I might just ask this question as 
a follow-up? Why is it a more significant risk to have a 
citation in Cannon, but not necessarily in Russell?
    Ms. Chrisler. I believe that there is a citation for the 
stairwells in the Russell building as well.
    Senator Nelson. Oh, there is? Okay. But we are going to 
take care of the House Members before we take care of the 
Senators?
    Thank you. My time is up.
    Senator Murkowski. I just can't let a good thing drop here. 
I understand that here on the Senate side, the Rules Committee 
has asked for some kind of a blue ribbon panel to come together 
to actually review the situation with the citation, the Russell 
stairwell, recognizing that it is a 100-year-old building, and 
it is made out of granite or marble or something pretty 
impervious to fire. That it is fully alarmed, fully 
sprinklered.

                 <greek-l>OOC deg.CITATION FLEXIBILITY

    And I guess it gets back to my initial question, which is 
about flexibility when we issue citations and then, how we 
respond by way of abatement. At what point in time does the 
reasonable and prudent standard come into place?
    Ms. Chrisler. Yes.
    Senator Murkowski. And I will give you an example, and I am 
going to detract for just a minute. We dealt with a situation 
in my home State where an individual built a hotel out of ice. 
And he was shut down by the fire department because he didn't 
have a sprinkler system in it.
    Now, think about it. In a way, and I don't mean to be trite 
and flip here with safety, but I think we do need to appreciate 
that if we have made reasonable and prudent efforts to make 
sure that the life safety issues are fully addressed, if we 
haven't checked off the boxes that somebody has detailed in an 
office somewhere else and we are still not in compliance, and 
then we are forced to spend $7 million, whether it is the 
Cannon or whether the Russell, I guess I get a little 
frustrated because I want us to exercise good common sense.
    I want us to have buildings that are strong and safe and 
are beautiful and are historic, but I think we also need to use 
a little bit of common sense in how we address the issue. And 
we have been going on about the stairwells for a long time, Mr. 
Chairman. But why would we move forward with a blue ribbon 
panel to look at the issue in the Russell and then on the House 
side make a decision that we are going to go ahead with a 
similar project?

        <greek-l>AOC deg.HOUSE BUILDINGS VERSUS SENATE BUILDINGS

    You have indicated, Ms. Chrisler, that you are working 
together to deal with some kind of abatement situation, but yet 
if you guys are moving forward with design and you are asking 
or you are saying we would be happy to be included at the 
table, it doesn't sound to me like we are all really talking 
here.
    And I don't know whether that is a rhetorical question, or 
just putting it out on the record, I would be happy to hear 
responses from either one of you. But I am curious to know as 
to why we would treat the House building different than the 
Senate building on this.
    Mr. Ayers, do you want to comment on that, why we would be 
treating them different?
    Mr. Ayers. Well, I do know that we certainly move those 
projects forward at different times, as they are separate and 
different appropriations. So they may be moved forward just a 
little bit at different times. The Cannon building was funded 
before the Russell building.
    In the Russell building, as we moved forward and requested 
our authorizing committee's authorization to spend that money, 
they asked us to take a step back and take a second look at 
this design. They really questioned whether this was an 
appropriate use of funds and an appropriate interpretation of 
the building codes, and they warned us to assemble a blue 
ribbon panel to look at all of the issues surrounding this, and 
advise them with this panel whether this work is required or 
not.
    I received a letter from the chairman and ranking member of 
that committee this week, and we will be moving now to 
undertake that blue ribbon panel expeditiously.
    Senator Murkowski. So does that kind of put that particular 
citation on hold, in your opinion, as this blue ribbon panel 
reviews this?

                    <greek-l>AOC deg.ENERGY PROJECTS

    Mr. Ayers. From my perspective, it does. Yes.
    Senator Murkowski. Let me ask you a question about some of 
the energy projects that we have going, following on Senator 
Pryor's comments. This relates to the boiler. As you know, I am 
on the Energy Committee, and most of my day is focused on 
energy and how we can be reducing our emissions and be 
responsible stewards of the environment. I am pleased with the 
direction that we have been able to take in reductions of 
emissions and our carbon footprint.
    But if I understand until last year, coal was used for 
about 45 percent of the fuel mix. Then the decision was made to 
discontinue the use of coal at the Power Plant, and you are 
retrofitting one of the seven boilers this summer. I am told 
that by next year, you will be able to operate at 99 percent 
using natural gas. Is that correct?
    Mr. Ayers. That is correct, with three caveats, if I could?
    Senator Murkowski. Okay.
    Mr. Ayers. Those caveats are, first, that our utility 
provider, and our gas provider needs to make some improvement 
to the service line to the Capitol Power Plant to enable us to 
do that. We expect that to be done this summer.
    Second, if we don't have a severe winter, we will be able 
to achieve that 99 or 100 percent. Similarly, if we have no 
equipment outages, we will be able to achieve that.
    So with those caveats, yes, that is correct.
    Senator Murkowski. I am then told to get to a clear 100 
percent level of using natural gas year-round that we need an 
additional $10 million in the fiscal year 2010 budget to 
retrofit another boiler. Is that correct?
    Mr. Ayers. That is correct.
    Senator Murkowski. So I just want to make sure that we all 
understand that for one last percentage, so that we can say we 
absolutely, positively are not using coal, we are going to 
spend $10 million to retrofit this last boiler?
    Mr. Ayers. I think that 1 percent, your analysis is 
correct, as well as, similarly, in powerplant business, it is 
not realistic to assume all of your equipment is going to run 
all of the time. It just doesn't happen, and powerplants don't 
operate that way.
    But if it is acceptable to the Congress that we fall back 
to burning coal and fuel oil if we have an equipment issue, 
then we could save $10 million.
    Senator Murkowski. Save $10 million. And if we have got a 
tough, cold winter, to have that in reserve. I just wanted to 
make sure that I understood that.
    My time has expired, Mr. Chairman.
    Senator Nelson. Thank you.

 <greek-l>AOC deg.ARCHITECT OF THE CAPITOL/GOVERNMENT PRINTING OFFICE 
                              SIMILARITIES

    Mr. Ayers, both the AOC and the Government Printing Office 
(GPO) provide a number of similar industrial-type functions, 
for example, electrical, carpentry, masonry, and those related 
functions. And since the AOC is already using space at the GPO, 
is it possible that somehow that you could achieve economies of 
scale by combining some of these functions?
    Mr. Ayers. That is an excellent idea and, quite frankly, 
one I had not considered before. If you would give us an 
opportunity to work with the Public Printer and do an analysis 
of the pros and cons of that, we would be happy to.
    Senator Nelson. Sure.
    Mr. Ayers. A great idea.
    Senator Nelson. Well, occasionally, we come up with one. So 
it could possibly at the same time free up some space in the 
Senate and the House office buildings as well. What we don't 
want to do is we wouldn't want to see a decline in service, but 
certainly I would hope that you could take a look at what that 
would mean and what the effect would be of some combination or 
sharing the responsibilities.
    Mr. Ayers. I am happy to do that.

                <greek-l>AOC deg.BENEFIT/RISK ASSESSMENT

    Senator Nelson. If the committee that you are putting 
together comes back and says that it is not the best 
expenditure of money in terms of risk assessment, and I always 
try to look at things in cost benefit/risk assessment, through 
that lens, what would that mean? Would that mean if they said 
that on the stairwells that it is not worth doing that, the 
risk is not great enough to justify that kind of expenditure, 
that you would make the decision not to do it?
    Or what would be the next step in the process? The Rules 
Committee? I happen to sit on the Rules Committee. So would it 
come to us? What would be the next step?
    Mr. Ayers. Yes, I think it would come to the Rules 
Committee. They are the requester of this blue ribbon panel. So 
we would assemble that panel and facilitate that and deliver 
that deliverable back to the Rules Committee, who ultimately, I 
think, will certainly work collaboratively with all of the 
stakeholders to come to a common course of action.
    Senator Nelson. And I am not trying to prejudge the outcome 
of whatever that committee does, I have no idea what they are 
going to determine. But as a hypothetical at least, that is 
what could happen. Would that have any effect on the Cannon 
building and the stairwell there?
    Mr. Ayers. Well, I think it could. I think--and maybe that 
is something Ms. Chrisler and I should talk about in the coming 
days about this blue ribbon panel, which I don't believe she 
knows about. We have not transmitted that letter to her.
    So maybe that is something she and I should talk about in 
the next couple of days and get back to the subcommittee on how 
that might affect the Cannon building.
    Senator Nelson. Sure. I think that is a good idea. I assume 
that would work well with you as well, Ms. Chrisler?
    Ms. Chrisler. It certainly would. Thank you.
    Senator Nelson. Sure, sure. Senator Murkowski may have 
asked you when you expect to have the report. I don't know that 
I heard when you expect the committee to have completed its 
work?
    Mr. Ayers. I think assembling a group of blue ribbon 
experts like that, from my experience, is something that will 
take at least 6 months to pull them together, develop a report, 
have that report reviewed a couple of times and, ultimately, 
agreed upon. Usually, it is a several month effort.

            <greek-l>AOC deg.PROJECT RECOMMENDATION TIMELINE

    Senator Nelson. So in approximately 6 months, we ought to 
have the suggestions that they are going to make regarding many 
of these different projects or their overall view of what risk 
assessment should consist of?
    Mr. Ayers. Yes, sir.
    Senator Nelson. Okay. Let us see, I don't know that I have 
any further questions.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I think I am down to the cats and dogs collection here, 
too. Just a few questions all over the map here.

                    <greek-l>AOC deg.STAFF-LED TOURS

    Let us start with the staff-led tours because I think when 
other Members found out that I was part of the legislative 
branch appropriations, they all came to me with their 
complaints about what is going on with the staff-led tours.
    I want to start, Mr. Ayers, by commending those of you that 
are involved and the efforts of the Capitol Visitor Center. 
When you opened that facility, you figured out how to move mass 
numbers of people through, I think, in a very efficient way. 
You are to be commended for that.
    Mr. Ayers. Thank you.
    Senator Murkowski. And so, I am a little bit hesitant to 
even bring it up, but that is what these forums are for.
    I have heard concerns from other Members that they feel 
that on some of the staff-led tours, the staff members have 
been treated in a discourteous manner by those that are in the 
Capitol Visitor Center, the ``red coats'' as we call them, and 
that there has not been sufficient oversight in making sure 
that people are saying the right things. I have heard numerous 
stories, and I don't know that they bear repeating here.
    My question to you is what are we doing to make sure that 
all of our visitors, whether they come through the CVC or 
through our respective staff-led tours, are being accommodated 
respectfully? Because I think it does really reflect back on 
all of us, and the public doesn't make the distinction as to 
whether it is staff-led or CVC-led.

        <greek-l>AOC deg.CAPITOL VISITOR CENTER STAFF MANAGEMENT

    Mr. Ayers. That is really an important question. We really 
strive to hire the very best people that are both knowledgeable 
in the history of the Capitol building, are knowledgeable in 
visitor services and learning techniques, but most importantly, 
are personable and respectful of visitors. Clearly, treating 
someone with disrespect or some other fashion is obviously 
unacceptable.
    We are doing a couple of things. One, we are really trying 
to hire the very best people. Second, when we do get feedback 
about a particular behavior that a guide displayed or visitor 
assistant demonstrated in a particular tour, every single day 
we get that group together from 8 to 8:30 in the morning in one 
of the theaters. And our management team comes in and sort of 
describes or sort of conducts a hot wash from the previous day. 
Here is this, and here is that, and here is how we can say that 
a little better and adjust your speech here.
    So I think that is important. And on a broader scale, Ms. 
Rouse, our Chief Executive Officer for the Capitol Visitor 
Center, is holding monthly listening sessions with the 
Congress. These sessions are open to congressional staff and 
Members to discuss what's on their minds or has had a good 
experience or bad experience. Once a month we are getting 
together with all of them and listening to what those concerns 
are so we are sure we will hear them and we can fold those back 
into the visitor services operation.

      <greek-l>AOC deg.CAPITOL VISITOR CENTER FTE STAFFING REQUEST

    Senator Murkowski. Now do I understand correctly that with 
your request, you are seeking another 25 employees?
    Mr. Ayers. That is correct.
    Senator Murkowski. What areas would they be staffing?
    Mr. Ayers. These are 25 employees for the Capitol Visitor 
Center. First is five red coats or guides. Today, we think the 
number of tour guides is low because our tours at our peak 
periods will have about 50 people on each tour. We think that 
is way too many to have an effective and engaging tour.
    So the five new tour guides will help reduce that number of 
people on a given tour. We think that is really important for 
quality of service.
    On top of that, there are 15 visitor assistants. And I 
think the key there is way finding, one, and two----
    Senator Murkowski. I have to ask about way finding.
    Mr. Ayers. Sure.
    Senator Murkowski. Because there is a new person at the 
base of the escalator as you go from the little trolleys up 
north. I haven't any idea what that person does except direct 
traffic. And we have got all kinds of security that is around, 
not that it is particularly their job to direct traffic. But 
why are we paying a person to perch at the base of the 
escalator?
    Mr. Ayers. I think you really hit the nail on the head that 
much of it is a security concern. Instead of posting a police 
officer there, which used to be the case for a very long time, 
we are now posting that with a visitor assistant.
    Senator Murkowski. I think we still have police there.
    Mr. Ayers. No.
    Senator Murkowski. No? Okay, I will double check. I go 
through there frequently.
    Mr. Ayers. There are really two reasons that that person is 
there. First and foremost, I think it is a Member service. If 
we had all of the staff-led tours going up those escalators and 
moving through where those bank of six elevators are right 
there, we believe that it is going to be too congested, and 
Members will not be able to get to votes when they need to move 
quickly and get on an elevator and up to the floor.
    That bottleneck right there is too much for staff-led tours 
or most of the staff-led tours to go that way. So that person's 
job is to see everyone who gets off the subway and everyone who 
has a CVC badge on that, at that end of the tunnel, are 
directed to the doors of the Capitol Visitor Center.
    Senator Murkowski. We couldn't use a sign?
    Mr. Ayers. A sign could do that. From our experience, it 
would be ignored.
    The second thing, and this is important as well, that we 
really want people to go through the Capitol Visitor Center to 
enter the Capitol. That is primarily because the Capitol has 
egress deficiencies, and we need to carefully monitor how many 
people are in the Capitol building at any one time.
    The way we do that is getting them to enter through the 
Capitol Visitor Center so we have a steady count of who is 
going into the building and who is coming back out.
    So those are the two reasons that that person is there.
    Senator Murkowski. I am still not convinced, but I 
appreciate the explanation.

               <greek-l>OOC deg.OOC FTE STAFFING REQUEST

    Ms. Chrisler, you had mentioned, and I apologize, I know 
that you had indicated that you were looking for the 
Occupational Safety and Health Administration (OSHA) not staff 
director, but compliance----
    Ms. Chrisler. Program supervisor.
    Senator Murkowski [continuing]. Supervisor, but then did 
you also indicate that there were two other positions? There 
was a fire safety position. How many positions are you seeking 
to fill?
    Ms. Chrisler. Right. We are seeking one FTE, the 
authorization and funding for an OSH program supervisor to 
replace the nonreimbursable detailee that will be retiring 
soon.
    Senator Murkowski. So the others were not new adds in terms 
of hires?
    Ms. Chrisler. Not in terms of authorization. The second was 
the compliance officer, which has already been authorized. We 
are seeking funding for that. The third is a fire safety 
specialist, which we are not seeking the authorization for an 
FTE for, just funding for contract services.
    Senator Murkowski. But you currently have a total of 21 
employees?
    Ms. Chrisler. That is correct.
    Senator Murkowski. And does that include your detailee?
    Ms. Chrisler. No, it does not.
    Senator Murkowski. Okay. So what is it that you can't do 
with 21 that you need to have these additional 3?
    Ms. Chrisler. Well, the person that is going to be--that is 
one additional position that we are requesting, and that 
position is currently being filled by someone from another 
agency. And once he retires, we won't have the performance of 
those duties any longer.

            <greek-l>OOC deg.OOC FTE STAFFING JUSTIFICATION

    Senator Murkowski. And I can appreciate that because I 
think we have all had good detailees in our respective offices. 
But it would seem to me that given the responsibilities within 
the Office of Compliance, to have a good, solid 21 full-time 
employees is pretty good. So I guess I am asking what are you 
not able to accomplish with the individual staff level that you 
have?
    Ms. Chrisler. Right. The 21 FTEs is wonderful, and it is 
not where the office has been before, and we are very 
appreciative of what this subcommittee and the committee as a 
whole has supported us in doing.
    What we are looking to do--what we are struggling doing 
right now is monitoring a lot of the safety and health findings 
that we have found. The hazards that are outstanding, the fire 
and safety, the safety and health fire hazards that we have 
documented since 2000 and 2001, the abatement needs to be 
monitored.
    The 9,000 violations that were found in this past Congress 
and the 13,000 in the prior Congress need to be monitored as 
well to ensure that the abatement is on track and to ensure 
that progress is being made and to ensure that nothing falls 
through the cracks. That is where these positions would be 
instrumental.
    Senator Murkowski. Mr. Chairman, I am just going to look 
quickly and see if there is anything else that I wanted to ask 
our witnesses here.

                   <greek-l>AOC deg.RENEWABLE ENERGY

    Oh, there was a fair amount of controversy I guess it was 
last year, it may have been 2 years ago, when we purchased 
renewable energy credits. Are we still doing that?
    Mr. Ayers. There was. I think there is often confusion 
between carbon credits and renewable energy credits, and they 
are very different.
    Senator Murkowski. But we were doing renewable energy 
credits, were we not?
    Mr. Ayers. That is correct.
    Senator Murkowski. Right.
    Mr. Ayers. Renewable energy credits enable us to purchase 
electricity through wind sources versus the carbon offsets, 
which is a relatively newer market that allows you to purchase 
carbon offsets, really different from electricity. So----
    Senator Murkowski. What are we doing, and how much are we 
spending?
    Mr. Ayers. The Architect has not purchased carbon offsets. 
So that has not happened. But we do purchase renewable energy 
certificates, and that is required by the Energy Independence 
and Security Act of 2007 (EISA).
    Senator Murkowski. Do you recall how much we spend on that?
    Mr. Ayers. No, ma'am, I don't. But I would be happy to get 
that for you for the record.
    [The information follows:]

    In fiscal year 2004, the AOC purchased 51,296,000 kWh of 
renewable energy credits from 75 percent national landfill gas 
resources, and 25 percent national wind resources at a unit 
price of $0.01081/kWh for a total expenditure of $554,510. In 
fiscal year 2008, AOC purchased 107,365,000 kWh of renewable 
energy credits from national wind resources at a unit price of 
$ 0.006/kWh for a total expenditure of $644,190.
    In addition, beginning in fiscal year 2006, all electricity 
supplied through the GSA-managed electricity contract for 
government entities located in the District of Columbia 
requires renewable energy credits equivalent to 3 percent of 
the annual electricity usage. The unit price for the renewable 
energy credits is included within the base price of the 
contract and we cannot determine actual cost of these renewable 
energy credits.

                 <greek-l>AOC deg.EISA REDUCTION GOALS

    Senator Murkowski. Okay, the last question, and this also 
relates to the energy issues. We have set a goal through EISA 
for a 30 percent reduction by 2015. You indicate that you have 
made reductions of 12 percent since 2003. And you have done it 
through some of the low-hanging fruit.
    So the question is, is how do we meet the goal? And since 
that time, the Speaker has kind of upped the ante even further, 
bringing it to a 50 percent reduction by 2017. What is the plan 
to meet that, and how are we budgeting to do that?
    Because if you have taken the low-hanging fruit already and 
it has gotten us to 12 percent, how do we make it to 50 percent 
by 2017? And what do you figure it might cost us?
    Mr. Ayers. Well, I think there are three steps to that, 
Senator Murkowski. First is it will continue to take direct 
appropriations to achieve some of those energy reductions, and 
you will see some of those in our 2010 budget, I think to the 
tune of almost $11 million. So that is first.
    Second, we are using public-private partnerships; energy 
savings performance contracts. So, for example, in the next 
year or so, we will award several contracts where private 
companies will invest nearly $150 million in our facilities and 
be paid back by the energy savings they achieve through the 
implementation of their projects. So that is the second way.
    The third way, I think, is really yet to be determined. But 
in my view, we need something big in the future to enable us to 
achieve those results. I am hopeful that the National Academy 
peer review of our long-term Capitol Power Plant efforts will 
yield a co-generation recommendation that we can then pursue 
through another public-private partnership and achieve some 
very significant savings through that.
    I can tell you that National Institutes of Health has just 
done that, and the General Services Administration has just 
done that. They are achieving very significant energy 
reductions by a co-generation facility through a public-private 
partnership.

                <greek-l>AOC deg.UTILITY REDUCTION COSTS

    Senator Murkowski. So we are seeing good results there, but 
do you think we will see a reduction in our utility cost? I 
mean going from coal to natural gas, we know that that was more 
expensive to do.
    Mr. Ayers. Correct.
    Senator Murkowski. Will we see a leveling off in our 
utility costs, do you think?
    Mr. Ayers. I don't believe we are going to see a leveling 
off in our utility cost. The key to an energy savings 
performance contract is we must continue to appropriate the 
same dollars for utilities, and the delta between your energy 
reduction and what you appropriate, that is the money that you 
use to pay your vendors for making that investment.
    So, going forward, we are going to continue to pay the same 
kinds of utilities we pay today.

                <greek-l>AOC deg.NATURAL GAS VERSUS COAL

    Senator Murkowski. I am looking at a chart that shows the 
differences, and if we were to use, say, 95 percent natural gas 
to 5 percent to zero coal, a cost of $25.6 million. If you were 
to change that mix so it is 45 percent natural gas, 50 percent 
coal, 5 percent fuel oil, your cost is just a little shy of $20 
million. So it makes a difference.
    Anyway, I am not going to belabor that point. One last 
question for you, and it is just to satisfy my curiosity. What 
is the sustainable site demonstration gardens?

                  <greek-l>AOC deg.BARTHOLDI FOUNTAIN

    Mr. Ayers. Our Botanic Garden has partnered with the Lady 
Bird Johnson Wildflower Center to develop an industry 
standardized way of rating landscapes and gardens for 
sustainability, just like the U.S. Green Building Council has 
implemented the LEED standard that you may be familiar with--
the LEED, leadership in energy and environmental design.
    So we have partnered with them to develop standards for 
sustainability for landscapes, very similar to the buildings 
again, and it is our effort to begin to pilot that rating cycle 
here on Capitol Hill. So that is what that is, and we would 
intend to do that at the Botanic Garden or across the street at 
Bartholdi Park.
    Senator Murkowski. When is that fountain going to be done?
    Mr. Ayers. It is probably 2 years before the fountain comes 
back on.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank both of the witnesses.
    Senator Nelson. Thank you, Senator.

        <greek-l>AOC deg.VISITOR ASSISTANTS/GUIDES FTE INCREASE

    I do have a question. The 25 FTE increase for this budget, 
which includes 15 visitor assistants, although that is 5 
additional guides only adds up to 20. But the additional 
visitor assistants, would this be for peak periods, or would it 
be level across the timeframe?
    Mr. Ayers. It would be level across the timeframe, Mr. 
Chairman. The number one driver for these new visitor 
assistants are the very significant number of evening events we 
have in the Capitol Visitor Center, far more than we had 
anticipated, literally hundreds of them, and many going on 
every single night.
    I was here just two nights ago with a group of students in 
the Capitol Visitor Center, and truly, I saw people going to 
events that were walking around all over the place. They had no 
idea where to go, how to get to their room. There was no one 
there to help them, and I found myself sort of doing the way 
finding for these people.
    So that is really the key driver. We need some way finding 
people and organizing people for these evening events.
    Senator Nelson. I assume it is not possible to do that, let 
us say, on a part-time basis because if you have shifts, are 
you going to stagger the shifts, or are you going to need as 
many people at night as you need during the day, for example?
    Mr. Ayers. We should look carefully at a part-time option. 
We will do that.
    Senator Nelson. Because it seems to me that you are not 
going to have as many people at night. I have only been over 
there at night a couple of times myself, but I haven't seen as 
many people at night as I have seen during the day time. Could 
be some exceptions to that, but perhaps not.
    If you would, I think that would be helpful. That, once 
again, would cause us a little less heartburn on your budget.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, I want to thank both of you today for spending the 
time and attending the hearing and answering the questions. We 
will be anxious to receive the answers that you are going to 
put together to get to us. We will make them part of the 
record. We appreciate your cooperation.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
                Questions Submitted to Stephen T. Ayers
               Questions Submitted by Senator Ben Nelson

                          CAPITOL POWER PLANT

    Question. Your request includes $10 million for the conversion of 
one of your boilers to burn natural gas instead of coal. What ratio of 
natural gas to coal are you currently burning in the Capitol Power 
Plant?
    Answer. As part of its normal summer operations, the Capitol Power 
Plant burns 100 percent natural gas to facilitate scheduled boiler 
repairs and preventative maintenance work. This also reduces emissions 
during the heavy ozone season in the summer months. In March, the 
Capitol Power Plant ceased coal operations approximately 2 months 
earlier than in recent seasons. The result of this earlier cessation is 
that the projected fuel usage ratio for fiscal year 2009 is 75 percent 
natural gas and 25 percent coal. Although these percentages could vary 
slightly based on weather variables, which may drive an increased 
campus steam use, this earlier switch to 100 percent natural gas is 
projected to provide an approximate 10 percent reduction in coal use 
for fiscal year 2009.
    Question. If we do not appropriate this $10 million in fiscal year 
2010, what fuel mix will be used at the Capitol Power Plant?
    Answer. In response to the February 26, 2009, letter from the 
Speaker of the House and the Senate Majority Leader, the Acting 
Architect directed the Capitol Power Plant to continue planned work to 
upgrade equipment and controls on one of the natural gas boilers to 
increase its efficiency. He also directed expanded maintenance projects 
this summer to test and fine tune the remaining natural gas boilers. 
These efforts will improve the efficiency and capacity of existing 
natural gas equipment to meet the steam requirements for the Capitol 
complex using only natural gas, barring three issues:
  --Based on discussions with the natural gas utility provider, the 
        supply line must be upgraded from a four-inch gas line to a 
        six-inch gas line to ensure sufficient natural gas can be 
        delivered during the winter months. The Architect of the 
        Capitol is working with the utility provider to plan the 
        upgrade of the gas line.
  --Second, colder than normal weather during the winter months could 
        cause the steam demand to exceed the capacity of the existing 
        natural gas equipment which would drive a requirement to use 
        coal as a fuel source in a boiler.
  --Third, all existing natural gas equipment must be operating at 
        capacity to meet steam requirements during the winter. Any 
        equipment outages involving the gas boilers would necessitate 
        the use of a coal boiler.
    If any of the above issues are realized, coal would have to be used 
to meet demands. While impossible to predict with accuracy, we estimate 
this could be between zero and 3 percent coal usage. On an annual 
basis, it is estimated the Capitol Power Plant will provide 97 to 98 
percent of the required steam generation for the Capitol complex using 
natural gas as a fuel source.
    Question. I understand you have commissioned a long-range study on 
the Capitol Power Plant to look at a range of options for the Plant's 
future. Can you give us an update on the status of that study and what 
potential options are being discussed?
    Answer. Earlier this year, leveraging our in-house experts and 
highly qualified consultants, the Architect of the Capitol prepared a 
draft Capitol Power Plant strategic energy plan which is completed to 
approximately the 70 percent level. This master planning process 
examined numerous options for the Plant to meet goals of improving 
efficiency and reliability, reducing environmental impacts, and 
controlling the cost of operations. The Architect of the Capitol 
enlisted the assistance of the National Academy of Sciences to review 
this draft plan. The National Academy of Sciences assembled a panel of 
industry experts who are currently conducting a thorough review of the 
options and strategies. In addition, the Architect of the Capitol 
requested that the U.S. Department of Energy's National Energy 
Technology Laboratory conduct a review of the plan. These reviews will 
provide very useful third-party perspectives on the plan to enable the 
Architect of the Capitol to chart a course that provides the greatest 
efficiency and cost benefits while meeting the needs of Congress. The 
options considered in the report for providing generation at the 
Capitol Power Plant are:
Options 1-3: Existing Configuration with Boiler Replacement
    Existing configuration using 65 percent natural gas, 38 percent 
coal, and 2 percent fuel oil.
    Existing configuration using 98 percent natural gas, and 2 percent 
fuel oil.
    Existing configuration using 80 percent synthetic coal, 18 percent 
natural gas, and 2 percent fuel oil.
Options 4-6: Cogeneration with 33 Megawatts of Electricity Generation
    Cogeneration using 85 percent natural gas, 13 percent coal, and 2 
percent fuel oil.
    Cogeneration using 98 percent natural gas, and 2 percent fuel oil.
    Cogeneration using 85 percent natural gas, 13 percent synthetic 
coal, and 2 percent fuel oil.
Options 7-16: Construction of a New Plant
    New circulating fluidized bed plant (a combustion technology that 
mixes gases and solids) using 65 percent natural gas, 38 percent coal, 
and 2 percent fuel oil.
    New natural gas boiler plant using 98 percent natural gas, and 2 
percent fuel oil.
    New circulating fluidized bed plant using 80 percent synthetic 
coal, 18 percent natural gas, and 2 percent fuel oil.
    New 20 megawatt fuel cell plant using 98 percent natural gas, and 2 
percent fuel oil.
    New coal gasification plant using 98 percent natural gas, and 2 
percent fuel oil.
    New waste-to-energy plant.
    New plant with heat-recovery chillers.
    New plant with a high temperature hot water system.
    New nuclear plant.
    New plant utilizing Department of Energy Super Boiler technologies.
    The report also includes nine separate options for routing of the 
utility distribution system throughout the campus and six options to 
provide for decentralization, construction of a separate utility plant, 
or connection to the General Services Administration system. The final 
version of the plan is expected to be complete by the end of the fiscal 
year.

                          LIFE SAFETY PROJECTS

    Question. As you know this subcommittee places a very high priority 
on funding life safety projects. In fiscal year 2009 we funded over $75 
million worth of these projects including $56 million for the utility 
tunnel repairs. Is the fiscal year 2010 request of $45 million the last 
large installment of funding for this project?
    Answer. The fiscal year 2010 request of $45.77 million will be 
reduced to $16.85 million due to revised project logistics, as well as 
savings achieved in asbestos abatement, use of in-house labor, and 
reduced contract costs. As a result of this reduction, some costs will 
be shifted to fiscal year 2011 and fiscal year 2012. The Architect of 
the Capitol is currently projecting a fiscal year 2011 request of 
$13.95 million, and a fiscal year 2012 request of $10.41 million. The 
revised funding profile will be sufficient to meet the June 2012 date 
mandated by the settlement agreement to abate all tunnel hazards.
    Question. What other ``citation-related'' projects are included in 
the fiscal year 2010 request?
    Answer. In addition to the utility tunnels, the citation-related 
requests for fiscal year 2010 are Sprinkler System, West Main Pavilion, 
1st Floor, Thomas Jefferson Building; Egress Improvements, Phase II, 
Thomas Jefferson Building; Book Conveyor System Modifications, Library 
Buildings and Grounds; Monumental Exterior Exit Doors, John Adams 
Building; Fire Door Improvements, Library Buildings and Grounds; and 
Americans with Disabilities Act Bathroom Renovations, John Adams 
Building.
    Question. In terms of life safety projects in general, is there 
some point when you expect the number of code deficiencies and 
citations to start going down as we address these issues each year?
    Answer. Yes, the number of deficiencies and citations issued by the 
Office of Compliance has been declining. Since 1998, the Office of 
Compliance has issued 97 citation items to the Architect of the 
Capitol. Eighty-five of these (88 percent) were issued between 1998 and 
2000. Since 2005, the Architect of the Capitol has been issued eight 
citation items, with just one citation issued since 2007. Of the total 
97 citation items issued to AOC since 1998, 76 are closed and 21 remain 
open. AOC expects to close five citation items by the end of 2009, 
leaving nine fire and life-safety and seven utility tunnel citations 
open. The Architect of the Capitol biennial inspection deficiencies 
decreased 14 percent from the 109th Congress to 110th Congress, and 
further decreases are projected based on the early 111th Congress 
inspection process. The Architect of the Capitol attributes these 
deficiency and citation declines to a combination of factors including 
increased funding to address fire and life-safety deficiencies; 
implementation of facility condition assessments, safety programs, and 
periodic facility inspections; and improved communication and 
coordination with the Office of Compliance.

                          ENERGY REQUIREMENTS

    Question. One of the drivers of this year's request is meeting 
energy reduction requirements from several different energy bills. 
While I think it is important to lead by example in this regard, I 
realize there are significant costs related to these efforts. What 
major actions have been taken to reduce our energy usage and how 
successful have you been in that regard?
    Answer. The AOC has a number of ongoing initiatives to reduce 
energy consumption and meet legislative goals. Some of the biggest 
contributors to reduced energy consumption are:
  --West Refrigeration Plant Expansion Chillers.--These new chillers 
        are 20 percent more efficient and reduce the energy associated 
        with chilled water production.
  --Capitol Power Plant Operational Changes.--Since June 2008, the 
        Capitol Power Plant has implemented improved operating 
        procedures and equipment staging, and reduced chilled water 
        supply temperatures in the winter. Combined with heating and 
        air conditioning improvements made in the jurisdictions, the 
        changes have resulted in a reduction in heating and cooling 
        energy production by 20 percent.
  --Infrastructure Improvements.--As a side effect of improving the 
        tunnel conditions, the improved insulation was installed and 
        significantly reduces leaks and other heating losses, resulting 
        in a lower steam production requirement.
  --Jurisdictional Improvements.--Each jurisdiction has implemented 
        energy savings initiatives such as lighting upgrades, 
        installation of occupancy sensors and compact fluorescent light 
        bulbs, change-over to energy star equipment, and other low-
        cost/no-cost improvements. In addition, the Architect of the 
        Capitol's energy awareness public outreach program educates 
        individuals on energy savings techniques.
    The above initiatives were instrumental in enabling the Architect 
of the Capitol to surpass legislated energy reduction goals (against 
the fiscal year 2003 baseline) as shown in the table below:

                              [In percent]
------------------------------------------------------------------------
                  Fiscal year                       Goal       Achieved
------------------------------------------------------------------------
2006..........................................            2          6.5
2007..........................................            4          6.7
2008..........................................            9         10.7
------------------------------------------------------------------------

    Question. You are requesting $11 million worth of projects in 
fiscal year 2010 with an energy-reduction focus. What level of energy 
savings will these projects, if funded, achieve for the Capitol 
Complex?
    Answer. The projected energy savings is estimated at 6 percent when 
the fiscal year 2010 requested projects are completed.
    Question. The Architect of the Capitol is requesting $17 million 
for energy management programs, metering, and design/build development. 
Can you explain how these items tie in to your overall efforts?
    Answer. The Architect of the Capitol plans to use $3.4 million for 
a contract to oversee the work being done by the Energy Savings 
Performance Contracts. The Energy Savings Performance Contracts will 
generate construction-type repair and replacement work across the 
Capitol complex. Some of the work involved may be located in areas that 
contain unique or historically important items. The Architect of the 
Capitol must ensure that the construction is properly managed and also 
must provide for third-party measurement and verification, and 
oversight of commissioning services for projects.
    The use of Energy Savings Performance Contracts and currently-
planned construction projects will not enable the Architect of the 
Capitol to continue to meet the mandated energy reduction goals. 
Additional energy reduction projects will be necessary. The requested 
$6.5 million to develop design/build packages will help bridge the gap 
between currently identified projects and the energy reduction goals.
    Electrical, steam, and natural gas meters are required per Section 
434 of the Energy Independence and Security Act of 2007. The $7.1 
million metering request is sufficient to procure and install meters 
and infrastructure to fully meet this fiscal year 2015 requirement. In 
addition, metering compliments the entire energy program by enabling 
the detailed monitoring of energy usage, and will help the Architect of 
the Capitol to identify potential energy savings opportunities at the 
individual building level.
    Question. How are you using Energy Savings Performance Contracts to 
help meet your energy reduction requirements?
    Answer. The Department of Energy's Energy Saving Performance 
Contracts are being used as an alternative funding strategy to 
appropriated funds. Under these contracts, companies complete energy 
saving construction projects, and are then reimbursed from the funds 
that would have been used to pay for the energy that is no longer 
necessary due to savings generated by the installed projects. The 
Architect of the Capitol plans to use several Energy Savings 
Performance Contracts across the Capitol complex. These Energy Savings 
Performance Contracts are in various stages of evaluation and 
negotiation. Since the construction costs are financed through the 
Energy Savings Performance Contracts companies, the Architect of the 
Capitol will reimburse the companies for construction as well as 
financing costs over the next 20 to 25 years, if the companies' efforts 
realize energy savings.

                            OPERATING BUDGET

    Question. The Architect of the Capitol is requesting a 10.4 percent 
increase in its operating budget in fiscal year 2010. That is a pretty 
significant increase for day-to-day operations, particularly given the 
significant capital project needs you are requesting. How much of the 
operating budget increase is ``controllable''--that is, not related to 
pay increases or other inflationary changes?
    Answer. The $39.9 million (10.4 percent) increase in operating 
budget includes $23.9 million in mandatory pay and inflationary 
increases (6.2 percent of the overall operating budget increase), $4.7 
million (1.2 percent) in Capitol Visitor Center program increases, and 
$11.3 million (3 percent) in what could be called ``controllable'' 
operating budget increases. The Architect of the Capitol does not 
believe the increases for the Capitol Visitor Center should be 
considered controllable because the increases are driven by unforeseen 
demands and the first full year of operations funding. In addition, the 
$11.3 million (in increases that are not related to mandatory pay and 
inflation) includes critical mission items such as an internal control 
audit to prevent fraud, waste, and abuse; facility condition 
assessments for new inventory buildings such as the Library's book 
storage modules and the National Audio-Visual Conservation Center; 
critical program/project management tools; safety equipment and 
training; uniforms; replacement of a 20-year old cable television head-
end switcher; an OSHA-required hazardous material survey; and the 
transit subsidy benefit increase. Although these items may not be 
required by law or directive, not funding them will impact the 
Architect of the Capitol's ability to meet mission requirements.
    Question. You are asking for an additional 25 full time equivalents 
in fiscal year 2010 for the Capitol Visitor Center, including 15 
Visitor Assistants and five additional Guides. Have you considered 
hiring these additional personnel on a part-time basis--for the peak 
visitor season--rather than full time?
    Answer. Yes, we can develop a seasonal profile that will minimally 
meet the needs. Due to training requirements and the learning curve for 
these positions, temporary positions do not offer the same level of 
efficiency as full time staff.
    Question. Is this increase in personnel due to unforeseen needs at 
the CVC? Could you explain this request and how you arrived at these 
numbers?
    Answer. The Capitol Visitor Center had to convert a number of 
current Visitor Assistant positions to accommodate unforeseen 
operational needs such as a larger-than-anticipated phone call center, 
the need for a volunteer services coordinator, Congressional liaisons, 
and reservation clerks and a coordinator. The principal driver for the 
additional increase in Visitor Assistants is the greater-than-
anticipated number of evening events in the CVC meeting spaces and the 
support requirements for these events. Visitor Assistants have been 
frequently called upon to help direct guests to event spaces, and also 
to enforce CVC policies (e.g. food restrictions in Emancipation Hall) 
during the evening hours and special Sunday events. It is also 
necessary to position Visitor Assistants at various points outside to 
provide directional way finding assistance to visitors. Visitor 
Assistants have also been called upon to provide additional support 
during normal operating hours for special Congressional events in and 
outside the Capitol such as the Inaugural, the Days of Remembrance 
ceremony in the Rotunda, and the unveiling of the Reagan statue. The 
Guide increase is driven by the size of tour groups. Currently, tour 
groups range in number from 40 to 60, depending on Guide availability 
and scheduling. The average size of a tour group would decrease to 40 
with the addition of five Guides, providing a more manageable size from 
a logistics and security perspective.

              GOVERNMENT PRINTING OFFICE SHARED RESOURCES

    Question. Both the Architect of the Capitol and the Government 
Printing Office provide a number of similar industrial-type functions: 
electrical, carpentry, masonry, and related functions. Since the 
Architect of the Capitol is already using space at the Government 
Printing Office, could the Architect of the Capitol and the Government 
Printing Office take advantage of economies of scale by combining some 
of these functions?
    Answer. The Architect of the Capitol is examining the feasibility 
of this, and will report back to the Subcommittee on its findings.
    Question. Would combining some or all of these functions at GPO 
possibly free up space in Senate and House office buildings?
    Answer. If this is a feasible option, the Architect of the Capitol 
will assess potential space availability based on specific functions 
and economies of scale.

                       PLANNING AND PRIORITIZING

    Question. I know your agency has taken significant steps in recent 
years to establish a data-driven planning and prioritization process. I 
understand that you have developed, for the first time, a Capital 
Improvement Plan that's fully informed by facility assessments of each 
area of the Capitol Complex. Once you identify projects that are 
needed, what is the process you use to prioritize them for inclusion in 
your annual request?
    Answer. The AOC developed a project prioritization process to 
evaluate every project in terms of importance, urgency, and 
classification. In this process, each project is categorized as 
deferred maintenance, capital renewal, capital improvement, or capital 
construction. Next, each project's urgency is determined by an 
assessment of several factors including the facility condition 
assessments, and the Capitol Complex Master Plan and associated 
Jurisdiction Plans. Projects are ranked as immediate, high, medium, or 
low urgency. Finally, each project's importance is carefully evaluated 
based upon a set of predetermined criteria, including historic 
preservation, regulatory compliance, mission accommodation, economics, 
and energy efficiency and environmental quality. All of these factors 
are used to derive a composite rating that is used to prioritize the 
projects, top to bottom.
    Question. How did you decide where to establish the cut line on 
projects slated for inclusion in this year's budget request?
    Answer. Understanding the fiscal constraints, the AOC included all 
executable, immediate priority projects in this year's budget request, 
and only critically-needed high priority infrastructure-related 
projects.
    Question. Were any ``immediate priority'' projects left out of your 
fiscal year 2010 request? If so, why were they left out?
    Answer. Three immediate priority projects were not included in the 
fiscal year 2010 budget request. The projects are: Alternate Life 
Safety Approach, Russell Senate Office Building; Bus Screening 
Facility, United States Capitol Police; and K-12 Fence Replacement, 
United States Capitol Police. The Alternate Life Safety Approach 
project does not have a fully matured solution and several issues must 
be resolved before it is ready for execution. At the request of the 
Senate, the Architect of the Capitol is forming a blue ribbon panel to 
review the project and its proposed solution more thoroughly. The Bus 
Screening Facility project was eliminated because a final decision to 
screen buses for the Capitol Visitor Center has not been made. Lastly, 
the Architect of the Capitol is examining potential solutions for the 
fence replacement and did not believe the project was ready to move 
forward at this point.
    Question. Are the projects included in your fiscal year 2010 
request aimed at addressing the worst deficiencies?
    Answer. Yes. The Architect of the Capitol's project prioritization 
process was designed to identify the most immediate needs and 
prioritize those needs based on life-safety and regulatory compliance, 
security, mission, preservation, economics and energy.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. The budget resolution calls for a 7 percent increase in 
nondefense discretionary spending. What would be the impact on your 
budget if we were to limit it to a 7 percent increase?
    Answer. Limiting the AOC to a 7 percent increase would mean a 
reduction of over $67 million to our current budget request. This 
reduction would affect our ability to meet the focus areas identified 
in our budget request: solving the deferred maintenance and capital 
renewal backlog; following the Capitol Complex Master Plan process; 
meeting prescribed energy goals; and managing and caring for our 
people. We would have to make significant cuts to the Line Item 
Construction Program causing the backlog across the complex to continue 
to rise, and making mandated energy program goals even more difficult 
to achieve. In addition, the limitation would greatly reduce our 
capacity to satisfy requests from our clients.
    Question. The AOC has completed facility condition assessments for 
most of its buildings and facilities. Ratings range from ``poor'' to 
``excellent.'' How does the condition of our buildings compare to other 
government facilities?
    Answer. A uniform standard that would allow a ``side by side'' 
comparison of the condition of the Capitol complex facilities to that 
of other Federal agencies does not exist. The AOC uses a detailed 
component level review and assessment to determine Facility Condition 
Assessments (FCAs) of Capitol complex facilities. This methodology of 
FCAs identifies specific and detailed repair or renovation requirements 
and assists in the prioritization of these requirements. Other agencies 
either do not conduct FCAs at all, or base their FCAs on a very quick 
assessment of various building components. With the various 
methodologies of conducting FCAs, it is not possible to compare 
building condition of the Capitol complex with other government 
agencies' facilities.
    Question. Citation-related work accounts for a large portion of 
your budget request. How much more work does AOC need to do to meet 
outstanding citations beyond fiscal year 2010, and at what cost? How 
many citations remain open? Are any citations anticipated in fiscal 
year 2009?
    Answer. Citation-related projects that will be submitted in future 
year's budget requests include the following:

                        CITATION RELATED PROJECTS
------------------------------------------------------------------------
             Project                 Projected Construction Cost Model
------------------------------------------------------------------------
Tunnel Improvement Program \1\...  $24,360,000
Alternate Life Safety Approach,    $5,000,000-$10,000,000
 RSOB \2\.
Alternate Life Safety Approach,    $3,000,000
 CHOB.
Book System Conveyor Projects,     $10,000,000-$25,000,000
 LB&G \3\.
Egress Improvements, LB&G........  $3,000,000
New Exit Stair (Stair B), TJB....  $11,200,000
New Exit Stair (Stair E), TJB....  $11,200,000
New Exit Stair (Stair F), TJB....  $8,000,000
New Exit Stair (Stair G), TJB....  $8,000,000
Fire Damper and Smoke Control      $25,000,000 or greater
 System Modification, LB&G.
Fire Door Improvements, LB&G.....  $8,000,000
------------------------------------------------------------------------
\1\ The $24,360,000 assumes a reduced fiscal year 2010 tunnel program
  request from $45,770,000 to $16,850,000.
\2\ The Senate has requested a blue ribbon panel to review the citation
  associated with this project; therefore, the project cost is subject
  to change pending the final determination.
\3\ There are three projects associated with the citation for the Book
  Conveyor system. Portions of all three projects are required to abate
  the citation.

    There are two projects currently funded that are associated with 
the citation for the U.S. Capitol Building. These projects were 
designed assuming that the U.S. Capitol Building would be fully 
sprinklered. A project to install sprinklers throughout the Capitol is 
currently on hold pending Leadership guidance associated with options 
for the Capitol Complex Master Plan study. The sprinkler project 
projected cost model is $24,000,000, but it is not included in the 
table above.
    Currently, 26 citations remain open. The AOC is working to correct 
the open citations and expects to close 11 citations by the end of 
2009. The 15 citations expected to remain open at the end of 2009 
consist of seven for utility tunnels and eight involving fire and life-
safety.
    The Office of Compliance (OOC) has not communicated to the AOC any 
intention to issue a citation in fiscal year 2009. The AOC is working 
closely with the OOC on a Capitol Power Plant Occupational Safety and 
Health matter. In March 2009, AOC and OOC signed a legally binding 
agreement to provide additional time to address this matter and 
continue to work cooperatively. If this matter is not resolved to the 
satisfaction of the OOC, a citation may be issued.
    Question. The AOC estimates that Energy Savings Performance 
Contracts (ESPCs) currently in place have a value of over $150 million. 
How do ESPCs work, and how do you ensure that the ESPCs result in a 
good ``deal'' for the government and the taxpayer?
    Answer. An ESPC is a process by which Federal agencies leverage 
private funds to implement energy efficiency and renewable energy 
projects. Once the projects are completed, the guaranteed energy 
savings are used to repay the Energy Service Company (ESCO) for its 
investment.
    To ensure that the ESPCs are technically and economically viable, 
significant time and effort is put into conducting the investment grade 
energy audit and formulating the list of Energy Conservation Measures 
(ECMs) in the Detailed Energy Survey. The ESCO guarantees that the 
improvements will generate savings sufficient to pay for the project 
over the term of the contract. The ESCO also is required to verify 
operation of the installed systems, calculate the previous year's 
energy and water savings, and compare verified and guaranteed savings. 
Rigorous measurement and verification (M&V) requirements document 
initial performance and assure persistent savings during the 
performance period.
    The AOC is working with the Department of Energy (DOE) to ensure 
the successful implementation of this initiative. DOE has developed a 
program and refined procedures to ensure the government receives an 
equitable payback on every project, while optimizing the public policy 
purpose of the program by accelerating energy and water efficiency and 
renewable energy improvements to Federal facilities. These procedures 
are implemented with complete DOE guidance in the AOC projects. They 
include DOE program lessons learned, improvements required by statute, 
and recommendations based on Congressional audits.
    A joint AOC/DOE panel is reviewing all aspects of the projects: a 
DOE-provided Project Facilitator reviews the details; a DOE National 
Lab technical expert reviews major aspects of the proposal with special 
attention to the measurement and verification elements. Measurement and 
verification is essential to assuring the avoided cost has been 
achieved each year before a payment is made to the contractor. In 
addition, the AOC is preparing business case and constructability 
analyses to provide a basis for negotiating cost and energy savings.
    Question. The AOC contracted with the National Academy of Sciences 
to review options for the future of the Capitol Power Plant. One option 
being considered is the construction of a co-generation plant. Would 
this be a reasonable investment for us, with significant energy 
improvements? Can you give us some idea of the cost, and when you might 
seek appropriations? How could AOC use a public-private partnership to 
build a co-generation facility?
    Answer. Our initial investigation into co-generation at the Capitol 
Power Plant indicates that it would be a very effective way to improve 
energy efficiency and increase utility reliability. However, the final 
system recommendations and associated cost estimates and schedules are 
not fully developed. Depending on the specific system installed, 
initial cost estimates range from $50 million to $250 million. The AOC 
also is looking at public-private partnerships or ESPCs as possible 
options for the implementation of co-generation.
    Question. GAO has made recommendations in prior years regarding 
improving management of the Capitol Power Plant, including ``right-
sizing'' the staff. What is the status of GAO's recommendations?
    Answer. Based on the GAO recommendations, the AOC awarded a 
contract to perform a work force study in September 2008. The contract 
covers a workload survey of required tasks, skills, and man-hours for 
plant operations, maintenance, and management; recommendations for 
organization structure and skills needed; and flowcharts of key 
processes. Work Process Flow diagrams were submitted and reviewed in 
January 2009, and were finalized in February 2009. The Workload Model 
submitted in March 2009 is under revision to incorporate workloads from 
the finalized Work Process Flow diagrams. The AOC also has identified 
additional processes for incorporation into the model. The final report 
and recommendations are due by the end of June 2009. In addition to the 
workload study, GAO also recommended that the AOC establish procedures 
and guidelines for outsourcing and pursue a competitive sourcing 
strategy. The Capitol Power Plant (CPP) staff is working to develop a 
specific scope of work for this task and may modify the existing 
contract to accomplish the work.
    As part of the AOC-wide skills survey scheduled to take place from 
June through September 2009 by the AOC's Office of Workforce Planning, 
current CPP employees will have their skills assessed against the 
identified requirements. The results of the skills survey will help 
develop the competitive sourcing strategy.
                                 ______
                                 
               Questions Submitted to Tamara E. Chrisler
               Questions Submitted by Senator Ben Nelson

    Question. I understand that your organization conducts ``biennial 
inspections'' of the Legislative Branch facilities. Do these ``biennial 
inspections'' occur in the rest of the Federal Government?
    Answer. No. The executive branch has annual inspections. See 29 CFR 
1960.25(c).
    When Congress enacted the Congressional Accountability Act 
(``CAA''), the result was to enforce the Occupational Safety and Health 
Act (OSHAct) in a manner similar to what is being done in the private 
sector. The OSHAct imposes a ``General Duty'' upon all employers 
(including executive branch departments) ``to furnish a place of 
employment free from recognized hazards that are causing or likely to 
cause death or serious physical harm to employees'' and requires 
employers to comply with regulations issued by the Secretary of Labor 
(OSHA Regulations). The Congressional Accountability Act (CAA) imposes 
this ``General Duty Clause'' upon each employing office and each 
covered employee. However, the CAA does not apply to the legislative 
branch the many specific mandates that the OSHAct imposes in the 
executive branch.
    The OOC's evaluation function includes examining the performance of 
safety initiatives and safety professionals in the employing offices. 
The OOC's ability to conduct this evaluation function has been somewhat 
hampered by the failure to incorporate the provisions of 29 U.S.C.  
657(c) (relating to maintenance, preservation and availability of 
safety records) into the CAA \1\. The OOC's recent Section 102(b) 
Report to Congress (December 2008) proposes several legislative changes 
that would correct this problem proposes several legislative changes 
that would correct this problem by applying OSHA's recordkeeping and 
reporting requirements to the employing offices covered by the CAA. See 
OOC, Section 102(b) Report, p. 10 (December 2008). Under the current 
statutory scheme, unlike the executive branch or private employers, 
employing offices are not required to make, keep, and preserve, or 
provide to the OOC records deemed necessary for enforcement of OSHAct 
Section 5, including records on work-related deaths, injuries and 
illnesses, and records of employee exposure to toxic materials and 
harmful physical agents. Similarly, under the current scheme, the OOC 
is unable to consider any inspection findings of safety professionals 
in the employing offices because employing offices do not share their 
inspection findings with the OOC. OOC inspectors are observing a 
decrease in the number of identified hazards, as well as increased 
educational efforts from the employing offices, but without inspection 
data from the employing offices signifying that they have adequately 
examined and removed OSH hazards from the workplace, the OOC must 
continue to do what is necessary to ensure a safe and healthy workplace 
for covered employees. In addition, neither the AOC nor any other 
covered employing office provides the OOC with injury and illness 
records that are necessary for strategically determining what areas 
should be inspected more regularly or provided more technical 
assistance. This information is not required as part of the CAA, and 
without it, the OOC depends on its biennial inspections to provide 
information regarding safety and health conditions to Congress.
---------------------------------------------------------------------------
    \1\ Under the CAA, the OOC's General Counsel is granted the same 
authority as the Secretary of Labor in subsections (a), (d), (e) and 
(f) of OSHAct  8 (29 U.S.C.  657) and all of the authority contained 
in OSHAct  9 and 10. Unlike the OSHAct, 29 U.S.C.  657(c), the CAA 
does not require legislative offices to keep and provide records to the 
OOC necessary to develop information regarding the cause and prevention 
of accidents and illness; records on work-related deaths, injuries and 
illnesses; and records of any large exposure to toxic materials. 
Furthermore, unlike the OSHAct, 29  657(b), the CAA does not give the 
OOC investigatory subpoena power that Congress found in enacting the 
OSHAct to be ``customary and necessary for the proper administration 
and regulation of an occupational, safety and health statute.'' Report 
No. 91-1291 of the House Committee on Education and Labor, 91st 
Congress, 2nd Session, p. 22; Report No. 91-1291 of the Senate 
Committee on Labor and Public Welfare, 91st Congress, 2nd Session, p. 
12, to accompany S. 2193 (OSHAct) (``a power which is customary and 
necessary to the proper administration and enforcement of a statute of 
this nature.'').
---------------------------------------------------------------------------
    Even with these limitations, the OOC works cooperatively with 
safety professionals in the employing offices to improve conditions in 
those offices and also facilitates compliance by providing technical 
assistance and educational opportunities to these individuals. Some 
employing offices have decided to rely exclusively upon OOC inspections 
rather than having their own safety professionals conduct comprehensive 
inspections. In other cases, when necessary and practical, the OOC has 
also brought safety professionals together with other stakeholders to 
coordinate and develop solutions to safety concerns that are acceptable 
to all concerned.
    The OOC is in the process of conducting its next full-scale 
inspection of covered facilities. The 111th Congress Inspection is 
crucial to developing a strategy for future inspections because it 
provides the OOC with three independent data sets to form the 
beginnings of a trend analysis. The OOC had a picture from the data 
garnered from the 109th Congress Inspection, and utilized the 110th 
Congress Inspection data to begin looking for trends. However, with the 
information from the 111th Congress, the OOC will be able to implement 
a more thorough trend analysis and focus future inspections more 
effectively upon the areas with greatest risk. This means that some 
areas may not be included in certain inspection cycles if previously 
identified hazards have been abated and the likelihood of recurrence is 
low. In other words, provided the data supports it, the trend analysis 
would allow OOC to sample areas randomly to determine that hazards are 
not being created rather than actually inspecting every administrative 
space and office on campus. By doing so, the OOC will be able to devote 
more resources to reviewing employing office safety and health 
programs, to focusing inspections on high risk work areas and 
procedures, to developing new educational materials, and to providing 
more detailed technical assistance.
    While the general duty imposed upon all employers (private sector, 
executive branch and legislative branch) is the same--compliance with 
Section 5 of the OSHAct by furnishing a place of employment free from 
hazards--the specific mandates imposed upon the executive branch are 
quite extensive due to the provisions of OSHAct  19 and 29 CFR  1960. 
The following table illustrates the differences between the OSH 
requirements for the executive branch (as mandated by 29 CFR  1960) 
and the requirements for the legislative branch.

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
To comply with Section 5 of the OSHAct (as mandated by 29   To comply with Section 5 of the OSHAct, legislative
 CFR  1960), executive branch departments are required      offices are required to:
 to:                                                           Submit to inspection by the OOC at least
  Submit to inspection by agency safety and health              biennially.
   inspectors at least annually.
  Designate an ``Agency Safety and Health Official''
   (holding the rank of Assistant Secretary or equivalent)
   who will carry out provisions of 29 CFR 1960,
   Executive Order 12196, and Section 19 of the OSHAct. A
   principal role for this official is to provide
   ``adequate budgets and staffs to implement the
   occupational safety and health program at all levels''
  Establish safety and health officials at each
   appropriate level with sufficient authority and
   responsibility to plan for and assure funds for
   necessary safety and health staff, materials, sampling,
   testing, analyses, travel, training and equipment
   required to identify, analyze and evaluate unsafe or
   unhealthful working conditions and operations
  Ensure that performance evaluations of management and
   supervisory officials measure their effectiveness in
   meeting the requirements of the occupational safety and
   health program
  Make available the agency's occupational safety and
   health plan to employees and employee representatives
   upon their request
  Post a conspicuous notice informing employees of the
   Act, Executive Order and agency occupational safety and
   health program, and relevant information about safety
   and health committees
  Adopt emergency temporary or permanent supplementary
   standards appropriate for application to working
   conditions of agency employees for which there exist no
   appropriate OSHA standards
  Provide safety and health inspectors with safety and
   health hazard reports, injury and illness records,
   previous inspection reports, and reports of unsafe and
   unhealthful working conditions
  Post notices of unsafe or unhealthful working conditions
   that are identified by the agency's internal safety and
   health inspectors. These posters must remain until
   after the hazard has been abated
  Investigate working conditions, which employees have
   reported unsafe or unhealthful, within 24 hours to 20
   working days, depending on the potential seriousness of
   the conditions. These investigations must be made
   available to the employee within 15 or 30 working days
   depending on the condition's severity
  Investigate each accident that results in a fatality or
   in the hospitalization of three or more employees
  Establish procedures to follow up, to the extent
   necessary, to verify that hazardous conditions have
   been abated
  Prepare an abatement plan that includes a proposed
   timetable for abatement, an explanation of any delays
   in the abatement, and a summary of interim steps to
   abate the hazard
  Regularly inform established committees and/or employee
   representatives of the progress on abatement plans
  Either establish safety and health committees or be
   subject to unannounced inspections by OSHA. These
   committees, which have equal representation by
   management and non-management employees, monitor the
   performance of agency-wide safety and health programs
  Participate in the Safety, Health, and Return-to
   Employment (SHARE) Initiative which requires: (1) the
   establishment of goals and plans for reduction of
   injuries and illness; and (2) reporting on progress
   made toward meeting the established goals. The goals
   for 2004-2009 were to: (1) reduce by 3 percent the
   total number of employee injuries per year; (2) reduce
   by 3 percent the annual lost time due to worker
   injuries, and (3) reduce by 1 percent the total number
   of annual lost production days due to worker injuries.
   (Established by Presidential Memoranda on 1/9/2004 & 9/
   29/2006)
----------------------------------------------------------------------------------------------------------------

    In addition, many executive agencies apply more stringent 
definitions and other national standards for safety, health and fire 
prevention, which have not been implemented by OSHA. For example, the 
Department of Defense instruction on hearing conservation defines a 
more protective (lower) level of hazardous noise than the OSHA 
standard. In some cases for which no OSHA standard is appropriate, the 
executive branch has adopted emergency temporary or permanent 
supplementary standards. By contrast, the OOC does not apply any 
standards more stringent than those adopted by OSHA.
    The CAA also requires the OOC to perform inspections in response to 
a written request by an employee, just as OSHA inspectors respond to 
written requests by executive branch employees. At executive branch 
workplaces that have not established a safety and health committee, 
OSHA is also authorized to make unannounced inspections. In contrast, 
the OOC does not conduct unannounced inspections of any type. Although 
the OOC's procedural rules permit the use of unannounced inspections, 
the OOC's General Counsel, exercising his authority under OOC 
Procedural Rule  4.06(3) and (4), has determined that giving advance 
notice of inspections is ``necessary to assure the presence of the 
representatives of the employing office and employees needed to aid in 
the inspection'' and will ``enhance the probability of an effective and 
thorough inspection.'' For these reasons, the OOC does not make 
unannounced biennial inspections. Most employing offices are not only 
notified of the inspection well in advance, but are provided with 
reminder notices shortly before the actual inspection.
    Question. If not, doesn't this hold the Legislative Branch to a 
higher standard than the rest of the government? I do not think that 
was the intent of the Congressional Accountability Act and I certainly 
don't personally think it is appropriate.
    Answer. The legislative branch is not held to a higher standard as 
the rest of the government. As explained above, the general duty 
imposed upon all employers (including the executive and legislative 
branches) is the same--compliance with Section 5 of the OSHAct by 
furnishing a place of employment free from hazards. However, the 
specific mandates imposed upon the executive branch are far more 
extensive than those imposed on the legislative branch due to the 
provisions of OSHAct 19 and 29 CFR 1960, as illustrated in the table 
provided above.
    Question. Does your organization work closely with the Architect of 
the Capitol--taking into account the Architect's Capital Improvement 
Plan and Capitol Complex Master Plan when conducting its biennial 
inspections to ensure that redundancies in work are avoided?
    Answer. Yes. OOC and AOC work collaboratively to conduct the 
biennial inspections. The biennial inspection schedule is an integral 
part of the interim protection methods implemented to reduce the risk 
to occupants of buildings having serious safety deficiencies. The OOC 
is very conscious of budgetary concerns and works closely with the AOC 
concerning plans that involve safety improvements. As features of the 
Master Plan have received approval and funding, the OOC and the AOC 
have worked closely together to avoid redundancies in work and to 
maintain cost effectiveness. Due to the costs of the improvements 
recommended by AOC in its plan to abate hazards originally discovered 
in 2000, the OOC is working closely with the AOC to implement interim 
fire prevention and fire protection methods to lower risks in those 
buildings with serious safety deficiencies.
    The OOC also works with the AOC to conduct biennial inspections so 
as to cause minimal disruption of building operations. The OOC has 
daily contact with AOC staff and conducts regularly-scheduled meetings 
with the AOC to coordinate efforts. Prior to any inspection, a pre-
inspection conference is held to determine how the inspection can be 
conducted in the most efficient and effective manner. Prior to the 
physical inspection of an employment site, the OOC will review any 
office records regarding self-inspections and other safety initiatives 
to avoid redundancies and to focus the inspection efficiently on areas 
of concern.
    OOC Communications with Building Superintendents.--The OOC and the 
AOC have also been working on improving communication with the 
Superintendents' Offices regarding the hazards that have been 
identified during inspections. OOC and AOC representatives are working 
cooperatively to develop a regular agenda and to otherwise share 
information with the Superintendents' Offices that will better prepare 
them for the OSH Biennial Reports and future inspections. The 
additional information to be shared includes: OOC inspection priorities 
and changes in priorities, most common hazards, most serious hazards, 
inspection trends, and OOC inspector observations of existing 
conditions. This joint effort will benefit both the AOC and the OOC 
because information will be relayed to decision makers on a weekly or 
biweekly basis so that common hazards can be addressed, and employees 
in areas yet to be inspected can be informed of what the inspectors are 
expecting to find. This regular communication enhances overall 
education and protects covered employees more effectively.
    Contested Findings.--In addition, the OOC provides a procedure for 
the AOC and other employing offices to contest Biennial Inspection 
findings. Every cover letter sent with the OOC's Hazard Summary Report 
includes the following language:

    ``As to any identified hazards your office or agency wishes to 
contest, please clearly identify those findings in your responses by 
writing CONTESTED in the response area in line with the Finding ID and 
explain the rationale and related standards for the contest. If you 
object to any of the findings, please be as specific as possible in 
identifying the basis of your contest, e.g. the level of the RAC 
assessment, if you think the finding is not a hazard, if you dispute 
the location of the finding, or contest responsibility for correcting 
the hazard, etc.''

    This procedure ensures that any dispute over a finding, no matter 
what the reason, will be presented to the General Counsel for review. 
The General Counsel responds in writing to any contested finding filed 
by an employing office.
    Cannon Building Project.--The Cannon building project does not 
entail redundant or wasted work; the OOC has not required the 
installation of expensive stairwell enclosures only to be torn out 
during future remodeling. First, the OOC citation issued in 2000 does 
not mandate a specific abatement solution; instead the OOC's role is to 
evaluate whether the abatement measures proposed by the AOC will 
adequately abate the hazard pursuant to the OSHAct and fire protection 
standards. Second, the OOC has assisted AOC in an efficient 
implementation of the AOC's current plan for the Cannon Building. 
Stairwells 3-7 are already enclosed or in the process of being enclosed 
and will remain so in the new design. The alternate life-safety 
measures (creation of separate life-safety zones) to account for the 
unclosed rotunda stairways (1 and 2), if funded, will not be installed 
until 2012, after the design for the renovation has been completed. The 
renovation design plans are likely to incorporate these measures. If 
not, any necessary modifications to the fire safety measures can be 
made prior to any construction. If there are any delays in 
construction, the OOC has agreed to work with the AOC to identify and 
implement interim fire prevention and protection methods.
    Question. Does your office consider whether work that is required 
by a citation may be addressed in phases so that the impacts of the 
work on occupants and budgets may be minimized?
    Answer. Yes. When the OOC issues a citation, it only identifies 
hazards; it does not mandate particular ways in which the AOC is 
required to abate the hazard. The covered offices are given maximum 
flexibility to develop, consider and implement various corrective 
measures. For example, the citations regarding unenclosed stairwells 
contain the following abatement instructions: ``evaluate alternatives 
to reduce the danger posed by open stairwells and develop plan to 
reduce danger, taking into account costs, benefits, and historic 
preservation.'' The OOC provides technical guidance and assistance to 
the covered offices regarding various solutions that are being 
considered. As the technical expertise of the Office has expanded, more 
assistance has been provided. Although the CAA requires that violations 
be corrected ``as soon as possible'' and no later than ``the end of the 
fiscal year following the fiscal year in which the citation is issued'' 
[2 U.S.C.  1341(c)(6)], the OOC works with the employing offices to 
implement interim safety measures when abating a citation will require 
expensive alterations and take more than one Congress to complete. See, 
GAO's Briefing for Congressional Staff, AOC's Process for Prioritizing 
Capital Projects (September 2008).
    An example of such interim safety measures is the installation and 
enclosure of stairwells. Most of the AOC's current proposals regarding 
the installation and enclosure of stairwells in various buildings arose 
out of OOC inspections conducted in 2000. Improving fire prevention is 
a recognized interim measure that can allow occupancy of buildings with 
deficient fire protection. A biennial inspection is a comparatively 
inexpensive, interim measure. In buildings with inadequate fire 
protection, it is essential that the inspection focuses on the 
following: eliminating electrical hazards posed by extension cords and 
overloaded or inadequately protected circuits; minimizing egress 
hazards associated with open fire doors and obstructions in exit 
pathways; examining the functioning of all alarms, detectors and fire 
suppression systems; insuring adequate training regarding evacuation 
procedures and plans; and reducing the danger posed by a building's 
total fuel load by encouraging prudent paper storage methods. Due to 
relatively high employee turnover rates in legislative offices, 
biennial inspections are needed to keep the new staff well informed 
about fire prevention methods. Such fire prevention methods go a long 
way towards reducing the probability of fires altogether, as well as 
the severity of a fire should it occur.
    In other cases of addressing the abatement of hazards, the OOC has 
acted as a facilitator by bringing together interested stakeholders so 
that all viewpoints can be considered and a cost-effective solution can 
be found. An example of this type of cooperative decision making 
involved the House Page School, located in the attic of the Thomas 
Jefferson Building. The Page School lacks safe emergency egress--a 
serious safety hazard. The OOC, together with the AOC, brought together 
representatives, of all of the interested parties including the Clerk 
of the House, the Capitol Police, House Employment Counsel, the Library 
of Congress and the Committee on House Administration. Working 
cooperatively with the AOC and the OOC, these parties were able to 
devise a cost-effective, interim solution that addresses some of the 
most significant safety hazards and allows the Page School to continue 
operating at this location in relative safety until a permanent fix can 
be accomplished.
    Question. Do the historical buildings in our complex, such as the 
Capitol, the Jefferson Building, and the Russell Building have 
different requirements for fire and life safety than say a building 
being built today?
    Answer. Yes. The Code for Fire Protection in Historic Structures 
(NFPA 2001) implements a performance-based approach to fire safety in 
historic buildings where rigid adherence to a modern code might 
adversely affect historic integrity. This performance-based approach, 
however, still recognizes that historic buildings must provide 
reasonably equivalent fire and life safety protection for their 
occupants. Older buildings that were not built in accordance with 
modern building codes are more challenging to inspect and require more 
oversight when known hazards remain unabated. Fire departments often 
perform inspections on older buildings more frequently than biennially 
since the risk of fire in buildings with old electrical and gas systems 
is greater and the methods of egress are not as safe as in newer 
buildings. NFPA Fire Protection Handbook, pp. 7-216--7-219 (2003). The 
use of frequent inspections is a common interim ``fire prevention'' 
method that allows occupation and use of a building that would 
otherwise be unsafe because known hazards remain unabated.
    Other interim measures in buildings with inadequate egress focus on 
providing more time for occupants to evacuate a building. Increasing 
fire suppression and fire detection systems (e.g., sprinklers and smoke 
detectors) can help offset the threat posed by inadequate egress. 
Ultimately, however, all buildings need to provide safe egress to keep 
occupants out of danger. The answer to the question below offers a more 
detailed explanation as to why this is so.
    Question. Why would we need to add egress stairwells to the 
Jefferson Building--which would cost more than $12 million and cause 
major disruptions to both staff and visitors--when 98 percent of the 
building is equipped with sprinklers, 100 percent of the building is 
equipped with smoke detectors, and it is fully staffed with Capitol 
Police in the event that a fire did occur?
    Answer. After five fires \2\ in Capitol Hill buildings during 1998 
and 1999, the OOC began a comprehensive review of fire and life safety 
systems in all legislative buildings. The OOC inspection of the 
Jefferson Building in 2000 revealed serious life-threatening hazards 
pertaining to unenclosed stairwells and unprotected exit pathways that 
would expose school children, staff, and visitors to smoke and toxic 
gasses in the event of a fire. While developing a plan to abate the 
identified hazards, the AOC hired outside consultants, including Gage-
Babcock & Associates, to evaluate egress from the building. The 
resulting studies led the AOC to conclude that adequate egress could 
best be achieved by adding additional stairwells rather than merely 
enclosing existing exit stairwells and pathways. The AOC's plan for the 
Jefferson Building is acceptable to the OOC because, not only does it 
address the problems posed by unenclosed stairwells and exposed exit 
pathways, but it greatly improves egress throughout the building.
---------------------------------------------------------------------------
    \2\ In March 1998, a fire in the O'Neill Building (no longer in 
existence) sent sixteen Capitol Police officers to the hospital for 
treatment. In April 1998, seven Capitol Police officers were overcome 
by smoke while attempting to put out a fire in Longworth. In May 1998, 
a grease fire in the Longworth food court sent three kitchen workers to 
the hospital for treatment. In July 1998, Ford and Hart were both 
evacuated because of smoke. An April 1999 electrical fire in the 
Library of Congress' Madison Building seriously injured one employee, 
and required evacuation of the entire building.
---------------------------------------------------------------------------
    In assessing alternatives, the OOC and the AOC have been 
particularly concerned about the inadequate egress for the House Page 
School located in the building's attic. The proposed new stairwell for 
the House Page School is the least expensive of those being proposed 
for the building.
    The Need for Safe Egress.--While sprinklers, smoke detectors, and 
trained staff can provide more time for occupants to evacuate a 
building, buildings with these features still must provide safe egress 
to keep occupants out of danger. As noted in the NFPA Fire Protection 
Handbook, p. 4-65(2003): ``Under no condition can manual or automatic 
fire suppression be accepted as a substitute for the provision and 
maintenance of a proper means of egress.'' Improving egress for fire 
safety also improves egress during other types of emergencies 
(including attacks on the Capitol). The Capitol Hill campus is known to 
be a prime target for an attack. National Commission on Terrorist 
Attacks on the United States, The 9/11 Commission Report (New York: 
W.W. Norton, 2004). Ensuring the safety of the nation's leaders during 
a time of national emergency is a paramount national security concern. 
Id. Buildings need to have better egress when evacuation takes longer 
due to congestion, confusion, and slower walking speeds because they 
contain public assemblies, strollers and wheelchairs, young visitors 
unfamiliar with the layout, and occupants over the age of 65. NFPA Fire 
Protection Handbook, pp. 4-58--4-59, 13-64 (2003).
    Sprinklers.--Sprinkler systems do not prevent fires but help 
control fires after they occur. NFPA, Fire Protection Handbook, p. 13-
56 (2003). Fires often start in utility closets, electrical cabinets 
and other locations that do not contain sprinklers. NFPA, Fire 
Protection Handbook, p. 13-52 (2003). Sprinklers do not control fires 
that start in locations outside of the water distribution pattern due 
to obstructions (such as under desks and tables). NFPA, Fire Protection 
Handbook, p. 10-201 (2003). Fire risk in a building is determined by 
the ``fire load'' or ``fuel load,'' which measures the amount of 
combustible material in the building. NFPA, Fire Protection Handbook, 
p. 2-42 (2003). Buildings that contain tons of paper and wooden 
furnishings have larger fire loads than many industrial buildings. 
NFPA, Fire Protection Handbook, p. 6-347 (2003); Robert J. Fischer and 
Gion Green, Introduction to Security, p. 216 (7th ed. 2004). 
Combustible materials, like paper, store heat and act like ovens during 
fires even if there is no ignition. Robert J. Fischer and Gion Green, 
Introduction to Security, p. 216 (7th ed. 2004). Sufficient heat can be 
generated by un-ignited combustible material to destroy everything 
inside a building. Robert J. Fischer and Gion Green, Introduction to 
Security, p. 216 (7th ed. 2004).
    Smoke Detectors.--While smoke detectors can alert occupants to the 
presence of smoke, these devices do not eliminate the dangers posed by 
smoke, heat, toxic gas, explosion and panic. Smoke, heat, toxic gas, 
explosion and panic are more frequent killers during fires than flames. 
NFPA, Fire Protection Handbook, p. 2-42 (2003). ``Best estimates are 
that two-thirds of all fatal injuries in fires are due to smoke 
inhalation, possibly in combination with other fire effects, with more 
than half of such deaths attributable to smoke inhalation alone.'' John 
R. Hall, ``Burns, Toxic Gases and Other Fire-Like Hazards in Non-Fire 
Situations,'' p. 2 (NFPA 2004). During a fire, un-ignited combustible 
materials generate smoke. Fire Protection Handbook, p. 8-23 (2003). 
Smoke can reduce visibility to zero within 2 minutes of a fire's 
ignition. A test subject was unable to find a stairway located less 
than 2 feet away. Robert J. Fischer and Gion Green, Introduction to 
Security, p. 218 (7th ed. 2004). The danger of unenclosed stairways is 
that, without floor-to-floor separations, smoke and fire can easily 
spread from the floor of origin to other areas of the building, thereby 
increasing the risk of disability and death due to obscured visibility, 
asphyxiation, and panic. NFPA, Fire Protection Handbook, p. 12-99 
(2003). By providing isolation from smoke, fumes, and flames, enclosed 
stairways also provide safe egress that minimizes the risk of panic. 
The risk of panic is greater in buildings such as the Jefferson 
Building which contain frequent assemblies and many visitors unfamiliar 
with its layout and evacuation plans. NFPA, Fire Protection Handbook, 
p. 13-36 (2003).
    Capitol Police.--Trained personnel, such as members of the Capitol 
Police, can provide valuable assistance to occupants during a time of 
fire or other emergency. Panic can easily erupt in facilities such as 
the Jefferson Building, which receive frequent visitors who are 
unfamiliar with the building's layout and evacuation procedures. 
Trained personnel can help instill calm by providing direction and 
assistance as needed. Providing trained personnel, however, is not a 
substitute for providing a safe method of egress.
    Fire safety is still a serious problem that must be continually 
addressed on the Capitol Hill campus. There have been at least 48 fires 
in Capitol Hill buildings since 1985. A list of these fires has been 
included in the accompanying Appendix A. There have been 22 fires since 
2000.

     APPENDIX A.--IDENTIFIED CAPITOL COMPLEX FIRES; 1985 TO PRESENT

    The Office of Compliance has identified the following fire events 
as having occurred within the Capitol Complex between 1985 and 2009. 
This list has been reviewed by the AOC for accuracy.
                    (in reverse chronological order)
    Date: 4/26/2009
    Facility: DSOB
    Location: Northeast corner Generator Room
    Description: Generator Fire

    Date: 1/27/2009
    Facility: Madison Building
    Location: Conservation Lab
    Description: Trash can fire

    Date: 9/6/2008
    Facility: Capitol Power Plant
    Location: West Refrigeration Bldg.
    Description: Arc Flash Explosion and fire (localized to a capacitor 
cabinet) destroyed electrical equipment; plant evacuated; D.C. Fire 
Dept. called to scene.

    Date: xx/xx/2008
    Facility: Capitol Power Plant
    Location: (unspecified)
    Description: Electrical circuit fire to a chilled water pump; 
damage minimal.

    Date: 4/7/2008
    Facility: House Page Dorm Bldg.
    Location: Laundry room
    Description: Electrical fire; building evacuated; one USCP officer 
suffered smoke inhalation and was transported to hospital (treated and 
released).

    Date: 11/2/2007
    Facility: DSOB
    Location: Restroom
    Description: Building evacuated.

    Date: 10/31/2007
    Facility: DSOB and HSOB
    Location: Dirksen basement stairway
    Description: Buildings evacuated.

    Date: 10/3/2007
    Facility: DSOB and HSOB
    Location(s): Various women's restrooms
    Description: Four separate suspicious fires in women's restrooms (3 
fires in Dirksen and 1 in Hart). Fires extinguished by USCP.

    Date: 9/28/2007
    Facility: HSOB
    Location: Women's restroom
    Description: Suspicious fire (presumed arson). Fire extinguished by 
USCP.

    Date: 9/26/2007
    Facility: HSOB
    Location: Women's restroom
    Description: Suspicious fire (presumed arson). Fire extinguished by 
USCP.

    Date: 2/27/2007
    Facility: LHOB
    Location: Credit union
    Description: Small computer fire.

    Date: 11/07/2005
    Facility: Jefferson Bldg
    Location: Stack control room
    Description: Electrical transformer fire.

    Date: 10/8/2005
    Facility: Power Plant
    Location: (unspecified)
    Description: Electrical substation explosion and fire; near total 
loss of affected equipment; shut down of power plant for several hours.

    Date: 06/09/2005
    Facility: RHOB
    Location: Concealed pipe chase
    Description: Smoldering fire in concealed pipe chase caused by hot 
work on roof; building evacuated; minimal damage and no injuries.

    Date: 5/11/2005
    Facility: Capitol
    Location: Office (unspecified)
    Description: Fire in office space (localized); believed to have 
been caused by smoking materials.

    Date: 1/6/2005
    Facility: Capitol
    Location: Office (unspecified)
    Description: Fireplace improperly lit; extensive smoke migration 
throughout building; temporary evacuation of the building. DCFD called 
to scene for investigation and smoke removal.

    Date: 10/13/2004
    Facility: RHOB
    Location: Sub-basement
    Description: Fire in corridor (cause believed to be smoking 
materials) with extension to three storage rooms; facility evacuated; 
dense smoke conditions reported; two USCP officers treated for smoke 
inhalation at the scene.

    Date: 07/06/2003
    Facility: RSOB
    Location: Exterior transformer vault
    Description: Significant electrical fire atop transformer.

    Date: 1/24/2003
    Facility: Madison Bldg
    Location: 7th Floor
    Description: HVAC filters caught fire; building evacuated for 
hours; smoke accumulation in remote locations throughout building (due 
to HVAC involvement).

    Date: 6/29/2002
    Facility: Capitol
    Location: Ventilation system; 4th floor
    Description: Electrical motor fire; complete building evacuation; 
burning oil created dense smoke conditions that spread through the 
ductwork to other parts of the Capitol. Fire extinguisher used to put 
out fire.

    Date: 5/9/2001
    Facility: RHOB
    Location: Member's office
    Description: Fire caused by lit candles in bathroom. Building 
evacuated for several hours during the incident. Minor damage to the 
bathroom.

    Date: 6/20/2002
    Facility: Jefferson Bldg
    Location: Elevator mechanical room
    Description: Electrical fire; moderate damage.

    Date: 9/1/2000
    Facility: DSOB
    Location: Display case
    Description: Fire caused by defective light ballast; minimal damage 
and disruption.

    Date: 8/10/2000
    Facility: Capitol
    Location: Rotunda
    Description: Damage to statue and minor smoke throughout building; 
tours delayed several hours until smoke cleared.

    Date: 2/25/2000
    Facility: CHOB
    Location: Staff office
    Description: Total destruction of office; smoking materials 
believed to be cause of the fire.

    Date: 4/6/1999
    Facility: DSOB
    Location: Kitchen
    Description: Total loss of the involved cooking equipment and food 
materials. Food service area shut down for several days for repair and 
clean up.

    Date: 4/3/1999
    Facility: Madison Bldg
    Location: Substation A
    Description: Electrical explosion; two workers injured (one in 
critical condition); building evacuated.

    Date: 1/13/1999
    Facility: Capitol
    Location: West front steps and walkway
    Description: Incendiary device ignited by demonstrators.

    Date: 11/20/1998
    Facility: HSOB
    Location: Garage
    Description: Vehicle in garage caught fire; loss of vehicle was 
total; adjacent vehicles sustained moderate to severe damage. Building 
evacuated for several hours until incident was cleared and smoke was 
removed from the building's garage levels.

    Date: 7/29/1998
    Facility: CHOB
    Location: 4th floor
    Description: Fire incident to construction operations; damage to 
window area and adjacent office space.

    Date: 7/16/1998
    Facility: Ford HOB
    Location: Elevator machine room
    Description: Fire in elevator machine room; building evacuation; 
loss of elevator motor and elevator.

    Date: 5/14/1998
    Facility: LHOB
    Location: Sub-basement elevator machine room
    Description: Extensive smoke and water damage to area; several USCP 
officers injured by smoke.

    Date: 5/6/1998
    Facility: LHOB
    Location: Cafeteria kitchen
    Description: Grease fire; suppression system activated; food line 
shut down for the day for repair and clean up.

    Date: 4/23/1998
    Facility: LHOB
    Location: West elevator machine room on the sub-basement level
    Description: Developed fire in elevator machine room. USCP response 
officers attempted to extinguish--unsuccessful (fire ultimately 
controlled by D.C. Fire Dept). Ten USCP officers suffered smoke 
inhalation and received medical treatment. Smoke concentrations reached 
the top floor of the building.

    Date: 1/23/1998
    Facility: Botanic Garden's Administration Bldg
    Location: Office #115
    Description: Fire in office HVAC Equipment heating system (cause: 
fan coil unit's motor overheated).

    Date: 7/11/1997
    Facility: Madison Bldg
    Location: Loading dock
    Description: Fire began on dock with spread to nearby stored 
materials and trash compactor.

    Date: 5/2/1997
    Facility: HOB Annex I
    Location: Page Dorm
    Description: Total loss of room contents. Fire effects penetrated 
from 6th floor to 7th floor.

    Date: 3/27/1997
    Facility: HOB Annex I
    Location: Page Dorm; 3rd floor Page room
    Description: 50 percent loss in room (cause: portable electric fan 
on floor). Pages evacuated.

    Date: 1/13/1997
    Facility: Capitol
    Location: (unspecified)
    Description: Exterior fire (arson).

    Date: 9/27/1995
    Facility: CHOB
    Location: Basement mechanical equipment room
    Description: (not available).

    Date: 10/1/1994
    Facility: House warehouse
    Location: (unspecified)
    Description: Arson fire; loss estimated at $100,000 + artifacts.

    Date: 7/8/1992
    Facility: Jefferson Bldg
    Location: (unspecified)
    Description: Fire during renovation project (finishing materials 
used in the renovation project ignited).

    Date: 10/2/1990
    Facility: DSOB
    Location: 4th Floor trash cart
    Description: Smoke migration throughout building.

    Date: 7/29/1988
    Facility: CHOB
    Location: 4th floor office
    Description: Fire consumed part of office and window.

    Date: 5/6/1988
    Facility: LHOB
    Location: Speakers private office suite (2nd floor)
    Description: Electrical fire in kitchen and reception areas. 
Estimated damage $500,000. Required extensive restoration. Two USCP 
officers treated for smoke inhalation at the scene.
    (It is OOC's understanding that after this fire, the Congress 
directed the AOC to install fire alarms in all of the major Capitol 
Hill Buildings. Congress also established the House Select Committee on 
Fire Safety to investigate the condition of fire protection features in 
the House Office Buildings and Capitol.)

    Date: 5/5/1988
    Facility: LHOB
    Location: Cafeteria
    Description: Fire suppressed by fixed extinguishing system. Food 
line shut down for several days for repair and clean-up.

    Date: 5/29/1986
    Facility: Adams Bldg
    Location: 4th floor; corner room
    Description: Most materials and ceiling insulation in room 
destroyed. Heavy smoke conditions throughout the floor.

    Date: 2/28/1985
    Facility: RSOB
    Location: Senator's suite
    Description: Computer equipment fault resulting in fire.

    Question. How would you compare the OOC system of occupational 
safety and health inspections to the inspections done by OSHA in 
executive branch agencies?
    Answer. The table comparing the two systems should be responsive to 
this question. In addition, I would like to add that OOC inspections 
are very similar to ``wall to wall'' OSHA inspections. The inspection 
procedure used by the OOC is actually more ``agency friendly'' than 
OSHA's procedure because, unlike OSHA inspections which are almost 
always unannounced, OOC biennial inspections are only performed after 
notice of the inspection is provided to the employing offices. This 
practice provides the employing offices with an opportunity to inspect 
and correct any known hazards prior to an inspection--and many do.
    Question. How much do you rely on the Occupational Health and 
Safety Administration or other executive branch agencies to do your 
work? If you rely on a decision or opinion of OSHA or some other 
Executive branch office, is this allowed under the Congressional 
Accountability Act? Does OSHA itself conduct inspections in 
Congressional facilities?
    Answer. The OOC attempts to apply OSHA regulations as they are 
interpreted across the federal government and the private sector. OSHA 
also publishes directives and issues decisions interpreting its 
standards which provide useful guidance to the OOC's General Counsel in 
exercising his statutory authority under the CAA. OOC's hearing 
officers are also guided by judicial decisions interpreting OSHA as 
mandated by the CAA. 2 U.S.C.  1404(h). Currently, a detailee from the 
Department of Labor provides technical assistance and assists in 
supervising the inspectors; however, he reports directly to the General 
Counsel and is under his direct supervision. The other inspectors are 
either CAA employees or contractors. The CAA permits the Department of 
Labor to detail, upon request, personnel to the OOC as may be necessary 
to advise and assist the OOC in carrying out its OSHA-related duties 
under the CAA. 2 U.S.C.  1341(e)(4).
    As indicated in the OOC's fiscal year 2010 budget request, the 
detailee from the Department of Labor (OSHA) is scheduled to retire 
during the current fiscal year and OSHA has indicated that it cannot 
furnish a comparable or similar replacement detailee. See, OOC, Budget 
Justification Request for the Committee on Appropriations, p. 13 
(fiscal year 2010). The fiscal year 2010 budget proposal has requested 
funding to replace this vital employee.
    Congress did not adopt the substantive occupational safety and 
health regulations that were proposed by the OOC in 1996. The CAA 
requires that any regulations issued by the OOC be the same as 
substantive regulations promulgated by the Secretary of Labor except to 
the extent that a modification of such regulations would be more 
effective for the implementation of the rights and protections under 
CAA  215. See 2 U.S.C.  1341(d)(2). With respect to any OOC 
proceeding, if no regulations are issued, the CAA requires the OOC to 
apply ``the most relevant substantive executive agency regulation 
promulgated to implement the statutory provision at issue in the 
proceeding.'' See 2 U.S.C.  1411. These provisions suggest that the 
OOC can properly consider decisions and opinions from OSHA when 
interpreting the safety and health provisions of the CAA.
    The OOC is also in the process of developing regulations that will 
be consistent with the current OSHA regulations and will include the 
same requirements now followed by OGC during its biennial inspections.
    OSHA will inspect Congressional facilities only with respect to a 
private contractor performing services on the campus. To the best of 
the OOC's knowledge, OSHA has conducted inspections only in response to 
complaints regarding private contractors performing services on the 
campus.
    Question. How do you see your responsibilities and role vis-a-vis 
safety professionals in the employing offices? Do you give their own 
OSH inspections any credit or deference when deciding what needs 
inspection?
    Answer. The OOC's evaluation function includes examining the 
performance of safety initiatives and safety professionals in the 
employing offices. The OOC's ability to conduct this evaluation 
function has been somewhat hampered by the failure to incorporate the 
provisions of 29 U.S.C.  657(c) (relating to maintenance, preservation 
and availability of safety records) into the CAA \1\. The OOC's recent 
Section 102(b) Report to Congress (December 2008) proposes several 
legislative changes that would correct this problem proposes several 
legislative changes that would correct this problem by applying OSHA's 
recordkeeping and reporting requirements to the employing offices 
covered by the CAA. See OOC, Section 102(b) Report, p. 10 (December 
2008). Under the current statutory scheme, unlike the executive branch 
or private employers, employing offices are not required to make, keep, 
and preserve, or provide to the OOC records deemed necessary for 
enforcement of OSHAct Section 5, including records on work-related 
deaths, injuries and illnesses, and records of employee exposure to 
toxic materials and harmful physical agents. Similarly, under the 
current scheme, the OOC is unable to consider any inspection findings 
of safety professionals in the employing offices because employing 
offices do not share their inspection findings with the OOC. OOC 
inspectors are observing a decrease in the number of identified 
hazards, as well as increased educational efforts from the employing 
offices, but without inspection data from the employing offices 
signifying that they have adequately examined and removed OSH hazards 
from the workplace, the OOC must continue to do what is necessary to 
ensure a safe and healthy workplace for covered employees. In addition, 
neither the AOC nor any other covered employing office provides the OOC 
with injury and illness records that are necessary for strategically 
determining what areas should be inspected more regularly or provided 
more technical assistance. This information is not required as part of 
the CAA, and without it, the OOC depends on its biennial inspections to 
provide information regarding safety and health conditions to Congress.
    Even with these limitations, the OOC works cooperatively with 
safety professionals in the employing offices to improve conditions in 
those offices and also facilitates compliance by providing technical 
assistance and educational opportunities to these individuals. Some 
employing offices have decided to rely exclusively upon OOC inspections 
rather than having their own safety professionals conduct comprehensive 
inspections. In other cases, when necessary and practical, the OOC has 
also brought safety professionals together with other stakeholders to 
coordinate and develop solutions to safety concerns that are acceptable 
to all concerned.
    The OOC is in the process of conducting its next full-scale 
inspection of covered facilities. The 111th Congress Inspection is 
crucial to developing a strategy for future inspections because it 
provides the OOC with three independent data sets to form the 
beginnings of a trend analysis. The OOC had a picture from the data 
garnered from the 109th Congress Inspection, and utilized the 110th 
Congress Inspection data to begin looking for trends. However, with the 
information from the 111th Congress, the OOC will be able to implement 
a more thorough trend analysis and focus future inspections more 
effectively upon the areas with greatest risk. This means that some 
areas may not be included in certain inspection cycles if previously 
identified hazards have been abated and the likelihood of recurrence is 
low. In other words, provided the data supports it, the trend analysis 
would allow OOC to sample areas randomly to determine that hazards are 
not being created rather than actually inspecting every administrative 
space and office on campus. By doing so, the OOC will be able to devote 
more resources to reviewing employing office safety and health 
programs, to focusing inspections on high risk work areas and 
procedures, to developing new educational materials, and to providing 
more detailed technical assistance.
    Question. By what criteria does your office decide to issue a 
citation or a complaint? Do you or your deputies review each of these 
citations before they are issued?
    Answer. Criteria and Process Used to Issue a Citation.--If the 
safety and health specialist and attorney assigned to evaluate a 
certain finding believe that a citation should be issued, they prepare 
a report and make recommendations to the General Counsel. In 
formulating their recommendations, they often consult outside 
specialists at OSHA, GSA, NIOSH or other entities with expertise in the 
subject matter. The General Counsel reviews each and every report 
submitted and makes an independent determination as to whether a 
citation should issue. A citation is only issued if the hazard is 
particularly serious or creates an imminent risk to legislative branch 
employees or the public; when the hazard constitutes a ``repeat'' or 
similar or related violation of the type found in past inspections or 
which a broad, systematic remedy may be required; when an employing 
office fails to take appropriate and timely steps to correct a hazard; 
or when it is otherwise necessary to effectuate the purposes of the 
occupational safety and health laws.
    Communication of Process to Employing Offices.--The processes 
followed by the General Counsel's office with respect to the issuance 
of citations are well documented. This information has been previously 
communicated both in writing and in face-to-face conversations with 
employing offices. For example, Biennial Report on Occupational Safety 
and Health Inspections for the 108th Congress, pp. 7-11 (October 2005); 
Biennial Report on Occupational Safety and Health Inspections for the 
108th Congress, pp. 4-5 (April 2008). See also, letter to Terrell G. 
Dorn, P.E. from Peter Ames Eveleth, April 21, 2008, describing our 
citation processes (previously provided to the Committee, most recently 
on February 3, 2009). The General Counsel issues citations only 
infrequently, 67 in the 13-year history of this Office. Moreover, only 
a single complaint has been filed--that challenging the AOC's failure 
to abate long-standing, life-threatening safety and health hazards in 
the Capitol Power Plant utility tunnels. In contrast, during that 
period, many thousands of hazards have been identified in the hazard 
findings reports issued to the employing offices by the OGC following 
the inspection of each facility without issuance of a citation--13,140 
in the 109th Congress biennial inspection and 9,336 in the 110th 
Congress inspection. The responsible employing office's obligation to 
abate any hazard identified by the General Counsel applies whether or 
not a citation has been issued.
    No Routine Issuance of Citations.--Both OSHA and the OOC's General 
Counsel are required to issue citations for every serious hazard 
identified by inspections. Unlike OSHA, which immediately issues a 
citation and imposes monetary penalties for every serious hazard 
identified by its inspections, the General Counsel only issues 
citations when less formal, non-adversarial means have failed to abate 
a hazard. The General Counsel notifies the employing offices of hazards 
requiring abatement rather than routinely issuing citations. Given the 
vast number of hazards discovered during inspections, the General 
Counsel has determined that this procedure achieves more expeditious 
and voluntary abatement of hazards. The decision to issue a formal 
citation or to follow a more informal process lies within the statutory 
discretion of the General Counsel.
    Only One Complaint Has Ever Been Issued.--As indicated previously, 
only one complaint has been issued in the history of the OOC. This was 
issued due to the AOC's failure to abate long-standing, life-
threatening safety and health hazards in the Capitol Power Plant 
utility tunnels. A complaint will only be issued when little or no 
effort has been made to abate similar long-standing, life-threatening 
safety and health hazards.
    Question. Does the risk assessment code that you give to an OSH 
matter, such as those highlighting possibly deficient egress points in 
a building, include a consideration of the cost and difficulty of 
corrections and possible disruptions to a building's occupants? How 
might a risk-based analysis of safety citations affect your work?
    Answer. The risk assessment code (RAC), developed and applied by 
OOC inspectors working cooperatively with the AOC, is in fact a risk-
based analysis of safety hazards based upon the degree of harm and 
probability of occurrence. The employing or correcting office 
determines how to abate the hazard and takes into account cost, 
disruption of operations, and historical consistencies. The role of the 
OOC is to determine whether the abatement options proposed by the 
offices are adequate and timely.
    As noted earlier, the OOC's primary function is to provide an 
objective evaluation of the hazards found in legislative branch 
buildings and to provide technical assistance to employing offices when 
solutions are being considered. The employing offices customarily 
consider the cost and difficulty of corrections and possible 
disruptions to a building's occupants when evaluating and proposing 
different abatement options.
    The risk assessment codes (RACs), which the OOC began to use in 
coordination with the Architect of the Capitol's Director of Safety, 
Fire and Environmental Programs, are a version of the RACs used by the 
Department of Defense. These codes do not include costs or disruptions 
in operations. They have been established to reflect the relative risk, 
viewed as a combination of the likelihood of an exposure to a hazard 
and the severity of the resulting injury or illness.
    The Department of Defense Instruction, DOD Safety and Occupational 
Health Program, DODI 6055.1, August 19, 1998, uses the RAC in 
conjunction with a Cost Effectiveness Index (CEI) to determine an 
Abatement Priority Number (APN). The CEI is the cost of correction 
divided by an effectiveness index, which has been derived from an 
analysis of DOD accident experience. In the Department of Defense, the 
APN is used to establish the priority of the funding for abatement 
projects. That accounts for the risk, the cost and the effectiveness of 
the proposed abatement plan.
    To the best of the OOC's knowledge, none of the employing offices 
covered by the CAA uses the APN system to prioritize based upon cost 
effectiveness. In its fiscal year 2010 budget request, the OOC has 
requested funding for a Compliance Officer who would be able to help 
the employing offices establish cost-effective abatement measures. See, 
OOC, Budget Justification Request for the Committee on Appropriations, 
p. 13 (fiscal year 2010). In addition, the OOC's recent Section 102(b) 
Report to Congress (December 2008) proposes several legislative changes 
that might assist in determining relative abatement priorities. These 
changes involve adoption of OSHA's record keeping and reporting 
requirements regarding accident experience. See OOC, Section 102(b) 
Report, p. 10 (December 2008). Effective abatement priorities cannot be 
determined without information about accident experience.
    Question. Do you give priority to facilities that may be lacking 
certain safety features, such as fire sprinklers, or having a greater 
number of occupants exposed to safety issues?
    Answer. Yes. The OOC, in conjunction with the AOC, prioritizes the 
safety hazards in and among facilities by taking into consideration the 
existence of safety features such as automatic fire suppression systems 
and building occupancy rates. For instance, in deciding whether a 
building's egress deficiencies would merit the issuance of a citation, 
the OOC's General Counsel would consider the number of occupants in the 
building when determining whether the hazard was so serious as to 
require a citation.
    Question. Does your office consider whether corrections that a 
citation lists may be spaced over time so that the impacts of the 
corrections on occupants and budgets may be minimized?
    Answer. Yes. The Office of Compliance already works with the AOC in 
a flexible manner to ensure that its abatement efforts are focused on 
the highest risks, i.e., the fire and life safety hazards that the 
Office identified in the U.S. Capitol, Senate and House Office 
Buildings, and Library of Congress Buildings. The OOC identified these 
hazards in 2000 and 2001; they are the subject of open Citations 16-19 
and 29-30.
    We recognize that abating these citations presents many challenges. 
The projects are designed to correct critical safety and health hazards 
that confront Members, employees and visitors. The buildings affected 
are historic structures with powerful symbolic importance that must 
simultaneously accommodate ongoing legislative work, supporting 
services, and visitor access. And, of course, securing adequate funding 
given many competing demands is always a knotty problem. These factors 
complicate the OOC's already-difficult task of evaluating the 
effectiveness of hazard abatement proposals offered by the AOC.
    The AOC's task is more challenging still. While, in this context, 
the OOC is charged ``only'' with enforcing the safety and health 
protections of the Congressional Accountability Act, the AOC also must 
consider other priorities: building maintenance, historic preservation, 
initiatives such as ``Green the Capitol,'' and many more.
    In light of these many important and sometimes-conflicting 
missions, our Office has commenced a comprehensive risk analysis. We 
are working closely with the AOC to identify projects where temporary 
adjustments can minimize life safety risks until permanent structural 
corrections can be made. Together, our offices have begun by 
pinpointing interim measures for the House Page School in the Thomas 
Jefferson Building. Those measures are designed to ensure that students 
and faculty have evacuation routes that minimize the risk of injury 
until an enclosed exit stairway is constructed. We will continue to 
work with the AOC to identify other infrastructure hazards whose risks 
can be reduced by interim abatement measures.
    We are also examining AOC's fire prevention programs, which include 
the installation of sprinklers in legislative branch facilities. Fire 
prevention is particularly important in historic structures, where 
repair or replacement is difficult if not impossible. These programs 
reduce but cannot eliminate the risk that a fire may occur. 
Accordingly, to protect lives, it is essential permanently to correct 
hazards such as inadequate exit capacity, stairways not protected from 
fire and smoke infiltration and the like.
    Effective interim measures may not be feasible in every facility. 
Even the best fire prevention programs cannot guarantee safe evacuation 
from a structurally-deficient building. Significant, permanent 
alterations to existing facilities will be required in order to ensure 
that Capitol Complex occupants may escape a fire safely. No credible 
risk analysis can overlook these facts. We look forward to continued 
cooperation with the AOC and other stakeholders to develop an analysis 
that accounts for these and all other relevant concerns.
    We are hopeful that the AOC-OOC risk analysis will be complete by 
September 1, 2009. Thereafter, the AOC and the OOC look forward to 
presenting that analysis to the Senate and House Appropriations 
Subcommittees, as well as to our oversight Committees. Our goal is to 
provide this and other Committees with the information necessary to 
ensure that funding is directed toward the highest risks.
    Question. Your Board adopted OSH standards in January 1997. Are 
these the standards that your office applies when you decide to issue a 
notice of deficiency or a citation? What is the difference between 
notices of deficiency and citations? Do you hear or review the 
employing office's responses contesting the merits of these findings? 
If not you, who, may review these responses? If the response describes 
a matter that boils down to a difference of opinion or judgment, what 
deference do you give to the thoughts of the employing office 
representatives? Is there a way for an employing office to appeal to a 
higher authority such as a neutral expert or the OOC Board?
    Answer. The OOC goes to great lengths to ``get it right.'' It 
provides multiple opportunities for employing offices to provide 
information, opinions, suggestions, and criticisms.
    Deficiency Notices.--Congress did not adopt the OSH regulations 
proposed by the OOC Board. The OOC does not issue so-called ``notices 
of deficiency.'' If an imminent danger is discovered during an 
inspection the OOC issues a ``Notice of Serious Deficiency.'' The 
Notice of Serious Deficiency requires the responsible office to abate 
the hazard within 24 hours; the AOC routinely complies with such a 
Notice and abates the hazard accordingly. If the hazard does not 
present so immediate a threat, the OOC instead includes it in the list 
of hazard ``findings'' that are included in the final inspection report 
forwarded to the employing office. This procedure allows employing 
offices to develop a plan voluntarily to abate the hazard. The vast 
majority of hazards are abated using this procedure.
    Consideration of Employing Offices' Responses.--As noted earlier, 
the OGC initially allows employing offices to contest any hazard 
finding found during a Biennial Inspection. Every cover letter sent 
with the OOC's Hazard Summary Report includes information regarding how 
to contest the finding. If there is a dispute over a finding, for 
whatever reason, an employing office can appeal to the General Counsel 
for review. The General Counsel will respond in writing to the 
employing office and inform them that the hazard has been marked as 
abated, removed from the list of identified hazards, or remains open 
because the General Counsel has determined that there is sufficient 
justification for the finding.
    The General Counsel will also afford the employing office an 
opportunity to set forth its position on the merits of a hazard 
finding, in writing or face-to-face, if he is considering whether to 
issue a citation. Even after the citation is issued, the employing 
office is given the opportunity to present additional information to 
the General Counsel. The General Counsel gives significant 
consideration to the information presented by employing offices. A 
typical citation contains the following language:

    ``Informal Conference.--At the request of the affected employing 
office, employee, or representative of employees, the General Counsel 
may hold an informal conference for the purpose of discussing any 
issues raised by an inspection, citation, or notice, including the 
abatement date. If you decide to request an informal conference, please 
mail or fax the request to the General Counsel within 10 working days 
of your receipt of this Citation. See Office of Compliance Rules of 
Procedure, 4.15.
    ``During such an informal conference, you may present any evidence 
or views which you believe would support an adjustment to the citation. 
Be sure to bring to the conference any and all supporting documentation 
of existing conditions as well as any abatement steps taken thus far.''

    Citations.--Under the CAA, the OOC's General Counsel has the 
authority to issue a citation to any employing office responsible for 
correcting an OSH violation. 2 U.S.C. section 1341(c)(2). The ``history 
factor,'' that is, whether the hazard constitutes a ``repeat'' or 
similar/related violation of a type found in past inspections, is one 
of several factors taken into account in deciding whether to issue a 
citation. Other factors that the General Counsel considers include 
whether the identified hazard is particularly serious, or creates an 
imminent risk to legislative branch employees or the public; whether a 
broad, systemic remedy may be required; whether an employing office 
fails to cooperate in an investigation or to take appropriate and 
timely steps to correct a hazard; or whether the General Counsel 
determines it is otherwise necessary to effectuate the purposes of the 
occupational safety and health laws. These criteria were published in 
the General Counsel's Biennial Report on Occupational Safety and Health 
Inspections for both the 108th Congress (issued October 2005, pp. 10-
11) and 109th Congress (issued April 2008, pp. 4-6).
    Appeal Procedure.--While the CAA does not contain an appeal 
procedure allowing review of the General Counsel's discretionary 
decision to issue a citation or a complaint [2 U.S.C.  1341(b)(2) and 
(3)], nevertheless, as indicated previously, employing offices are 
provided with multiple opportunities, both before and after a citation 
is issued, to respond by presenting information and evidence to the 
General Counsel for consideration. In addition to these informal 
procedures, the CAA provides a formal procedure in the event that a 
citation is elevated to a complaint. An independent hearing officer has 
the authority to decide whether a complaint issued by the General 
Counsel has any merit. See 2 U.S.C.  1341(c)(3) and 2 U.S.C.  
1405(g). The hearing officer's decision can be appealed to the OOC 
Board. 2 U.S.C.  1406.
    Variance Requests.--An employing office can also request from the 
Board an order granting a variance from a standard being applied. See 2 
U.S.C.  1341(c)(4). The Board's final decision is subject to judicial 
review if a party is aggrieved by the decision. 2 U.S.C.  1341(c)(5).
    Question. If a citation ends up in the issuance of a complaint, do 
you have access to OSHA experts to serve as hearing officers to judge 
whether the citation must be obeyed?
    Answer. Yes. In the only complaint that has been issued in the 
history of the OOC, an OSHA expert was contracted to hear the case, but 
the case was resolved through a comprehensive settlement agreement 
reached by the parties. I am in the process of developing a master list 
of experts in technical matters relating to occupational safety and 
health matters to serve as hearing officers.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                          BIENNIAL INSPECTIONS

    Question. The Office of Compliance conducts biennial inspections of 
the Capitol complex. I understand that there are over 9,000 findings in 
the draft report for the 110th Congress biennial inspection. What are 
the most serious deficiencies which have been identified? To what 
extent have these deficiencies been identified in prior inspections? 
Does it make sense to continue to conduct full-scale biennial 
inspections, now that the OOC has conducted major campus-wide 
inspections for the past three Congresses? What is the cost of 
conducting a biennial inspection?
    Answer: Most Serious Deficiencies Identified.--During the 110th 
Congress Biennial Inspection, the OOC inspection team identified 19 
extremely serious safety violations--those classified as Risk 
Assessment Code (RAC) 1 hazards--the most dangerous category. Those 
deficiencies included unenclosed stairwells, penetrations in fire 
barriers, unrated or under-rated fire doors, and other obstructions 
exposing evacuating employees and visitors to toxic smoke and gasses; 
deficient emergency notification systems; and failure to provide 
effective fall protection. Nearly 2,000 other findings were classified 
as RAC 2 violations. These findings involved (1) damaged or 
deteriorating transite boards \3\ (exposing employees and visitors to 
asbestos fibers); (2) missing, damaged or defective covers, outlets, 
switches, electrical cords, electrical panels, and plugs (causing risk 
of electrical shock and fire); (3) lack of effective emergency 
lighting; and (4) defective or missing machine guards.
---------------------------------------------------------------------------
    \3\ A building material used in flooring composed of cement and 
asbestos that becomes friable when broken.
---------------------------------------------------------------------------
    Extent that Deficiencies were Identified Previously.--Approximately 
90 percent of the RAC 1 hazards identified during the 110th Congress 
inspection were attributable to previously identified hazards that 
remained unabated. Between 1,200 and 1,600 of the RAC 2 hazards are 
related to previously identified hazards, which occur when an employing 
office abated an identified hazard, but did not address its cause. For 
example, in response to a hazard finding, the employing office may have 
encapsulated asbestos from broken transite boards without removing the 
transite boards themselves. As employees continue to roll heavy carts 
over these boards, additional cracks develop and more of the asbestos 
becomes friable (causing further exposure to employees). While the 
previously identified hazard may have been abated, the cause of the 
exposure remains unaddressed and exposure to the hazardous substance 
continues. Other ``new'' hazards may be similar to previously 
identified hazards. For example, a GFCI outlet added to a circuit to 
abate a previously identified hazard may be found to be nonfunctional 
during a subsequent inspection.
    The Need for Major Campus-Wide Inspections.--There is still a need 
to conduct biennial inspections, but the OOC intends to limit the scope 
and scale of these inspections in future Congresses.
    Comprehensive campus-wide inspections have only occurred during the 
past two Congresses. The Office of Compliance has just begun its third 
full-scale, wall-to-wall inspection of the Capitol complex. With the 
completion of this third inspection, there will exist three independent 
sets of data that will enable the OOC to conduct a trend analysis of 
safety and health conditions in the legislative branch. Such an 
analysis will allow the OOC to determine where progress is being made, 
what requires closer attention, etc. Further, in jurisdictions where 
adequate OSH Act mandated safety programs and procedures are in place 
to protect workers, the risk of serious illness or injuries and, 
consequently, the necessity for frequent inspections may be 
substantially reduced as well. Such a risk-based approach will result 
in more targeted deployment of inspector resources, whether in the 
nature of the more focused inspections to ascertain the root causes of 
repeat hazards or the provision of technical and educational assistance 
to employing offices. Future inspections can be more effectively 
concentrated on areas presenting the greatest potential risk of 
illness, death or injury. Some areas may not have to be inspected 
during each inspection cycle, if previously identified hazards have 
been abated and the likelihood of recurrence is low. Other high hazard 
areas may necessitate more frequent inspections to assure abatement has 
been promptly accomplished. This is particularly important where the 
continued existence of a hazard may contribute to the creation or 
exacerbation of a fire hazard in a facility that lacks protected 
evacuation routes or sufficient egress capacity in the event of a fire. 
If the data support it, the OOC may not need to inspect every 
administrative space and office on campus, but rather random sampling 
may be sufficient to ascertain whether or not new hazards are being 
created or old hazards repeated. This will permit the OOC to devote 
more resources to reviewing employing office safety and health 
programs, focusing inspections on high risk work areas and procedures, 
developing new educational materials, and providing more in-depth 
technical assistance. In making these determinations, it is important 
that employing offices make, keep and preserve, and provide to the OOC, 
data which will be needed to develop information regarding the causes 
and prevention of occupational injuries and illnesses, an OSH Act 
requirement, 29 U.S.C. 657(c), applicable to the private sector and 
executive branch agencies, but not required under the Congressional 
Accountability Act.
    The OOC currently lacks sufficient financial resources and 
necessary statutory authority to fully track and verify abatement 
information provided by employing offices and then target its 
inspections accordingly. In its fiscal year 2010 budget request, the 
OOC has requested funding for a Compliance Officer who would be able to 
assist in the development and implementation of such a system. See, 
OOC, Budget Justification Request for the Committee on Appropriations, 
p. 13 (fiscal year 2010). The OOC's recent Section 102(b) Report to 
Congress (December 2008) proposes several legislative changes that 
would assist in the development of a targeted inspection system. These 
changes involve adoption of OSHA's record keeping and reporting 
requirements. See OOC, Section 102(b) Report, p. 10 (December 2008).
    The OOC has informed employing offices that future inspections will 
include a review of the written safety and health programs required by 
the OSH Act. Due to the number of hazard findings identified in each of 
the last two Congresses, the OOC believes that many of these hazards 
could be prevented if needed safety programs were operational in the 
legislative branch. The inspection team has observed many hazards 
attributable to the lack of effective OSHA-mandated safety and health 
programs. Similar hazards recur because employees lack a clear 
understanding of what the OSHA regulations require of them. We hope 
that employing offices will cooperate by furnishing information 
regarding their written safety and health programs. However, as noted, 
if the CAA were amended as proposed in our Section 102(b) Report, the 
OOC would have access to injury and illness records that we could use 
to determine whether existing programs are effective in reducing 
injury, illness, and accident rates as well as a substantially savings 
in worker compensation and other associated costs.\4\
---------------------------------------------------------------------------
    \4\ During fiscal year 2008, the OOC commenced a study of injury 
rates and associated costs in employing offices in the legislative 
branch based upon limited injury rate data available from the Office of 
Worker Compensation Programs. The Library of Congress, the first office 
reviewed, implemented safety programs that appeared to contribute to 
lowering the number of new injuries occurring over the last 7 years. 
From the preliminary information available to this office, it appears 
that the LOC achieved significant cost avoidance--in excess of $11 
million--during this period that otherwise would have been incurred but 
for that agency's efforts to reduce lost time injuries. See Office of 
Compliance, Fiscal Year 2008 Annual Report (March 2009), pp. 13-14.
---------------------------------------------------------------------------
    During the 111th Congress Biennial Inspection, the inspection team 
is finding fewer hazards as well as increased educational efforts by 
the employing offices. However, without data from the employing offices 
showing that they have adequately discovered and abated OSH hazards, 
the OOC must continue to do what is necessary to ensure a safe and 
healthy workplace for covered employees. In addition, as noted earlier, 
the employing offices do not provide the OOC--or perhaps may not make, 
keep or preserve--injury and illness records that would help us 
identify the most hazardous areas for more regular inspections and/or 
offers of technical assistance. Without this information, the OOC must 
rely upon its biennial and requestor-initiated inspections to provide 
information regarding workplace safety and building conditions in its 
biennial report to Congress. Without biennial inspections and the 
biennial report, Congress would not have the information required to 
exercise its oversight and appropriation functions.
    Finally, the biennial inspection schedule is a relatively 
inexpensive safety measure. Together with the safety measures 
implemented by the Architect of the Capitol in recent years, the 
biennial inspection allows continued and safer occupancy of buildings 
that have very serious fire and safety deficiencies. Due to the large 
costs involved in making building modifications that will provide 
protected egress in the event of a fire or other emergency condition, 
the OOC has worked closely with the AOC and other covered entities to 
implement some interim prevention and protection measures to reduce the 
level of risk to employees and visitors in these buildings with open 
unprotected stairwells and deficient egress capacity. Improving fire 
prevention is such a recognized interim measure. The biennial 
inspection schedule is an integral part of such interim protection 
because it permits periodic training of a continually changing 
workforce about emergency procedures and fire prevention measures being 
implemented in each building. Further, by removing hazards that 
contribute to the creation or spread of a fire, such as improper 
wiring, accumulation of paper and other fuel sources, penetration of 
fire walls, inadequate or damaged fire doors, and blockage of 
sprinklers, fire prevention is enhanced.
    Cost of Conducting a Biennial Inspection.--Most of the funds 
expended by the Office of the General Counsel are related to the 
biennial inspection process. The cost of conducting a biennial 
inspection is difficult to calculate with precision, given the multiple 
and overlapping elements of the process. We estimate that during fiscal 
year 2009, the OOC will spend roughly $1.4 million on the biennial 
inspection process.
    Two FTE's--one inspector and one management analyst--and three 
contractors are engaged in the inspection process. This process 
includes (1) inspection preparation, such as reviewing past inspection 
notes, hazard findings, condition assessments and abatement records; 
(2) scheduling and coordinating inspections with employing offices; (3) 
travel time; (4) physically inspecting over 17 million square feet of 
legislative branch facilities; (5) post-inspection data entry of 
inspection findings; (6) reviewing data for quality control; (7) 
preparing Hazard Findings Reports; (8) communicating with employing 
offices and the AOC about findings and proposed abatement dates; (9) 
reviewing and resolving disputes over any findings contested by 
employing offices; and (10) reviewing proposed abatement measures and 
abatement dates.
    In addition, an Administrative Assistant (FTE) and a contract 
clerical assistant are engaged nearly full time in inspection-related 
responsibilities. Three FTE attorneys also spend significant time on 
inspection-related work. Attorneys and inspectors provide technical 
assistance to employing offices concerning abatement measures, and the 
development and implementation of OSH-mandated safety programs and 
procedures. The attorney and inspection staff prepare statutorily-
required reports to Congress regarding the biennial inspections. 
Inspectors, attorneys, and support staff contribute to the preparation 
of these reports, including reviewing employing office comments on the 
draft reports in advance of publication. At least 70 percent of the 
General Counsel and Deputy General Counsel's efforts are related to OSH 
matters.
    The OOC spends funds on equipment used in the inspection, such as 
electrical testers, industrial hygiene equipment, door pressure gauges 
and slope meters. Maintaining the FMA database also requires the 
expenditure of funds.
    The value added from these inspections has been proven by the 
reduction in the number of identified hazards in the last 5 years. The 
number of hazards dropped by roughly 30 percent between the 109th and 
110th Congresses. Moreover, in the 111th Congress, the OOC is already 
observing a 75 percent reduction of hazards in Member offices compared 
to the 109th Congress. Because hazards tend to remain unabated absent 
oversight, we believe it unlikely that such reductions would have been 
achieved without our biennial inspections. Finally, as noted earlier, 
the biennial inspection schedule is a relatively inexpensive interim 
measure that substantially contributes to lowering the risk to 
occupants of facilities having serious fire and safety deficiencies.

                               CITATIONS

    Question. As you know, AOC puts the highest priority on funding for 
projects that have received a citation from the Office of Compliance. 
Are projects with citations necessarily those posing the highest risk 
to health and safety throughout Capitol facilities?
    Answer. Yes. The General Counsel issues a citation when there is a 
hazard posing a potentially high risk to health and safety. Citations 
are issued infrequently, 67 in the 13-year history of this Office, 
particularly given the large number of hazard findings issued during 
our biennial inspections. Moreover, only a single complaint has been 
filed--that challenging the AOC's failure to abate longstanding, life-
threatening safety and health hazards in the Capitol Power Plant 
utility tunnels. In contrast, during that period, the OGC has notified 
the employing offices of many thousands of hazards following the 
inspection of each facility--13,140 in the 109th Congress biennial 
inspection and 9,336 in the 110th Congress inspection--all without 
issuance of a citation.
    Both OSHA and the OOC's General Counsel are required to issue 
citations for every serious hazard identified by inspections. Unlike 
OSHA, which immediately issues a citation and imposes monetary 
penalties for every serious hazard identified by its inspections, the 
General Counsel only issues citations when less formal, non-adversarial 
means have failed to abate a hazard. The General Counsel notifies the 
employing offices of hazards requiring abatement rather than routinely 
issuing citations. Given the vast number of hazards discovered during 
inspections, the General Counsel has determined that this procedure 
achieves more expeditious and voluntary abatement of hazards. The 
decision to issue a formal citation or to follow a more informal 
process lies within the statutory discretion of the General Counsel.
    Question. I understand your office has been attempting to do more 
outreach to the AOC and work in a more cooperative manner. How does OOC 
decide whether to work with the AOC or issue a citation?
    Answer. The OOC goes to great lengths to ``get it right.'' It 
offers multiple opportunities for the AOC and other employing offices 
to provide information, opinions, suggestions, and criticisms. As 
indicated above, citations are not regularly issued. In fact, only one 
citation has been issued since December 2006. The OOC is continually 
exploring with the AOC and other offices creative ways to work more 
cooperatively. The OGC offers employing offices the opportunity to 
contest any hazard finding found during a biennial Inspection. Every 
cover letter sent with the OOC's Hazard Summary Report includes 
information regarding how to contest the finding. If there is a dispute 
over a finding, for whatever reason, an employing office can appeal to 
the General Counsel for review. The General Counsel responds in writing 
to the employing office and informs them that the hazard has been 
marked as abated, removed from the list of identified hazards, or 
remains open because the General Counsel has determined that there is 
sufficient justification for the finding.
    The General Counsel also affords the employing office an 
opportunity to set forth its position on the merits of a hazard 
finding, in writing or face-to-face, if he is considering whether to 
issue a citation. Even after the citation is issued, the employing 
office is given the opportunity to present additional information to 
the General Counsel. A typical citation contains the following 
language:

    ``Informal'' Conference.--At the request of the affected employing 
office, employee, or representative of employees, the General Counsel 
may hold an informal conference for the purpose of discussing any 
issues raised by an inspection, citation, or notice, including the 
abatement date. If you decide to request an informal conference, please 
mail or fax the request to the General Counsel within 10 working days 
of your receipt of this Citation. See Office of Compliance Rules of 
Procedure, 4.15.
    During such an informal conference, you may present any evidence or 
views which you believe would support an adjustment to the citation. Be 
sure to bring to the conference any and all supporting documentation of 
existing conditions as well as any abatement steps taken thus far.''

    As indicated above, the General Counsel will only issue a citation 
when the identified hazard is particularly serious or creates an 
imminent risk to legislative branch employees or the public; when the 
hazard constitutes a ``repeat'' or similar or related violation of the 
type found in past inspections or when a broad, systematic remedy may 
be required; when an employing office fails to take appropriate and 
timely steps to correct a hazard; or when he determines it is otherwise 
necessary to effectuate the purposes of the occupational safety and 
health laws.
    Question. Can OOC do more to work with AOC in a flexible manner--
without jeopardizing serious health and safety considerations--to 
ensure we fund those projects that are truly aimed at the highest 
risks?
    Answer. Yes. The Office of Compliance does work with the AOC, as 
well as other offices, in a flexible manner to ensure that its 
abatement efforts are focused on the highest risks, i.e., the fire and 
life safety hazards that the Office identified in the U.S. Capitol, 
Senate and House Office Buildings, and Library of Congress buildings. 
The OOC identified these hazards in 2000 and 2001; they are the subject 
of open Citations 16-19 and 29-30. The AOC historically has determined 
what to include in its budget request. It is the AOC that has set 
funding priorities among citation abatement projects. The OOC 
traditionally has not been involved in the AOC's process of setting 
priorities among those projects.
    At the request of staff from this Subcommittee and their 
counterparts in the House, the OOC and AOC recently have begun an 
effort to assess the relative risks posed by these open citations, with 
the goal of informing the process of setting funding priorities. We are 
working closely with the AOC to identify projects where temporary 
adjustments can minimize life safety risks until permanent structural 
corrections can be made. For example, our offices began by pinpointing 
interim measures for the House Page School in the attic of the Thomas 
Jefferson Building, which can be evacuated only via a spiral staircase. 
The interim measures are designed to ensure that students and faculty 
have evacuation routes that reduce the risk of injury until an enclosed 
exit stairway is constructed.
    We will continue to work with the AOC to identify other 
infrastructure hazards whose risks can be reduced by interim abatement 
measures. We are hopeful that the AOC-OOC risk analysis will be 
complete by September 1, 2009. Thereafter, the AOC and the OOC look 
forward to presenting that analysis to the Senate and House 
Appropriations Subcommittees, as well as to our respective oversight 
Committees. Our goal is to provide this and other Committees with the 
information necessary to ensure that funding is directed toward the 
highest risks.
    Our analysis will include an examination of AOC's fire prevention 
programs, which include the installation of sprinklers in legislative 
branch facilities. Fire prevention is particularly important in 
historic structures, where repair or replacement is difficult if not 
impossible. These programs reduce but cannot eliminate the risk that a 
fire may occur, and if occurring, may be contained in scope. 
Accordingly, to protect lives, it is essential permanently to correct 
hazards such as inadequate exit capacity, stairways not protected from 
fire and smoke infiltration and the like.
    Effective interim measures may not be feasible in every facility. 
Even the best fire prevention programs cannot guarantee safe evacuation 
from a structurally deficient building. Significant, permanent 
alterations to existing facilities will be required in order to ensure 
that Capitol Complex occupants may escape a fire safely. No credible 
risk analysis can overlook these facts. We look forward to continued 
cooperation with the AOC and other stakeholders to develop an analysis 
that accounts for these and all other relevant concerns.
    Question. Under current law, can OOC take into consideration the 
importance of undertaking projects in a coordinated, risk-based manner?
    Answer. As noted above, despite the time limitations imposed by the 
CAA, and understanding the importance of undertaking projects in a 
coordinated, risk-based manner, the OOC has worked with the AOC to 
implement interim measures to reduce the degree of risk to occupants of 
buildings with known safety and fire hazards requiring expensive 
alterations that will take more than one Congress to complete. 
Ordinarily, a citation sets forth the date by which abatement must be 
completed by the office responsible for correcting the hazard. In 
setting that date, the General Counsel takes into account whether full 
or partial abatement is achievable within that timeframe. The employing 
office may challenge the time set by the citation by submitting a 
request for modification of abatement, and if the request is not 
granted, an enforcement proceeding may resolve that issue. The GAO 
addressed this question in a Briefing for Congressional Staff, AOC's 
Process for Prioritizing Capital Projects (September 2008) as follows:
    While it is clear that AOC is statutorily required to correct 
violations of health and safety standards, it is not clear as to when 
the statutory compliance requirement begins if new appropriated funds 
are needed because of the statutory enforcement framework regarding the 
OOC process for citations, complaints, and orders. While 2 U.S.C. 
1341(c)(6) sets a deadline using ``the end of the fiscal year 
following the fiscal year in which the citation is issued or the order 
requiring correction becomes final and not subject to further review,'' 
the OOC GC sets a time limit for corrective action consistent with 
OOC's regulations in its citations, complaints, and orders, which could 
be longer than the statutory timeframe. For example, to resolve the 
complaint for hazards in the Capitol Power Plant utility tunnels issued 
by OOC GC, the OOC GC and AOC entered into a settlement agreement that 
set a 5 year time limit for corrective action by May 2012, which a 
hearing officer ordered the AOC to comply with, whereas a literal 
interpretation of the statutory timeframe would require corrective 
action by October 1, 2008. For budgetary decisions, it is unclear 
whether AOC has to correct the violations: using the date of the 
citation or order, or the date stipulated by the OOC in citation or 
order. Using either time limit though, AOC must take steps to obtain 
sufficient funding to correct the violations, such as including amounts 
in its budget request; however, Congress is not required to appropriate 
funds to cover the corrective actions.
    Question. Are there statutory changes needed to ensure we aren't 
holding the Legislative Branch to a higher (or different) standard than 
GSA or private sector buildings? Please be specific.
    Answer. The OSHAct imposes a ``General Duty'' upon all employers 
(including executive branch departments and private employers) ``to 
furnish a place of employment free from recognized hazards that are 
causing or likely to cause death or serious physical harm to 
employees'' and requires employers to comply with regulations issued by 
the Secretary of Labor (OSHA Regulations). The Congressional 
Accountability Act (CAA) imposes this ``General Duty Clause'' upon each 
employing office and each covered employee. However, the CAA does not 
apply to the legislative branch the many specific mandates that the 
OSHAct imposes in the executive branch.
    While the general duty imposed upon all employers (private sector, 
executive branch and legislative branch) is the same--compliance with 
Section 5 of the OSHAct by furnishing a place of employment free from 
hazards--the specific mandates imposed upon the executive branch are 
quite extensive due to the provisions of OSHAct  19 and 29 CFR  1960. 
The following table illustrates the differences between the OSH 
requirements for the executive branch (as mandated by 29 CFR  1960) 
and the requirements for the legislative branch.

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
To comply with Section 5 of the OSHAct (as mandated by 29   To comply with Section 5 of the OSHAct, legislative
 CFR  1960), executive branch departments are required      offices are required to:
 to:                                                           Submit to inspection by the OOC at least
  Submit to inspection by agency safety and health              biennially.
   inspectors at least annually.
  Designate an ``Agency Safety and Health Official''
   (holding the rank of Assistant Secretary or equivalent)
   who will carry out provisions of 29 CFR 1960,
   Executive Order 12196, and Section 19 of the OSHAct. A
   principal role for this official is to provide
   ``adequate budgets and staffs to implement the
   occupational safety and health program at all levels''
  Establish safety and health officials at each
   appropriate level with sufficient authority and
   responsibility to plan for and assure funds for
   necessary safety and health staff, materials, sampling,
   testing, analyses, travel, training and equipment
   required to identify, analyze and evaluate unsafe or
   unhealthful working conditions and operations
  Ensure that performance evaluations of management and
   supervisory officials measure their effectiveness in
   meeting the requirements of the occupational safety and
   health program
  Make available the agency's occupational safety and
   health plan to employees and employee representatives
   upon their request
  Post a conspicuous notice informing employees of the
   Act, Executive Order and agency occupational safety and
   health program, and relevant information about safety
   and health committees
  Adopt emergency temporary or permanent supplementary
   standards appropriate for application to working
   conditions of agency employees for which there exist no
   appropriate OSHA standards
  Provide safety and health inspectors with safety and
   health hazard reports, injury and illness records,
   previous inspection reports, and reports of unsafe and
   unhealthful working conditions
  Post notices of unsafe or unhealthful working conditions
   that are identified by the agency's internal safety and
   health inspectors. These posters must remain until
   after the hazard has been abated
  Investigate working conditions, which employees have
   reported unsafe or unhealthful, within 24 hours to 20
   working days, depending on the potential seriousness of
   the conditions. These investigations must be made
   available to the employee within 15 or 30 working days
   depending on the condition's severity
  Investigate each accident that results in a fatality or
   in the hospitalization of three or more employees
  Establish procedures to follow up, to the extent
   necessary, to verify that hazardous conditions have
   been abated
  Prepare an abatement plan that includes a proposed
   timetable for abatement, an explanation of any delays
   in the abatement, and a summary of interim steps to
   abate the hazard
  Regularly inform established committees and/or employee
   representatives of the progress on abatement plans
  Either establish safety and health committees or be
   subject to unannounced inspections by OSHA. These
   committees, which have equal representation by
   management and non-management employees, monitor the
   performance of agency-wide safety and health programs
  Participate in the Safety, Health, and Return-to
   Employment (SHARE) Initiative which requires: (1) the
   establishment of goals and plans for reduction of
   injuries and illness; and (2) reporting on progress
   made toward meeting the established goals. The goals
   for 2004-2009 were to: (1) reduce by 3 percent the
   total number of employee injuries per year; (2) reduce
   by 3 percent the annual lost time due to worker
   injuries, and (3) reduce by 1 percent the total number
   of annual lost production days due to worker injuries.
   (Established by Presidential Memoranda on 1/9/2004 & 9/
   29/2006)
----------------------------------------------------------------------------------------------------------------

    The legislative branch is also required to comply with fewer 
mandates than the private sector. Unlike private sector employers, the 
employing offices covered by the CAA are not required to comply with 
OSHA  8(c) [29 U.S.C.  657(c)]. That provision requires employers to 
maintain and provide to the Secretary of Labor records regarding 
employee injuries and illnesses.
    The OOC's recent Section 102(b) Report to Congress (December 2008) 
proposes to apply OSHA's recordkeeping and reporting requirements to 
the employing offices covered by the CAA. See OOC, Section 102(b) 
Report, p. 10 (December 2008). Under the current statutory scheme, 
employing offices are not required to make, keep, preserve, or provide 
to the OOC records deemed necessary for enforcement of OSH Act Section 
5, including records on work-related deaths, injuries and illnesses, 
and records of employee exposure to toxic materials and harmful 
physical agents. Similarly, under the current scheme, the OOC is unable 
to consider any inspection findings of safety professionals in the 
employing offices because employing offices do not share their 
inspection findings with the OOC. In addition, neither the AOC nor any 
other covered employing office provides the OOC with injury and illness 
records that are necessary for strategically determining what areas 
should be inspected more regularly or provided more technical 
assistance. This information is not required to be compiled or 
disclosed under the CAA, and without it, the OOC depends on its 
biennial inspections to provide information regarding building 
conditions and workplace safety to Congress.

                   RISK-BASED APPROACH TO SAFETY WORK

    Question. How do you prioritize your safety-related inspections 
work? Are you able to give priority to facilities that may be lacking 
certain safety features, such are fire sprinklers, or having a greater 
number of occupants and visitors exposed to safety issues? If not, are 
legislative changes needed?
    Answer. As noted above, the OOC has just begun its third 
comprehensive, wall-to-wall inspection of the Capitol complex. This 
inspection will provide a third set of data which will be used to 
develop a more focused risk-based inspection schedule. As also noted 
above, under the current statutory scheme, employing offices are not 
required to make, keep, and preserve, or provide to the OOC, records 
deemed necessary for enforcement of OSHAct Section 5, including records 
on work-related deaths, injuries and illnesses, and records of employee 
exposure to toxic materials and harmful physical agents. Requiring the 
employing offices to maintain and disclose such records would greatly 
assist the OOC in strategically planning what areas should be inspected 
more regularly or provided more technical assistance. This is a 
legislative change the OOC has previously suggested in its Section 
102(b) Report, p. 10 (December 2008).
    Under the CAA, the OOC is also required to inspect and investigate 
places of employment in response to a written request from an employing 
office or a covered employee. CAA  215(c)(1), 2 U.S.C.  1341(c)(1). 
Requestor-initiated inspections are therefore also given priority 
regardless of whether the building has sprinklers or low occupancy 
rates.
    Finally, in buildings with known fire and safety hazards, the OOC 
and the employing offices have implemented interim prevention and 
protection measures to provide relatively safe occupancy. These interim 
safety measures often include frequent inspections and training. 
Buildings that lack sprinkler coverage in whole or in part, and/or have 
higher occupancy rates, are given a higher priority when determining 
the frequency of these types of inspections.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The subcommittee will stand in recess until 
2:30 p.m. on May 21, 2009, when we will meet to take testimony 
on the fiscal year 2010 budget requests of the Government 
Accountability Office, the Government Printing Office, and the 
Congressional Budget Office.
    It is recessed. Thank you.
    [Whereupon, at 3:55 p.m., Thursday, May 7, the subcommittee 
was recessed, to reconvene at 2:30 p.m., Thursday, May 21.]

</pre></body></html>
